<html>
<title> - HEARING ON H.R. 643, THE AFRICAN ELEPHANT CONSERVATION REAUTHORIZATION ACT OF 2001; H.R. 645, THE RHINOCEROS AND TIGER CONSERVATION REAUTHORIZATION ACT OF 2001; AND H.R. 700, THE ASIAN ELEPHANT CONSERVATION REAUTHORIZATION ACT OF 2001</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                    H.R. 643, H.R. 645 AND H.R. 700

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 15, 2001

                               __________

                            Serial No. 107-5

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 --------
                   U.S. GOVERNMENT PRINTING OFFICE
71-290                    WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. "Billy" Tauzin, Louisiana       Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
C.L. "Butch" Otter, Idaho            Betty McCollum, Minnesota
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana
VACANCY

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. "Billy" Tauzin, Louisiana           Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 15, 2001...................................     1

Statement of Members:
    Faleomavaega, Hon. Eni F.H., a Delegate to Congress from 
      American Samoa.............................................    12
        Prepared statement on H.R. 643, H.R. 645, and H.R. 700...    13
    Gilchrest, Hon. Wayne, a Representative in Congress from the 
      State of Maryland..........................................     1
        Prepared statement on H.R. 643, H.R. 645, and H.R. 700...    11
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................    13
        Prepared statement on H.R. 700...........................    14

Statement of Witnesses:
    Berry, John, Executive Director, National Fish and Wildlife 
      Foundation.................................................    49
        Prepared statement on H.R. 645...........................    51
    Foose, Dr. Thomas J., Program Director, International Rhino 
      Foundation.................................................    84
        Prepared statement on H.R. 643, H.R. 645, and H.R. 700...    86
    Hemley, Ginette, Vice President for Species Conservation, 
      World Wildlife Fund........................................    25
        Prepared statement on H.R. 643, H.R. 645, and H.R. 700...    27
    Jones, Marshall, Acting Director, U.S. Fish and Wildlife 
      Service....................................................    15
        Prepared statement on H.R. 643, H.R. 645, and H.R. 700...    17
        Response to questions submitted for the record by The 
          Honorable Richard Pombo................................    42
        Response to questions submitted for the record by The 
          Honorable Eni Faleomavaega.............................    46
    Kirtland, John, Executive Director for Animal Stewardship, 
      Feld Entertainment, Inc., Ringling Bros. and Barnum & 
      Bailey Circus..............................................    80
        Prepared statement on H.R. 700...........................    81
    Rapp, James L., Executive Director, Salisbury Zoological Park    20
        Prepared statement on H.R. 643, H.R. 645, and H.R. 700...    22
    Robinson, Dr. John G., Senior Vice President and Director, 
      International Conservation, Wildlife Conservation Society..    75
        Prepared statement on H.R. 643, H.R. 645, and H.R. 700...    77
        Response to questions submitted by The Honorable Eni 
          Faleomavaega...........................................    79
    Steuer, Karen, Director, Commercial Exploitation and Trade 
      Program, International Fund for Animal Welfare.............    65
        Prepared statement on H.R. 643, H.R. 645, and H.R. 700...    67
        Response to questions submitted by The Honorable Eni 
          Faleomavaega...........................................    71

Additional materials supplied:
    Text of H.R. 643.............................................     3
    Text of H.R. 645.............................................     6
    Text of H.R. 700.............................................     9

 
HEARING ON H.R. 643, THE AFRICAN ELEPHANT CONSERVATION REAUTHORIZATION 
     ACT OF 2001; H.R. 645, THE RHINOCEROS AND TIGER CONSERVATION 
     REAUTHORIZATION ACT OF 2001; AND H.R. 700, THE ASIAN ELEPHANT 
                CONSERVATION REAUTHORIZATION ACT OF 2001

                              ----------                              


                        Thursday, March 15, 2001

                        House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 1324 Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.

   STATEMENT OF HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good morning, everybody. Welcome to the 
first hearing for Fish, Wildlife and Oceans. We look forward to 
the hearing today and to the testimony from the witnesses, and 
I appreciate all the hard work that my colleague, Jim Saxton, 
did while he was Chairman of this Subcommittee for six years, 
with the able companionship of Eni Faleomavaega, whose name it 
took me a while to pronounce, but I am doing a better job now.
    We look forward over the next two years to carrying on the 
tradition that was most ably set by these two men who have a 
lifelong interest and concern, with strength and compassion, to 
preserve the world's resources. This hearing today will focus 
to a great extent on all of that.<plus-minus>
    I was pleased to introduce legislation to reauthorize the 
African Elephant and Rhino and Tiger Conservation Funds along 
with what Jim and Eni have done in the past. In fact, these 
funds represent the only continuous source of money in the 
world and they are, to quote the Fish and Wildlife Service, 
``not a hand-out, but a helping hand.'' So we will continue in 
that tradition as well.
    During the past 13 years, the Service has approved 251 
conservation grants to assist rhinos, tigers, and elephants in 
a number of range countries. The total expenditure of Federal 
funds has been $16.7 million, which has been matched by $56.9 
million in private money. While the list of approved projects 
is lengthy, it represents less than 50 percent of the total 
number submitted to the U.S. Fish and Wildlife Service. The 
need is great and it is essential that these funds are extended 
for an additional five years.
    Furthermore, I have cosigned a letter to Secretary Gale 
Norton supporting a $1 million appropriation for each of the 
five accounts under the Multinational Species Conservation 
Fund.
    [H.R. 643, H.R. 645, and H.R. 700 follow:]
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gilchrest. I do this morning look forward to the 
testimony from our witnesses. It almost seems like there is 
barely this thin thread between extinction and survival, and 
the thin thread are those of you and those whom you represent 
who have come here to testify, and the little pittance, 
although you have used it wisely, of Federal money
    I recently completed a book called ``The Sea of 
Slaughter,'' by Farley Mowatt, the man famous for ``Never Cry 
Wolf,'' in which he describes wildlife to a large extent along 
the East Coast of the U.S. and Canada in a historical 
perspective from the 1500's--actually, he fixed the date, 1500 
to the present, and what happened to the ptarmigan, the golden 
eagle, the polar bear, the black bear, the grizzly bear, the 
mink, the auk, a myriad of shore birds, and the list goes on, 
because of our intrusion in a way that, looking back now, was 
ruthless for the slaughter of profit, the habitat loss, the 
vast starvation because of habitat loss, and fundamental 
stupidity, arrogance, and ignorance.
    I have a nephew who is a Presbyterian missionary in 
Ethiopia and I saw him recently when he came back to visit. He 
said there is a very widespread saying in Ethiopia and it goes 
like this: if all you know you learned from your father and 
your father is ignorant, what does that make you? It is pretty 
profound, not necessarily politically correct, but quite 
profound.
    So we look forward to what we will hear this morning, and 
we will do our darnedest to make sure the program not only 
survives but gets as near fully funded as possible and expands.
    [The prepared statement of Mr. Gilchrest follows:]

 STATEMENT OF THE HONORABLE WAYNE GILCHREST, CHAIRMAN, SUBCOMMITTEE ON 
              FISHERIES CONSERVATION, WILDLIFE AND OCEANS

    Good morning and welcome to our first legislative hearing of the 
107th Congress. I am Congressman Wayne Gilchrest and I represent the 
1st District of Maryland.
    Today's hearing will focus on three wildlife conservation bills 
that will extend the authority of the Secretary of the Interior to 
undertake grants to conserve the flagship species of African elephants, 
Asian elephants, rhinoceros and tigers.
    I was pleased to introduce legislation to reauthorize the African 
Elephant and Rhino and Tiger Conservation Funds because this small 
investment of U.S. money is critical to the long term survival of these 
species and the ecosystems where they live. In fact, these funds 
represent the only continuous source of money in the world and they are 
to quote the U.S. Fish and Wildlife Service not a hand out, but a 
helping hand.
    During the past thirteen years, the Service has approved 251 
conservation grants to assist rhinos, tigers and elephants in a number 
of range countries. The total expenditure of Federal funds has been 
$16.7 million which has been matched by $56.9 million in private money. 
While the list of approved projects is lengthy, it represents less than 
50 percent of the total number submitted to the U.S. Fish and Wildlife 
Service. The need is great and it is essential that these funds be 
extended for an additional five years.
    Furthermore, I have co-signed a letter to Secretary Gale Norton 
supporting a million dollar appropriation for each of the five accounts 
under the Multinational Species Conservation Fund.
    Finally, I look forward to hearing from our distinguished witnesses 
and I hope that they will address the benefits of these Acts and 
whether any modifications or changes are necessary.
    I am now pleased to recognize the Ranking Minority Member
                                 ______
                                 
    Mr. Gilchrest. On that note, I would like to yield to the 
gentleman from American Samoa.

    STATEMENT OF HON. ENI. F.H. FALEOMAVAEGA, A DELEGATE TO 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. Allow me to 
congratulate you on becoming the Chairman of the Fisheries 
Conservation, Wildlife and Oceans Subcommittee. Certainly, I am 
sure that myself and my colleagues wish you all the best in 
your new responsibilities, as I am also confident that you will 
carry on the business of the Subcommittee on the same 
bipartisan basis as your predecessor, and certainly a dear 
friend and colleague, now the Subcommittee's Vice Chairman, the 
gentleman from New Jersey, Mr. Saxton.
    I just want to compliment and certainly thank him for 
allowing me to work with him in the past two years as his 
ranking minority member on this Subcommittee. It has been an 
enriching experience for me to learn so much, and I am still 
learning a lot concerning these responsibilities that we now 
have under this Subcommittee.
    Mr. Chairman, our ranking member, the gentleman from Guam, 
Mr. Underwood, has asked me to pinch hit for him this morning. 
He has had to get up at 4 this morning to catch a 6 a.m. flight 
to his home district, which is only about 18 hours, a plane 
experience that I am sure none of us here are envious of. But 
he does send his regards and regrets for not being here, but 
certainly wishes and hopes that what we consider here in our 
Subcommittee will be fruitful and productive. Certainly, I 
don't see any problems in the passage of the proposed 
legislation that is now before us.
    As you know, Mr. Chairman, the conservation and protection 
of wildlife resources is one of the major oversight 
responsibilities of this Subcommittee. Consequently, I was 
pleased to join you and Mr. Saxton in cosponsoring your 
legislation to reauthorize three very important international 
wildlife conservation statutes--the African Elephant 
Conservation Act, the Rhinoceros and Tiger Conservation Act, 
and the Asian Elephant Conservation Act.
    The grant programs initiated under these Acts have been 
responsive, effective and successful in supporting a diversity 
of conservation activities in various range states scattered 
throughout Africa and Asia. In fact, these grant programs have 
been so successful that the 106th Congress authorized two 
additional conservation programs, one for great apes and a 
second for neotropical migratory birds.
    Of course, no program is without its critics. I am sure 
that some aspects of these programs can be improved. One 
question I do have is whether or not these grant programs are 
funding the most critical priority needs in the field, as 
identified by the range states themselves. In this respect, I 
look forward to hearing from our witnesses this morning, and I 
look forward to working with you and the ranking Democratic 
member of our Subcommittee, Mr. Underwood, and certainly swift, 
favorable consideration of these proposed bills.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Faleomavaega follows:]

    STATEMENT OF THE HONORABLE ENI F.H. FALEOMAVAEGA, A DELEGATE TO 
                      CONGRESS FROM AMERICAN SAMOA

    Thank you Mr. Chairman, and good morning. Allow me to congratulate 
you on becoming the Chairman of the Fisheries Conservation, Wildlife 
and Oceans Subcommittee. I wish you well and good luck in your new 
responsibilities. I am confident that you will carry on the business of 
this Subcommittee in the same bipartisan fashion as your predecessor, 
and now the Subcommittee's Vice Chairman, Jim Saxton.
    As you know Mr. Chairman, the conservation and protection of 
wildlife resources is one of the major oversight responsibilities of 
this subcommittee. Consequently, I was pleased to join you and Mr. 
Saxton in cosponsoring your legislation to reauthorize three very 
important international wildlife conservation statutes: The African 
Elephant Conservation Act; the Rhinoceros/Tiger Conservation Act; and 
the Asian Elephant Conservation Act.
    The grant programs initiated under these Acts have been responsive, 
effective, and successful in supporting a diversity of conservation 
activities in various range states scattered throughout Africa and 
Asia. In fact, these grant programs have been so successful, the 106th 
Congress authorized two additional conservation programs: one for great 
apes and a second for neotropical migratory birds.
    Of course, no program is without its critics, and I am sure that 
some aspects of these programs can be improved. One question I do have 
is whether or not these grant programs are funding the most critical 
priority needs in the field as identified by the range states 
themselves.
    In this respect, I look forward to hearing suggestions from our 
witnesses today on how Congress might be able to improve these vitally 
important conservation programs.
    Mr. Chairman, I look forward to working with you and with the 
ranking Democratic member on the Subcommittee, Mr. Underwood, on the 
swift consideration of your legislation.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Faleomavaega.
    Mr. Saxton?

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. Thank you, Mr. Chairman. Let me just say 
congratulations to you for assuming the Chairmanship of this 
great Subcommittee. I have certainly enjoyed my tenure here and 
I have enjoyed working with you. I guess through everybody's 
career there are bright spots, and one of the bright spots is 
knowing that you will be here guiding this Subcommittee, and we 
certainly appreciate it.
    There is good news and bad news, though. The good news is 
that Wayne will be here doing a great job on this Subcommittee, 
but if you look at this Chairmanship from the standpoint of a 
nutria, it is probably a dark spot because they are in trouble.
    For those of you who don't know, nutria are little varmints 
that were imported into the Eastern Shore of Maryland from 
someplace in South America and they have kind of taken over 
parts of the Eastern Shore. I know that they are now in 
trouble. So, anyway, I look forward to working with you and to 
continuing to share in the successes of this Subcommittee, and 
I know that the Subcommittee is in great hands.
    Let me just say a word about one of the bills that we are 
going to be discussing this morning, and that, of course, is 
the bill which I introduced four years ago. It was a bill that 
had to do with preserving Asian elephants as I started to learn 
that there were less than 40,000 Asian elephants living in the 
world and that nearly 50 percent of those elephants were living 
in various national parks in India, while the remaining animals 
were scattered in fragmented populations throughout 12 other 
countries in South and Southeast Asia.
    The primary reason for this serious decline in population 
was the loss of essential elephant habitat. So we introduced a 
bill known as the Asian Elephant Conservation Act, which was 
passed and authorized $25 million to be spent until the end of 
the authorization, which is September 30 of this year. Whereas 
we actually made a start at spending some of that money, we 
sent a powerful message, in my opinion, throughout the 
conservation community and the rest of the world that this is 
an absolutely important issue and an important step forward by 
the United States Government. I thank you for your cooperation 
in the past. I know that we are here to discuss this this 
morning.
    I ask unanimous consent that my full statement be placed in 
the record. Again, congratulations on your Chairmanship.
    Mr. Gilchrest. Thank you, Jim. Without objection, your 
statement will be submitted to the record.
    [The prepared statement of Mr. Saxton follows:]

  STATEMENT OF THE HONORABLE JIM SAXTON, A REPRESENTATIVE IN CONGRESS 
               FROM THE STATE OF NEW JERSEY, ON H.R. 700

    Good morning, Mr. Chairman and Members of the Subcommittee. Thank 
you to the witnesses for joining us here today. I appreciate you taking 
the time out of your schedules to be here. I am pleased to be able to 
speak in support of the reauthorization of the Asian Elephant 
Conservation Act.
    Four years ago, I introduced this bill, because I was startled to 
learn that there were less than 40,000 Asian elephants living in the 
wild. Furthermore, nearly fifty percent of those elephants were living 
in various national parks in India, while the remaining animals were 
scattered in fragmented populations throughout twelve other countries 
in South and Southeast Asia.
    The primary reason for this serious decline in population was the 
loss of essential habitat. It is no secret that elephants and man are 
in direct competition for the same resources. In most cases, it was the 
elephants who lost in those confrontations. In addition, Asian 
elephants are poached for their bones, hide, meat and teeth; they are 
still captured for domestication; and conflicts between elephants and 
people are escalating at an alarming rate.
    Furthermore, it was clear that millions of people were not aware of 
the plight of Asian elephants and that range countries lack the 
financial resources to help conserve this flagship species.
    Without an international effort, the future of the Asian elephant 
was in serious jeopardy. In response to this problem, I, along with a 
number of other Members, proposed the establishment of an Asian 
Elephant Consortium Fund.
    This concept was modeled after the highly successful African 
Elephant Conservation Fund, and the fundamental goal of my legislation 
was to obtain a small amount of Federal assistance for on-the-ground 
conservation projects.
    Fortunately, this important legislation was overwhelmingly approved 
by both bodies, and it was signed into law on November 19, 1997. Under 
the terms of P.L. 105-95, the Congress could appropriate up to $25 
million to the Asian Elephant Conservation Fund until September 30, 
2002. In fact, some $1.9 million in Federal funds has been allocated 
and those moneys have been matched by an additional $1.1 million in 
private donations.
    Those funds have been used to underwrite 27 conservation grants in 
nine different range countries. The type of projects funded have 
included: develop an elephant strategy in Sri Lanka; identification of 
a suitable managed elephant range in Malaysia; molecular tools for the 
local population assessment of Asian elephants; school education to 
support Asian elephant conservation in India and trace the mobility 
patterns of Sri Lankan elephants. These projects were carefully 
analyzed and competitively selected from a list of nearly 100 proposals 
that were submitted to the U.S. Fish and Wildlife Service.
    While the early indication is that the worldwide population of 
Asian elephants has stopped its precipitous decline, it is unrealistic 
to believe that $3 million can save this species from extinction. 
Nevertheless, this law sent a powerful message to the international 
community that we must not allow this flagship species to disappear 
from the wild. The United States must continue to play a leadership 
role in this effort.
    I am pleased to have introduced this reauthorization and will push 
for its passage.
                                 ______
                                 
    Mr. Gilchrest. I do want to make a quick comment about the 
staff, past and present. There is a great staff on the 
Fisheries Subcommittee, both Democrat and Republican staff, and 
they do a lot of the work that we sometimes get the credit for. 
I just want to thank them for all their efforts.
    This morning, we have Marshall Jones, U.S. Fish and 
Wildlife Service, accompanied by Dr. Ken Stansell. Welcome.
    Mr. James Rapp, Executive Director of the Salisbury 
Zoological Park. Jim, thank you for coming and making the trip 
here this morning. It is a beautiful place on the Eastern Shore 
which is representative of the kind of work all of the groups 
here today are trying to do, and Jim has been a great 
contributor with his time and talent to these efforts.
    Ms. Ginette Hemley, Vice President of Species Conservation, 
World Wildlife Fund.
    Thank you all for coming this morning.
    Mr. Jones, you may begin first.

STATEMENT OF MARSHALL P. JONES, ACTING DIRECTOR, U.S. FISH AND 
WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR, ACCOMPANIED 
      BY KENNETH B. STANSELL, ACTING ASSISTANT DIRECTOR, 
     INTERNATIONAL AFFAIRS, U.S. FISH AND WILDLIFE SERVICE

    Mr. Jones. Thank you, Mr. Chairman. It is a great pleasure 
to be here today, and since this is the first opportunity that 
the Fish and Wildlife Service has to testify before this 
Subcommittee with you as Chair, let me say how much we look 
forward to working with you, as we certainly enjoyed working 
with Mr. Saxton.
    We know you very well from your strong support for 
Blackwater National Wildlife Refuge and for conservation issues 
on the Eastern Shore of Maryland, and we are happy to see you 
have the opportunity to take that philosophy and extend it to 
fish and wildlife issues nationwide.
    Mr. Gilchrest. Thank you.
    Mr. Jones. It is also a great pleasure, Mr. Chairman, to be 
here to talk about a program that I believe is one that has a 
demonstrated track record of success and one that, with a small 
expenditure of funds in the big picture, is having a huge 
effect on the ground.
    Mr. Chairman, I have a written statement and some 
attachments which we have offered for the record. I will be 
brief this morning. I have Mr. Stansell with me here, who is 
himself an expert in these matters and has spent much time in 
the field.
    This program is one that succeeds for several reasons, and 
I would like to briefly outline, Mr. Chairman, what I believe 
are the most important parts of that success. First of all, it 
has had bipartisan support since the first enactment of the 
African Elephant Conservation Act in 1989 through the support 
of some of your very able staff who are still with the 
Committee today. We appreciate it very much. That tradition has 
continued with each of the succeeding pieces of legislation 
which built on the African Elephant Conservation Act as the 
foundation, bipartisan support that grew out of a need and a 
demonstrated track record of success.
    Secondly, Mr. Chairman, we believe this program is so 
strong because it is one that depends on partnerships. Those 
are partnerships with, first of all, the other countries which 
are the range countries for the species we are talking about in 
Africa and in Asia. We couldn't succeed if those countries 
weren't interested in working with us, or if those countries 
hadn't demonstrated a commitment.
    That is why we talk about, as you said, Mr. Chairman, this 
being a helping hand, not a hand-out. These are people who want 
our help. These are people who are ready and willing to put in 
the energy, but they are often not able to do that without 
financial assistance, training, equipment, and the technical 
assistance that we can give.
    And the ``we,'' Mr. Chairman, is not just the U.S. Fish and 
Wildlife Service, but all of the organizations that you have 
invited here today to testify at this hearing. So the 
partnership extends to non-governmental organizations of all 
kinds like the World Wildlife Fund, the American Zoo and 
Aquarium Association, the Wildlife Conservation Society, the 
International Rhino Foundation, and the International Fund for 
Animal Welfare. In addition, organizations like Ringling 
Brothers, have shown that there is a corporate role in this 
partnership; the National Fish and Wildlife Foundation, through 
its Save the Tiger Fund, which I am privileged to serve as a 
member of the council, and funded by ExxonMobil, has also 
contributed. Others are now joining in to contribute to that, 
too. So this is a partnership that is growing and growing, and 
we believe it is all built on the foundation of the African 
Elephant Conservation Act.
    Third, Mr. Chairman, we believe that this program enhances 
the prestige and the credibility of the United States. It is 
easy for us in the United States to sit back and criticize or 
tell other countries what we think they should be doing. This 
is a program that says we will work with you to help you.
    Finally, Mr. Chairman, this is a program that works. These 
small investments have huge effects. A $25,000 grant in a 
country like Gabon, Cameroon, Nepal, or Thailand can have a 
huge effect on the ground. What we would consider in the big 
picture of things here to be a tiny program may be funding 
rangers, training people, helping people keep elephants out of 
their crops, funding surveys, or developing innovative ways for 
people to live with these animals that are beautiful and 
inspiring, and also sometimes destructive or dangerous.
    So, Mr. Chairman, we believe that this is a program that 
has a strong track record. Mr. Faleomavaega mentioned that 
programs can always be improved. We have offered some technical 
amendments that we think would strengthen the program. We would 
be very interested in working with you, Mr. Chairman, and all 
the members of the Subcommittee and the Subcommittee staff to 
find ways that we can make these programs even better.
    I certainly would like to extend an invitation to you and 
to the staff. Sometime, we hope that you will have the 
opportunity to come with our staff and visit one of our 
projects on the ground in Africa or in Asia, so that you can 
see the benefits for yourself.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Jones follows:]

STATEMENT OF MARSHALL P. JONES, ACTING DIRECTOR, UNITED STATES FISH AND 
 WILDLIFE SERVICE, DEPARTMENT OF THE INTERIOR, ON H.R. 643, H.R. 645, 
                              AND H.R. 700

    Mr. Chairman, I appreciate the opportunity to be here today to 
discuss H.R. 643, the African Elephant Conservation Reauthorization Act 
of 2001; H.R. 645, the Rhinoceros and Tiger Conservation 
Reauthorization Act of 2001; H.R. 700, the Asian Elephant Conservation 
Reauthorization Act of 2001; and the U.S. Fish and Wildlife Service's 
(Service) implementation of these three multi-species conservation 
Acts. The Service fully supports the reauthorization of these Acts and 
looks forward to working with the Subcommittee to consider several 
technical amendments to make the grants program more efficient and 
encourage greater collaboration with the private sector. My remarks 
today will focus on an overview of implementation of the grant programs 
and these technical considerations. Attached to the Service's testimony 
are copies of the reports for each of the three grant programs. These 
attachments are also available on the Service's website at http://
International.fws.gov. These reports provide a summary of various 
projects funded and include detailed examples of how these funds help 
to conserve species in the wild.
    As members of the Subcommittee may be aware, the Service has a long 
history of proactive programs on behalf of foreign endangered species 
and their habitats. Over the past two decades the Service's 
conservation efforts in Asia have resulted in the development of local 
institutional capacity and training, which in turn has facilitated more 
effective resource protection by local wildlife researchers and 
managers. On behalf of rhinoceroses, tigers, and Asian elephants, we 
have been one of the leaders in helping range countries address the 
problems affecting the continued existence of these animals. The 
decade-long implementation of the African Elephant Conservation Act in 
Africa has played a significant role in U.S. efforts to encourage and 
assist on-the-ground projects aimed at conserving elephants.
    As a Party to the Convention on International Trade in Endangered 
Species of Wild Fauna and Flora (CITES), and a major consumer of 
species covered by the Convention, the U.S. shares responsibility for 
supporting and implementing measures to provide for the conservation of 
endangered and threatened species both at home and abroad. The African 
Elephant Conservation Act, Rhinoceros and Tiger Conservation Act, and 
the Asian Elephant Conservation Act are designed to encourage and 
assist efforts to conserve some of the world's most ecologically and 
sociologically important wildlife species. The key element of these 
Acts is the authorization of financial resources, which is a reflection 
of the strong U.S. commitment to help support local conservation 
programs of these species in the wild. Continued support by the U.S. 
through reauthorization of the three Acts remains critical to the 
conservation of rhinos, tigers, African and Asian elephants.
    In implementing these Acts, the Service has designed a streamlined 
process that allows for timely approval of projects and that has the 
capacity to respond quickly to emergency situations. Since no 
implementing regulations were deemed necessary, there has not been any 
time lag from the initial receipt of funds and the implementation of 
the program. Furthermore, the grant programs are designed to provide 
quick, short-term support for holding actions and other conservation 
measures, in concert with existing or proposed long-range activities, 
or until such long-range activities are in place. During the early 
implementation of the African Elephant Conservation Act, it became 
apparent that there was a definite need for such a responsive grant 
program. Since that time it has become the hallmark of its success and 
served as the model for subsequent Acts for rhinos and tigers, Asian 
elephants, and most recently great apes and neotropical migratory 
birds.
    All five Acts are administered through the Service's International 
Affairs program under the Multi-National Species Conservation Funds 
account. While each account is maintained separately for each Act, a 
single fund allows the Service to maximize coordination of these 
programs and minimize the administration costs. The Service is 
currently reviewing ways to administer these programs consistent with 
the President's Budget to streamline government and operate more 
efficiently. After this review, the Service will be willing to work 
with the authors to revise those provisions related to administration 
of these programs to address the true administration needs of these 
programs.
    Regarding H.R. 643, H.R. 645 and H.R. 700, the Service would also 
recommend the creation of an advisory group for each of the Acts to 
help increase public involvement and Federal and private partnerships. 
Both of the newly enacted multi-species conservation Acts, the Great 
Ape Conservation Act and Neotropical Migratory Bird Conservation Act, 
provided for advisory groups, and we believe that it would be a 
positive addition to these Acts as well.
    The Service would also recommend the inclusion of language to 
ensure that grants supporting local capacity building and institutional 
development are among the projects for potential funding. The intent 
here is to balance the needs for direct species-focused projects with 
the need to develop human resources necessary to achieve effective 
conservation over the long term. We have attached language to this 
testimony that we believe will further benefit these species as well as 
help range countries better manage their natural resources. In 
addition, while both the Asian Elephant Conservation Act and the 
Rhinoceros and Tiger Conservation Act include language providing for 
consultation with the U.S. Agency for International Development, this 
language is absent from the African Elephant Conservation Act. With 
regard to this consultative role, the Service recommends amending the 
African Elephant Conservation Act with parallel language to make it 
consistent with these other Acts. We believe that these minor technical 
amendments will serve to further enhance these dynamic programs.
    As the first of the multi-species conservation Acts, the African 
Elephant Conservation Act was enacted in 1989 and received its initial 
funding in Fiscal Year 1990. The Act has now given us over 10 years of 
experience with African elephant programs in 23 of the 37 African range 
countries. The African Elephant Conservation Act came into existence at 
a time when most African elephant populations were declining at an 
alarming rate, due primarily to poaching for a large illegal trade in 
ivory. In response to this precipitous decline, the Act authorized a 
two-pronged conservation strategy. First, it required a review of 
elephant conservation programs and established a process for 
implementation of strict ivory import controls; and second, it 
established a Fund for cooperative conservation projects in African 
countries. Throughout the last decade, the African Elephant 
Conservation Act has been a critical link in enabling continued U.S. 
involvement in African elephant conservation, through both its import 
control provisions and the grant program. African elephant populations 
today are now stable in some countries and increasing in others. 
However there is still a need to help control poaching in many 
countries and assist those countries with recovering elephant 
populations with their management. Much still needs to be done to 
secure the continent's elephant populations at sustainable levels.
    Much of the success of the African Elephant Conservation Act has 
been a direct result of the unique Small Project Conservation Fund that 
is targeted at cooperative, on-the-ground conservation projects in 
Africa. Implementation of this program has had a positive impact on the 
conservation of the African elephant, and played an indirect role in 
the conservation of numerous other species that benefit from the 
conservation of this keystone species. To date, the Service has funded 
123 different projects in 23 African countries affecting over 300,000 
elephants. Each project is a cooperative effort with African CITES 
Management Authorities, other foreign governments, non-governmental 
organizations, or with private sector entities. No in-country project 
is approved unless it has the full support of and has been identified 
by that country as a priority for conservation. Through this 
cooperative approach, the actual on-the-ground resources directed at 
African elephant conservation is nearly five times the $11 million 
allocated to the grant program since 1990.
    In response to the growing concerns of the status of rhinos and 
tigers worldwide and modeled after the African Elephant Conservation 
Act, Congress enacted the Rhinoceros and Tiger Conservation Act of 
1994. Rhinos and tigers remain among the most charismatic and some of 
the most endangered species on earth. However, since its inception, the 
Service has been able to provide substantive support to range countries 
to aid their efforts to conserve these species. Sustaining tigers and 
rhinos in the wild depends on a number of factors including 
international and national commitment to conservation, effective 
implementation of existing international and national laws, upgrading 
the legal status of rhinos and tigers wherever necessary, strict 
implementation of CITES by all tiger and rhino range countries, 
cooperation between range countries in combating poaching and trade in 
tiger and rhino products, efforts to protect existing tiger and rhino 
populations and their habitat, and international support for 
conservation in tiger and rhino range countries.
    To date, the Service has funded 116 different projects in 16 Asian 
and African countries. Each project is a cooperative effort with local 
range country governments, non-governmental organizations, CITES 
Management Authorities, or with private sector entities with experience 
in rhino or tiger conservation. No project is approved unless it has 
the full support of and has been identified as a priority for 
conservation. Through this cooperative approach, the actual on-the-
ground resources directed at tigers and rhinos is twice the $4 million 
appropriated to the grant program since 1996. It is noteworthy to 
mention that in the previous two years, 51 percent of the matching 
funds and in-kind contributions originated from range countries. 
Continued funding of this Act is crucial in order to help support 
efforts for these critically endangered species.
    Again in 1997, following the small grants model as a blueprint for 
success, Congress enacted the Asian Elephant Conservation Act. The 
Asian elephant shares a land mass that contains some of the largest and 
poorest human populations in the world. The combination of pressures on 
the environment brought on by these conditions has resulted in the 
conversion of forest cover to village and agriculture use, thereby 
fragmenting elephant habitat and populations. It is believed that there 
are only about ten elephant populations with over 1,000 elephants and 
half of these are found in India. The majority of populations are small 
and consist of less than 100 elephants. The greatest threat, although 
not new, is the increased poaching of Asian elephants.
    The first funds were made available in Fiscal Year 1999. Following 
the successful methods of implementation of the African Elephant 
Conservation Act and the Rhinoceros and Tiger Conservation Act, the 
Service has developed a grants program encouraging proposals for 
protection to at-risk elephant populations, habitat and ecosystem 
conservation and management, applied research including surveys and 
monitoring, conservation education, protected area management, 
development of elephant conservation action plans, and support of 
efforts to decrease human-elephant conflicts. Similar to the other two 
multi-species conservation fund programs, the Service seeks cooperative 
efforts with in-country wildlife organizations, non-governmental 
organizations, CITES Management Authorities, and private sector 
entities with Asian elephant conservation experience. While this grant 
program is only in its third year of funding, 27 grants Asian elephant 
conservation activities have been awarded involving nine range 
countries and leveraging a 1:1 financial match to the $1.9 million 
appropriated.
    In closing, Mr. Chairman, the findings made by Congress in first 
enacting these Acts are regrettably still true today. Many African and 
Asian countries do not have sufficient resources to properly manage, 
conserve, and protect their rhino, tiger and elephant populations. 
While much has been accomplished, much remains to be done. The annual 
requests for support of high priority projects greatly exceed the funds 
available, and we believe that reauthorization of the three Acts can 
make important contributions to rhino, tiger and elephant conservation. 
The United States must share the responsibility to provide for the 
conservation of these magnificent species. The principles embodied in 
these Acts are sound. They provide catalysts for cooperative efforts 
among the governments of the world, non-governmental organizations, and 
the private sector to work together for a common goal the conservation 
and continued healthy existence of populations of rhino, tigers and 
elephants. These are not hand outs, but helping hands. For all of these 
reasons, the Service strongly supports the reauthorization of these 
Acts.
    We look forward to working with the Members of this Committee 
regarding reauthorization of the multi-species conservation acts. I 
would be happy to answer any questions.
    Suggested Language Regarding Formation of an Advisory Group This 
language is modeled after Section 7(b) of the Neotropical Migratory 
Bird Conservation Act (16 U.S.C. 6106(b), P.L. 106-247).
    (1) In General--To assist in carrying out this Act, the Secretary 
may convene an advisory group consisting of individuals representing 
public and private organizations actively involved in the conservation 
of [species name].
    (2) Public Participation--(A) Meetings--The advisory group shall 
(i) ensure that each meeting of the advisory group is open to the 
public; and (ii) provide, at each meeting, an opportunity for 
interested persons to present oral or written statements concerning 
items on the agenda.
    (B) Notice--The Secretary shall provide to the public timely notice 
of each meeting of the advisory group.
    (C) Minutes--Minutes of each meeting of the advisory group shall be 
kept by the Secretary and shall be made available to the public.
    (3) Exemption from Federal Advisory Committee Act--The Federal 
Advisory Committee Act (5 U.S.C. App.) shall not apply to the advisory 
group.
    Suggested Language Regarding Project Sustainability and Capacity 
Building A section on Project Sustainability should be added to the 
African Elephant Conservation Act (16 U.S.C. 4211):
    (e) Project Sustainability--To the maximum extent practical, in 
determining whether to approve project proposals under this section, 
the Secretary shall give consideration to projects which will enhance 
sustainable conservation programs to ensure effective, long-term 
conservation of African elephants.
    Section 5(e) of the Rhinoceros and Tiger Conservation Act of 1994 
(16 U.S.C. 5304) should be amended to read:
    (e) Project Sustainability--To the maximum extent practical, in 
determining whether to approve project proposals under this section, 
the Secretary shall give consideration to projects which will enhance 
sustainable conservation programs to ensure effective, long-term 
conservation of rhinoceros and tigers.
                                 ______
                                 
    Mr. Gilchrest. We would certainly take advantage of that 
opportunity. Thank you.
    James Rapp, welcome.

 JAMES L. RAPP, EXECUTIVE DIRECTOR, SALISBURY ZOOLOGICAL PARK, 
     ON BEHALF OF THE AMERICAN ZOO AND AQUARIUM ASSOCIATION

    Mr. Rapp. Thank you very much. Thank you, Mr. Chairman, for 
the opportunity to testify this morning on three very important 
legislative reauthorizations, and thank you for your kind words 
about the Salisbury Zoo.
    My name is Jim Rapp. I am Director of the Salisbury 
Zoological Park, in Salisbury, Maryland. Our zoo is a 12-acre 
facility that displays over 100 species of wildlife, over 350 
specimens in our collection, and we host an annual attendance 
of about 250,000 visitors, including 15,000 local school 
children who come for education programs.
    The Salisbury Zoo has been an accredited member of the 
American Zoo and Aquarium Association, the AZA, since 1972. I 
currently serve on the AZA Government Affairs Committee and am 
representing the Association today.
    AZA represents 191 professionally-managed and accredited 
zoological parks and aquariums that draw over 130 million 
visitors annually and have more than 5 million members 
combined. Collectively, our institutions teach more than 12 
million people each year in a living classroom setting, and 
dedicate over $50 million annually to conservation education 
programs that focus on the devastating effects of the loss of 
vital species habitat and the illegal trade in endangered 
species parts and products.
    In addition, AZA members invest over $50 million annually 
in scientific research, and support over 700 field conservation 
and research projects in 80 countries. In addition to that, AZA 
institutions have established the Species Survival Plan, a 
long-term plan that facilitate genetically diverse breeding, 
habitat preservation, public education, field conservation, and 
supportive research to ensure survival for many threatened and 
endangered species.
    Currently, AZA members are involved in 95 different SSP 
programs covering 124 species from around the world. A majority 
of those species represented are listed under the Endangered 
Species Act or CITES, including all of the great apes, Siberian 
and Sumatran tigers, African and Asian elephants, and four 
species of rhinoceros.
    While AZA zoos and aquariums have become the last 
stronghold for some species, we fully realize that we cannot 
save these animals by zoo propagation alone. AZA members 
continue to work with Congress, the Federal agencies, 
conservation organizations, the private sector, and the 
countries of origin to conserve our wildlife. It is in this 
context that AZA expresses its strong support for the quick 
passage of H.R. 643, H.R. 645 and H.R. 700.
    Before I briefly discuss these bills, I would first like to 
commend the Subcommittee for your far-sighted vision in passing 
the Great Ape Conservation Act and the Neotropical Migratory 
Bird Conservation Act during the last Congress. These Acts 
created two very critical additions to the Multinational 
Species Conservation Fund program.
    Mr. Chairman, we have before us today three important 
pieces of legislation that represent a significant portion of 
the Federal Government's direct contribution to preserving 
endangered wildlife abroad. We are going to hear a lot today 
about declining species populations and depleting habitat. In 
fact, according to recent estimates, 20 percent or more of the 
world's biodiversity could disappear in the next two decades as 
a result of habitat fragmentation, alteration, and over-
exploitation of threatened and endangered species. It is 
therefore vital that more people, governments, institutions, 
and organizations become involved in these efforts to conserve 
our imperiled environment.
    Over the duration of the African elephant, Asian elephant 
and rhino-tiger funds, the U.S. Congress has appropriated over 
$14 million that have been leveraged with nearly $56 million in 
real dollars and/or in-kind services from host countries and 
local international non-governmental organizations. This is a 
significant partnership, especially in terms of Government 
programs. The funds provided by Congress have served as the 
catalyst for the implementation of over 230 projects worldwide, 
ranging from highly sophisticated and innovative data 
collection, tracking and monitoring programs, to simply 
providing essential on-the-ground resources, weapons, 
ammunition, vehicles, and communications systems to game 
wardens and law enforcement officials who have been entrusted 
to protect these magnificent animals from the ravages of civil 
unrest, poaching, and habitat exploitation.
    What makes these programs highly effective is that the U.S. 
Fish and Wildlife Service distributes the funds in a timely and 
efficient manner with very few bureaucratic entanglements. The 
funds are targeted to high-priority field conservation efforts 
that most directly benefit the species of concern.
    Most importantly, the African elephant, Asian elephant, and 
rhino-tiger funds have long recognized the value of promoting 
cooperative projects among government entities, NGOs, and the 
affected local communities in the range states. This is 
essential because it is only through local action, local 
education and local support that realistic solutions for saving 
these species can be effectively devised and implemented.
    I am going to just briefly touch on a few numbers with the 
African Elephant Reauthorization Act, H.R. 643. Currently, in 
the wild, it is estimated that the population ranges from 
300,000 to 600,000 individuals. That represents less than half 
of the elephant population that existed in Africa in the 
1970's. Certainly, these funds in the African Elephant 
Conservation Act have gone a long way.
    On H.R. 645, the Rhino-Tiger Act, since the 1940's--some 
figures might be of interest to you--three tiger subspecies, 
the Caspian, Bali and Javan, have become extinct, and 95 
percent of the world's remaining tiger population has 
disappeared since the early 1900's, from about 100,000 tigers 
in the early part of the century to less than 7,000 today.
    The rhino population, as well, is also in serious decline, 
and the rhino-tiger funds have done a great deal to help those 
populations recover. As Representative Saxton said, the Asian 
Elephant Conservation Act has done a great deal for elephants 
in Asia, similar to the African Elephant Conservation Act.
    Basically, let me summarize here. The challenges before 
this Subcommittee with regard to international wildlife 
conservation we see as three-fold. One is to reauthorize these 
three highly effective conservation funds. Second is to work to 
secure an appropriation of $1.5 million for each of the five 
funds under the Multinational Species Conservation Fund; and, 
third, to look beyond the established funds to examine new and 
innovative legislative mechanisms for addressing ecosystem-wide 
management protection issues.
    Again, Mr. Chairman, the AZA wholeheartedly supports H.R. 
643, 645 and 700. I want to thank you for the opportunity to 
comment today and I would be happy to answer any questions, if 
you have them.
    Thank you.
    [The prepared statement of Mr. Rapp follows:]

  STATEMENT OF JAMES L. RAPP, DIRECTOR, SALISBURY ZOOLOGICAL PARK, ON 
                    H.R. 643, H.R. 645, AND H.R. 700

    Thank you Mr. Chairman, for the opportunity to testify this morning 
on three very important legislative reauthorizations: H.R. 643, the 
African Elephant Conservation Act; H.R. 645, the Rhino-Tiger 
Conservation Act; and H.R. 700, the Asian Elephant Conservation Act.
    My name is Jim Rapp and I am the Director of the Salisbury 
Zoological Park in Salisbury, Maryland. I have worked for the Zoo for 
10 years serving in a number of capacities. The Salisbury Zoo is a 
twelve-acre facility that displays over 100 different wildlife species 
over 350 specimens. We host an annual attendance of 250,000 visitors, 
including 15,000 local school children.
    The Zoological Park has been an accredited member of the American 
Zoo and Aquarium Association (AZA) since 1972. I currently serve on the 
AZA Government Affairs Committee.
    AZA represents 191 professionally managed and accredited 
institutions which draw over 130 million visitors annually and have 
more than 5 million zoo and aquarium members. Collectively, our 
institutions teach more than 12 million people each year in living 
classrooms and dedicate over $50 million annually to conservation 
education programs that focus on, among other things, the devastating 
effects of the loss of vital species habitat and the illegal trade in 
endangered species parts and products. AZA members invest over $50 
million annually in scientific research and support over 700 field 
conservation and research projects in 80 countries.
    In addition, AZA institutions have established the Species Survival 
Plan (SSP) program a long-term plan involving genetically diverse 
breeding, habitat preservation, public education, field conservation 
and supportive research to ensure survival for many threatened and 
endangered species. Currently, AZA members are involved in 95 SSP 
programs featuring 124 species throughout the world. A large majority 
of those SSPs cover species which are listed under the Endangered 
Species Act or CITES, including all the great apes--chimpanzees, 
gorillas, orangutans and bonobos, African and Asian elephants, Siberian 
and Sumatran tigers and black, white, Sumatran and greater one-horned 
rhinos.
    And while AZA zoos and aquariums have become the last stronghold 
for some species, we fully realize that we cannot save them by zoo 
propagation alone. AZA members continue to work with Congress, the 
Federal agencies, conservation organizations, the private sector and 
the countries of origin to conserve our wildlife heritage. It is in 
this context that AZA expresses its strong support for the quick 
passage of H.R. 643, H.R. 645 and H.R. 700.
    Before I briefly discuss these bills, I would first like to commend 
the members of this Subcommittee for their far-sighted vision in 
passing HR. 4320, the Great Ape Conservation Act during the last 
Congress and creating a very critical addition to the Multinational 
Species Conservation Fund program.

    OVERVIEW

    Mr. Chairman, we have before us today, three important pieces of 
legislation that represent a significant portion of the Federal 
Government's direct contribution to preserving species-specific 
wildlife abroad. Twenty percent or more of the world's biodiversity 
could disappear in the next two decades, primarily due to habitat 
fragmentation and alteration and the over-exploitation of threatened 
and endangered species according to recent estimates. It is therefore 
vital that more people, governments, institutions and organizations 
become involved in efforts to conserve our imperiled environment.
    Over the duration of the African Elephant, Asian Elephant and 
Rhino/Tiger funds, the U.S. Congress has appropriated over $14 million 
that has been leveraged with nearly $56 million in real dollars and/or 
in-kind services from host countries and local/international non-
governmental organizations (NGO's). This is a significant partnership 
especially in terms of government programs. The funds provided by 
Congress have served as the catalyst for the implementation of over 230 
projects worldwide ranging from highly sophisticated and innovative 
data collection, tracking and monitoring programs to simply providing 
essential on-the-ground resources weapons, ammunition, vehicles and 
communication systems to game wardens and law enforcement officials who 
have been entrusted to protect these magnificent animals from the 
ravages of civil unrest, poaching and habitat exploitation.
    What makes these programs effective is that the US Fish and 
Wildlife Service distributes the funds in a timely and efficient manner 
with very few bureaucratic entanglements. The funds are targeted to 
high-priority field conservation efforts that most directly benefit the 
species of concern. More importantly, the African Elephant, Asian 
Elephant and Rhino/Tiger funds have long-recognized the value of 
promoting cooperative projects among government entities, NGO's and the 
affected local communities in the range states. This is essential 
because it is only through local action, local education, and local 
support that realistic solutions for saving these species can be 
effectively devised and implemented.
    Let me turn now to the three reauthorizations:
    1) H.R. 643, the African Elephant Conservation Reauthorization Act 
The African elephant is the standard bearer for the conservation fund 
programs. At the time of the enactment of the African Elephant 
Conservation Act in 1989, the population of this magnificent species 
was declining at a perilous rate due to ivory poaching, habitat 
destruction and elephant-human conflicts. The Act has gone a long ways 
toward stemming the dramatic decline in African elephant numbers, with 
wild population estimates now ranging from 300,000 to 600,000 
individuals. While this may seem to be a stable size, it represents 
less than half of the elephants that inhabited Africa in the 1970's. 
The species is still not out of danger as increased pressures from the 
ivory trade, ongoing civil wars and the evolving bushmeat crisis in 
Central and East Africa continue to threaten populations. In addition, 
only about 20 percent of the more than 2.2 million square mile range of 
the African elephant is under some form of protection.
    Since the late 1980's, the African Elephant Conservation Fund has 
generated 123 projects in 22 range countries. These projects have 
provided critical assistance to range countries and NGO's for anti-
poaching/anti-smuggling law enforcement efforts, population 
surveillance and monitoring, habitat protection and management, 
conservation education, cross-border cooperation and elephant-human 
conflict resolution.
    2) H.R. 645, the Rhinoceros/Tiger Conservation Reauthorization Act 
As this Subcommittee is well aware, the situation facing all species of 
tigers and rhinos in the wild has reached crisis levels. Since the 
1940's, three tiger subspecies the Caspian, Bali, and Javan have become 
extinct, and the South China tiger is now among the most endangered 
mammals on earth. Ninety-five percent of the world's tiger population 
has disappeared since the early 1900's. At that time, an estimated 
100,000 tigers roamed India, Indochina and other parts of Asia. Today, 
approximately 7,000 tigers are left in the wild and those numbers 
continue to drop. The estimated wild populations of the five subspecies 
of tiger in the wild are as follows: South China tiger 20-30 
individuals; Amur/Siberian tiger: 360-400 individuals; Bengal tiger: 
3200-4500 individuals; Indo-Chinese tiger: 1200-1800 individuals; and 
Sumatran tiger: 400-500 individuals. While pressure from an expanding 
human population and the development of natural resources to support a 
burgeoning Asian economy have contributed to the decline in tiger 
populations, poaching and the use of tiger parts in traditional Asian 
medicines have clearly taken center stage since the 1980's as the 
primary reasons for this species decline.
    The situation facing the three Asian and two African rhino species 
is also extremely serious. Populations were abundant and rather widely 
distributed in Asia through the mid-1800's. Today fewer than 100 Javan 
rhinos, 300 Sumatran rhinos and 2400 Indian rhinos remain in the wild. 
In Africa, wild populations of black rhinos have declined by over 95 
percent (to approximately 2700 individuals) over the past two decades 
while over 10,400 white rhinos still remain. The precipitous decline in 
the black rhino numbers can be directly attributed to poaching for the 
trade in traditional medicines and ornamental dagger handles. Obviously 
these population numbers are not sustainable. Conservation biologists 
contend that a population size of 2000-3000 individuals within each 
species is necessary for long-term viability. Most rhino species are 
near or well below this level. While poaching for the horn is the major 
threat for all five species, habitat degradation is also a significant 
threat for the Asian species due to unsustainable exploitation of 
timberlands, unchecked conversion of land to agricultural use and human 
over-population.
    The Rhino/Tiger Conservation Fund created in 1994 has generated 116 
projects in 16 countries. The fund has proven itself effective for 
critical conservation programs in Africa and Asia for the highly 
endangered species and subspecies of rhinoceros and tiger. The fund has 
delivered immediate results by assisting range countries and 
conservation NGO's on the front lines through critical field 
conservation work, in situ breeding programs, monitoring and 
surveillance, habitat management, and anti-poaching/anti-smuggling 
efforts. Conservation education programs designed to address animal-
human conflicts, consumer awareness of rhino/tiger products and the 
intrinsic value of these species to local communities have also been 
effective.
    3) H.R. 700, the Asian Elephant Conservation Reauthorization Act 
The number of Asian elephants in the wild varies between 35,000 and 
50,000 individuals in over 13 countries. With a population that is 1/
10th the size of their African relatives, Asian elephants can ill-
afford a prolonged decline in their numbers. Yet, with the tremendous 
increase in the human population of Asia and the resulting increase in 
elephant-human conflicts due to shrinking critical habitat, the 
prognosis for the Asian elephant is guarded at best.
    The Asian Elephant Conservation Fund created in 1997 has generated 
27 projects in nine range countries. Like its African elephant 
counterpart, these projects have primarily focused on habitat and 
protected area management, surveillance and monitoring of populations, 
cross-border cooperation, conservation education in the local 
communities and the resolution of elephant-human conflicts.
    Mr. Chairman, the endangered status of the wildlife species 
highlighted by these three conservation funds represents an ecological 
and societal problem of enormous proportions. It is a problem of 
political unrest compounded by unregulated resource exploitation and 
habitat degradation through logging, mining, farming and poaching. It 
is also a problem that is not specifically limited to the species we 
have discussed today. In Borneo, for example, the orangutan population 
has declined by 90 percent. Then there are also lesser-known species 
such as the Rodrigues Island fruit bat a highly endangered species that 
is essential for seed dispersal and pollination on the Rodrigues Island 
in the Indian Ocean.
    We are now facing what is popularly referred to as the Empty Forest 
Syndrome, where the trees in the forest may be left standing but the 
endemic wildlife is long removed. And if the essential wildlife--the 
predators, the prey, the seed spreaders, the natural fertilizers are 
gone, the question of ecological balance becomes paramount.
    During the last Congress, AZA and many of the NGO's beside me today 
testified on a bill entitled the Keystone Species Conservation Act, a 
measure that is no less critical or time-sensitive than the 
reauthorizations before us today. In the United States, our cornerstone 
piece of wildlife conservation is the Endangered Species Act (ESA) of 
1973. Under the ESA, over 1,050 animal species worldwide have been 
designated as either threatened or endangered 555 of those are foreign 
species. However, foreign species do not receive the key protection 
mechanisms inherent in the ESA such as critical habitat designation or 
species recovery plans.
    Similarly, the Convention on International Trade in Endangered 
Species of Wild Fauna and Flora (CITES), lists over 30,000 species that 
receive protection through restrictions on trade in parts and products. 
However, CITES is not designed to offer in situ conservation measures 
for threatened and endangered species.
    The Keystone Species bill would have created a conservation fund 
account that built upon the strengths of the existing elephant and 
rhino/tiger funds. Funding would be prioritized based on 1) projects 
that would enhance programs for the conservation of species that are 
most imperiled and that are supported by the relevant wildlife 
management authority in the country where the program will be 
conducted; 2) projects that would receive the greatest level of 
matching assistance from non-Federal sources; and 3) projects that 
would enhance local capacity for the conservation of the species. The 
bill had some shortcomings but there was substantial interest and 
support for an indicator-species, ecosystem-wide approach to wildlife 
conservation. In addition, the establishment of this type of 
legislation would obviate the need to return in two or four years to 
fight for other species-specific bills.
    In conclusion, the challenges before this Subcommittee with regard 
to international wildlife conservation are three-fold: 1) to 
reauthorize these three highly effective conservation funds; 2) to work 
to secure increased appropriations levels for all of the funds under 
the Multi-National Species Conservation Fund program, which includes 
African elephants, Asian elephants, Rhino/tiger, Great Apes, and 
neotropical migratory birds; and 3) to look beyond these established 
funds to new and innovative legislative mechanisms for addressing 
ecosystem-wide management and protection issues.
    Again Mr. Chairman, AZA wholeheartedly supports H.R. 642, H.R. 645 
and H.R. 700 and we look forward to working with you and the 
Subcommittee to secure swift passage of these bills this year. In 
addition, AZA member institutions will continue to raise the awareness 
of our 130 million visitors each year to bring focus on threatened and 
endangered species worldwide for it is public awareness of their plight 
that has helped engage the U.S. as a major catalyst for world concern.
    Thank you again for this opportunity to comment on these important 
wildlife conservation measures.
    I would be happy to answer any questions that you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Jim.
    Ms. Hemley?

    STATEMENT OF GINETTE HEMLEY, VICE PRESIDENT OF SPECIES 
               CONSERVATION, WORLD WILDLIFE FUND

    Ms. Hemley. Thank you, Mr. Chairman, Mr. Saxton, Mr. 
Faleomavaega, for inviting World Wildlife Fund to testify 
today. We very much look forward to working with you and all 
the Subcommittee members and staff on a number of wildlife 
conservation issues. We have greatly appreciated your support 
in the past and we look forward to working with you on the 
programs under discussion today.
    World Wildlife Fund strongly supports reauthorization of 
the African and Asian Elephant Conservation Acts and the Rhino 
and Tiger Conservation Act, for two simple reasons. They are 
urgently needed and they are extremely cost-effective. I would 
like to elaborate briefly on these points.
    All of the species under consideration today that are 
affected by these bills are better off today than they were 10 
years ago, in part because of the U.S. programs established to 
help them. The African Elephant Conservation Fund, which has 
the longest track record of the programs we are discussing, has 
been instrumental in reducing poaching in many parts of Africa 
and has helped to equip struggling governments in their efforts 
to conserve and begin to rebuild remaining elephant 
populations.
    The Rhino and Tiger Conservation Act and the Asian Elephant 
Conservation Act have achieved similar results. In the last few 
years, tiger poaching has been reduced in parts of Russia, 
India, Nepal, and elsewhere. For the first time in two decades, 
African rhino numbers are showing a modest but overall upward 
trend in most places. The Asian elephant is being secured in 
the few remaining areas where it has the best chance of long-
term survival, thanks in part to the support of the Asian 
Elephant Conservation Fund.
    There is no question that these programs have been 
instrumental in the conservation progress that we have seen, 
modest as it might be, in the last decade. We greatly 
appreciate your support and this Subcommittee's support in 
reauthorizing these, but I want to just elaborate a bit on why 
Congress should continue to support them in the future.
    First, this is no time to let up our guard. Many 
populations of these species remain seriously at risk. We have 
learned the hard way with endangered species that have big 
price tags on their heads that they need sustained, direct 
support if they are going to survive. As you said, Mr. 
Chairman, these programs offer the only international fund that 
has been sustained in supporting conservation programs for 
these species.
    Second, the role that these programs play is often a 
catalytic one. Many of the projects they support are effective 
because, as Mr. Jones pointed out, they bring together multiple 
partners that leverage additional conservation funding and 
assistance. They truly have a multiplier effect.
    Third, a strong emphasis of these programs is training, and 
that is a very key thing, I think, because by focusing on 
training park guards, wildlife managers, and scientific 
researchers, these programs have lasting value and really build 
conservation capacity in the countries where they operate.
    Fourth, by conserving these large mammals which we 
sometimes call flagship species--these are species that require 
relatively large areas to survive--these programs are also able 
to conserve thousands of other species sharing their habitats. 
Their conservation benefits extend well beyond the individual 
species to whole communities and ecosystems, and many of these 
ecosystems are highly threatened.
    Fifth, the conservation community, in part thanks to the 
support of these programs, has begun to implement long-term 
strategies for the conservation of these species. We are no 
longer just reacting to poaching crisis, as we were in the last 
10 to 15 years. Our conservation approaches have become more 
advanced, so that we now can determine just where in a 
strategic sense these species have the best chance of long-term 
survival so that these areas can receive priority attention. We 
are probably not going to be able to save all of these species 
everywhere they live. We have to be strategic, we have to make 
some hard decisions.
    Finally, elephants, rhinos, and tigers are important to the 
American public. The diversity of organizations represented 
here today is testament, I think, to the broad public interest 
in saving these species. Together, all of our organizations 
represent millions of Americans. We all support programs 
working together with the U.S. Government to conserve these 
species in the wild. They are excellent examples of effective 
public-private partnerships.
    Just to comment briefly, Mr. Chairman, on the cost-
effectiveness of these programs, as you have heard, they 
leverage a significant amount of conservation funding and 
support of about $13-$14 million worth of grants expended over 
the last 10 years. You mentioned over $56 million in matching 
funds and in-kind contributions have been leveraged. That is a 
four-to-one return. That is very impressive. World Wildlife 
Fund works with a lot of international aid programs. I am not 
aware of any that generate this level of matching or collateral 
support.
    These programs are also administered at minimal cost. In 
fact, they probably aren't getting enough funding to cover the 
administrative costs, and World Wildlife Fund would support a 
modest amendment to these bills to make sure that the costs are 
effectively addressed. We think the Fish and Wildlife Service 
has done an excellent job at keeping the program bureaucracy 
streamlined, but could probably use a little bit more funding 
to make sure the program is run well.
    I also would like to note that these programs have helped 
generate additional interest in funding from government 
institutions around the world. The European Union, Japan, the 
Global Environment Facility, aid agencies in countries like the 
Netherlands, Sweden, and Germany are all supporting efforts to 
protect elephants, tigers, and rhinos. This is, in part, I 
think due to the leadership the U.S. has provided, the 
attention the U.S. has drawn to the status of these species, 
and the catalytic small grants that have been provided by the 
elephant, rhino, and tiger programs.
    Finally, in closing, just to touch briefly on the 
appropriations issue, we greatly appreciate this Subcommittee's 
support in getting an increase to the appropriations for these 
programs. Last year, the total funding was $3.25 million. There 
are now two new funds, as was pointed out. The Fish and 
Wildlife Service receives twice as many proposals as it can 
fund with the current budget.
    We recommend that each of the five species funds that are 
part of the multinational program be appropriated at a level of 
at least $1.5 million, for a total of $7.5 million. We do 
appreciate the Subcommittee's support in our effort to secure 
this increase. It is very clear from the record established so 
far that the funding will be put to very good use.
    Thank you, Mr. Chairman, for your time. I will be happy to 
answer any questions.
    [The prepared statement of Ms. Hemley follows:]

 STATEMENT OF GINETTE HEMLEY, VICE PRESIDENT OF SPECIES CONSERVATION, 
                          WORLD WILDLIFE FUND

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify today. I am Ginette Hemley, Vice President for 
Species Conservation at World Wildlife Fund. WWF is the largest private 
conservation organization working internationally to protect wildlife 
and wildlife habitats. We currently sponsor conservation programs in 
more than 100 countries, thanks to the support of 1.2 million members 
in the United States and more than 5 million members worldwide.
    We are here today to discuss conservation programs for some of the 
world's most threatened species rhinos, tigers, and elephants. The 
United States, primarily through programs administered by the Fish and 
Wildlife Service, has played a critical role in the protection and 
conservation of these highly endangered species. World Wildlife Fund 
strongly urges that these programs be reauthorized, for the reasons 
outlined below.

Why These Programs Are Important
    During the 1970's and 1980's, a major poaching crisis swept through 
parts of Africa and Asia, decimating populations of the African 
elephant, African and Asian rhinos, and the tiger. This poaching was 
driven primarily by a dramatic increase in global market demand for 
ivory for use as carvings and trinkets, and for rhino horn and tiger 
bone, which are highly valued ingredients in traditional Chinese 
medicine. The crisis was made worse in the 1990's by declining 
economies and political instability in many African and Asian range 
countries.
    The statistics surrounding the wildlife losses were staggering. 
During the 1980's, half of Africa's elephants perhaps half a million 
animals were lost to poaching. Black rhinos dwindled from about 70,000 
in 1970 to fewer than 2,500 animals by 1992, an astounding 95 percent 
loss in just two decades. The tiger population in India was reduced to 
fewer than 3,000 animals by the late 1980's, while Russia's Siberian 
tigers took a major hit in the early 1990's, with numbers falling by 
perhaps 40 percent to 250 animals by 1993. Although less in the media 
spotlight, the Asian elephant population in the wild has declined to 
about one-tenth the size of its African cousin, to fewer than 50,000 
animals, due to growing human population pressures in South and 
Southeast Asia.
    Thanks to a broad international response, the situation for most of 
these species began to improve in the 1990's. CITES, the Convention on 
International Trade on Endangered Species, banned the ivory trade in 
1989 and started to beef up enforcement efforts to stop the illegal 
trade of rhino and tiger parts. But stopping the trade was not enough. 
Direct action was needed on the ground to protect dwindling populations 
of these species, and the United States stepped in to help. Congress 
passed the African Elephant Conservation Act in 1988 to provide small 
grants to help African countries conserve their remaining elephant 
populations and help rebuild them. Since the African Elephant 
Conservation Fund was initiated in 1990, more than 120 grants have been 
awarded for projects in 22 countries, strengthening enforcement and 
trade control measures, protecting critical habitat, aiding training 
programs for park guard and wildlife managers, and assisting important 
elephant research, monitoring and survey efforts.
    After 10 years, these scientific and conservation efforts, together 
with the CITES ivory ban and collaborative programs supported by other 
governments, aid agencies, and NGO's, have helped African elephant 
populations begin to rebuild in some countries. Poaching levels are 
significantly reduced in some areas and illegal trade has slowed. In 
short, the African elephant is better off today than it was a decade 
ago, in part because of U.S. Government support. Significant challenges 
remain, however, in part because of the eroding ability of many African 
governments to mount their own conservation efforts due to economic and 
political strife.
    The success of the African Elephant Conservation Act led Congress 
to pass the Rhinoceros and Tiger Conservation Act in 1994. With the 
establishment of the Rhino and Tiger Conservation Fund, a steady stream 
of small but well-targeted grants have helped avert further losses of 
these species as well. In the past five years, we have seen signs of 
improvement in the status of tiger populations in Russia, Nepal, India, 
and elsewhere. Africa's black rhino has, for the first time in several 
years, experienced a modest increase in number in several places, and 
the white rhino, once threatened, is actually thriving in South Africa. 
Asian rhinos, representing some of the most endangered large mammals on 
Earth, have received invaluable assistance from the Rhino and Tiger 
Conservation Fund but remain severely at risk in parts of their 
remaining habitat fragments in South and Southeast Asia.
    There is little question that the U.S. programs for tigers, rhinos 
and elephants, modest as they are, have helped avert disaster for these 
species even possible extinction in some cases. They have helped 
developing country governments and NGO's build more effective 
conservation programs. They have truly had a multiplier effect, 
leveraging an impressive return on partner investments and providing an 
excellent example of public-private collaboration. But the task is not 
done. While we have begun to emerge from a period of crisis for some of 
these species, their long-term survival is still seriously at risk.
    It is important to note that these conservation programs are 
critical not just to the species concerned, but also to Americans who 
appreciate and use them as symbols of strength and endurance. The 
Republican Party should be first among those to acknowledge the benefit 
of the elephant to its image. Saving these species is not just a 
biological imperative elephants, tigers, and rhinos also have important 
social, economic, and cultural roles to play in American society.

The Broad Impact of Elephant, Rhino and Tiger Conservation Efforts
    Elephants, rhinos, and tigers are not only threatened in their own 
right, they are flagships for the threatened habitats and ecosystems in 
Africa and Asia in which they live, including some of the world's most 
unique and biologically diverse systems, such as tropical lowland 
forests. These large mammals require relatively large areas to survive, 
so by protecting them, thousands of other plant and animals species 
also are conserved. They are true ``umbrella'' species whose 
conservation benefits extend well beyond their own to whole communities 
of species.
    Some of these large mammals also play an inordinately important 
role in the ecosystem they are keystone species and their survival is 
crucial for the survival of the system as a whole. Tigers, for example, 
are top predators, keeping populations of prey species in check, which 
in turn keep in balance the populations of the plants upon which they 
feed. By virtue of their size, feeding habitats, and movements, 
elephants actually shape the physical environment in which they live 
and so have a major influence on the plant and animal species around 
them. In short, when tigers and elephants thrive, the whole ecosystem 
thrives. When they suffer, the entire ecosystem suffers, including the 
people that live in or around it.

Recent Advances in Elephant, Rhino, and Tiger Conservation
    Given the significant declines these species have experienced in 
recent years, a logical question to ask is, are their remaining 
populations and are the ecosystems in which these species live still 
viable? Significant study and debate surround the question of 
biological viability, and clearly massive declines or extirpation of a 
population in a particular area can be disruptive. But several points 
are important to consider. First, we have learned with both tigers and 
rhinos that a species can recover if habitat and food availability is 
sufficient and poaching is controlled. For example, the tiger 
population in the Russian Far East was once reduced to fewer than 40 
animals in the 1940's due to uncontrolled hunting. Strict protection in 
an area where habitat and prey was abundant allowed the population to 
recover to around 400 by the 1980's. Similarly, the white rhino 
population in South Africa has grown to an astounding 9,700 animals 
today the largest rhino population on Earth from fewer than 100 animals 
at the turn of the century. Likewise, greater one-horned rhinos in 
Nepal, reduced to 100 or so in the 1960's due to overhunting, now 
thrive at more than 600 animals, enough to begin repopulating areas 
where they were extirpated thanks to strong protection by the Nepalese 
government and effective community-based conservation efforts. These 
success stories demonstrate that a species can come back, if sufficient 
and sustained protection is provided.
    Thanks to increased international support for conservation 
activities, including from the FWS programs, the conservation community 
has begun to implement long-term strategies for the conservation of 
tigers, rhinos, elephants, and other large mammals. We are increasingly 
able to determine where our conservation investments will have the 
biggest long-term payoff. For example, a ground-breaking analysis 
undertaken by WWF, the Wildlife Conservation Society, and the National 
Fish and Wildlife Foundation/Exxon-Mobile Save the Tiger Fund, shared 
previously with this subcommittee, has prioritized remaining tiger 
populations and habitats across Asia based on habitat type and 
integrity, levels of disturbance, and other factors related to long-
term viability. This analysis is helping to guide global tiger 
conservation efforts so that the most promising areas and populations 
receive priority attention. We know that we cannot save tigers 
everywhere, and that we must make tradeoffs in our decisions. Similar 
analyses have been undertaken for Asian elephants and rhinos, and 
comparable regional efforts are underway for African elephants.
    The conservation community has also come to recognize that, for 
many large mammals like tigers, rhinos, and elephants requiring large 
areas to maintain healthy populations, the current universe of parks 
and protected areas does not provide sufficient habitat for their long-
term survival. That is, a large proportion of their populations in some 
cases 50 percent or more are found outside areas that receive official 
protection, so effective conservation efforts must extend throughout 
the entire landscape where the species lives and moves. New approaches 
to conservation are encompassing larger areas than ever before 
ecoregions and landscapes and bringing together habitat protection, 
land-use planning, managed resource use, and community-based 
conservation in an integrated fashion that benefits both wildlife and 
people. In some cases, this includes undertaking efforts to restore 
forest corridors that connect parks and protected areas so that species 
like tigers, rhinos, and elephants can more easily disperse, breed, and 
establish new populations, enhancing their genetic viability and 
prospects for long-term survival.

The Unique Value of the Elephant, Rhino, and Tiger Funds
    The situation for elephants, rhinos, and tigers remains serious, 
but it is far from hopeless. The progress of the last few years, thanks 
in part to the programs authorized by the African Elephant, Asian 
Elephant, and Rhino and Tiger Conservation Acts, demonstrate that, when 
reliable financial support is available and is used wisely, 
improvements can be rapid and dramatic. We know what needs to be done 
to save these species, and our conservation approaches and 
methodologies are becoming more effective and innovative every day. We 
have better data on these species and their critical habitats and 
stronger international collaboration than ever before. We must build on 
this important momentum.
    The FWS programs for tigers, rhinos, and elephants have a number of 
unique features that underpin their effectiveness. These include:
Leveraging Significant Conservation Funding and Support
    The FWS reports that from 1990 through January 2001, about 240 
grants totaling some $13.5 million have been awarded for elephant, 
tiger, and rhino projects. These together have leveraged almost $56 
million in matching funds and in-kind contributions, a 4:1 return. In 
1999 and 2000, 51 percent of the matching funds and in-kind 
contributions for tiger and rhino projects originated from the range 
countries. Few international conservation or aid programs are able to 
generate this level of matching or collateral support.

Program Administration with Minimal Bureaucracy and Cost
    To date, the elephant, rhino, and tiger grant programs have been 
administered at minimal cost for less than 4 percent of the monies 
appropriated for the grant programs from 1990 to 2000. In fact, this 
amount has proven inadequate to cover the costs of full program 
administration, and subsidies have been needed from other FWS programs. 
Although these grant programs are relatively small, they include 
several important activities, such as developing and reviewing 
proposals and reports, issuing and tracking project contracts and 
payments, communicating with grantees and host governments, and 
tracking and monitoring projects. WWF supports amending the elephant, 
rhino, and tiger acts to ensure a modest increase in the allowance for 
administrative expenses so that the grant funds are administered with 
maximum effectiveness. We encourage the subcommittee to include the 
same language pertaining to administrative expenses as contained in the 
Great Ape Conservation Act of 2000, i.e. that the Secretary ``may 
expend not more than 3 percent, or up to $80,000, whichever is greater, 
to pay the administrative expenses necessary '' We believe this is a 
more appropriate formula than now contained in the reauthorization 
bills under consideration today.

Strengthening Collaboration Among NGO's and Governments
    As both a partner donor and implementing organization for various 
FWS-supported projects, WWF is acutely aware of the important role the 
elephant, rhino, and tiger programs have played in fostering 
collaboration among NGO's and governments. Many of the projects 
supported by these conservation funds involve multiple partners, and 
grants provided to NGO's receive approval from range country 
governments before they are awarded. The FWS programs have thus acted 
as a catalyst, not only for leveraging funding, but also for bringing 
important conservation players together in ways that enhance 
collaboration and conservation impact.

Providing International Leadership
    By passing the African Elephant, Asian Elephant, and Rhino and 
Tiger Conservation Acts and implementing the programs they authorize, 
the U.S. Congress and FWS have together staked out important leadership 
roles in international conservation. This has helped bring the plight 
of these endangered species to the attention of governments worldwide, 
including both range and donor countries, which have increased their 
support for conservation programs accordingly. It has helped strengthen 
the activities of CITES in addressing key threats to these species. It 
has helped make these species a higher priority on policy and 
philanthropy agendas in the private sector, leading to increased public 
support for conservation programs.

Increasing Public Awareness
    Over the past decade, the American public's interest in and concern 
for the future of these endangered species has grown. This is clearly 
the result of the combined efforts of non-governmental organizations 
such as those testifying here today and the efforts of the FWS and 
Congress. All of us receive a regular stream of letters of concern 
about and in support of these species. There is little question that 
the American public cares deeply about the future of elephants, tigers, 
and rhinos, and expects and encourages us all to do more on their 
behalf. Public contributions to many of the organizations here today 
are a strong sign of the importance the public places on efforts to 
protect these species, and have enabled the private sector to work 
hand-in-hand with the government on conservation efforts.

The Rhino and Tiger Product Labeling Act
    Recognizing the importance of the United States as a market for 
Asian medicinal products purporting to contain rhino and tiger 
ingredients, Congress amended the Rhino and Tiger Conservation Act in 
1998 to include a specific prohibition on the import, export, and sale 
of any product for human consumption that contains or is labeled or 
advertised to contain tiger or rhino parts. This new law, consistent 
with a recommendation by CITES, was intended to facilitate enforcement 
efforts by shifting the burden of proof that a product actually 
contains these ingredients from the government to the trader or 
salesperson. The law also required, within 180 days of its passage, the 
initiation of an education program to inform consumers about the law 
and the plight of the species it is intended to protect. To date, we 
are aware of few activities undertaken by the FWS to begin such an 
education program, although several NGO's have offered to collaborate 
in these efforts in order to minimize the cost to the government. WWF 
encourages the subcommittee to confer with FWS on their plans for 
developing such a program in the future.

The Need for an Increase in Appropriations for the Multinational 
        Species Fund
    From 1990 to 2000, over 650 proposals have been submitted for 
funding by the elephant, rhino, and tiger programs. Of these, some 240 
grants have been awarded. Clearly, the number of projects in need of 
funding outstrips the capacity of the FWS to support them. With the 
addition of two new programs the Great Ape Conservation Fund and 
Neotropical Migratory Bird Conservation Fund the total combined amount 
of funding authorized by Congress is $30 million. Last year, just $3.25 
million was appropriated. WWF and other NGO's are seeking an increase 
in appropriations to $1.5 million for each fund, for a total $7.5 
million. We believe that this increase is fully warranted because of 
the urgent conservation needs these species and their habitats face, 
the number of worthy projects that have gone without support, the 
addition of the two new funds, and the outstanding record of the FWS in 
administering the programs to date and the conservation results they 
have achieved.
    It may interest the subcommittee that several of the NGO's 
represented here today are pursuing an initiative to augment the 
funding provided for these programs through a possible series of 
wildlife ``semi-postal'' stamps produced by the U.S. Postal Service. 
Modeled after the highly successful Breast Cancer Research Stamp, which 
has generated over $19 million in funding for government breast cancer 
research programs since its introduction in July 1998, a ``Vanishing 
Wildlife'' stamp series could help raise additional funds for these FWS 
programs. This could help shrink the gap between the Congressionally 
authorized funding ceiling and the actual appropriation. Last year, 
Congress transferred authority for the approval of semi-postal stamps 
to the Postal Service, which is now preparing guidelines and criteria 
for a 10-year program. We would be grateful for the subcommittee's 
support in pursuing the wildlife semi-postal initiative and will keep 
you informed accordingly.
    Mr. Chairman, thank you for the opportunity to testify before the 
subcommittee today. I will be happy to answer any questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Hemley, and thank 
all three of you for your testimony.
    I would like to start with Mr. Rapp. In your full 
testimony, you used a phrase called ``empty forest syndrome.''
    Mr. Rapp. Yes.
    Mr. Gilchrest. Could you explain that?
    Mr. Rapp. Certainly. Empty forest syndrome refers to the 
fact that the future for wildlife could very well be in empty 
forests where the trees remain and some of the smaller species, 
but the predators, the prey species, seed disbursers, and 
fertilizers are vacant. And it wouldn't be the same forest as 
we have today, and I think the funding from these Acts goes a 
long way in keeping those species in the forests and the 
habitats where they are from.
    Mr. Gilchrest. So an empty forest syndrome disrupts the 
natural mechanics of the ecological system in ways that we 
probably would find it difficult to predict what that forest 
would look like in the future?
    Mr. Rapp. Very well said, and the way they would behave. I 
mean, you take out these key species and things change 
dramatically and it is not the same forest. Especially animals 
like rhinos, elephants and tigers are extremely important to 
habitats where they live in all sorts of ways that if you 
remove them from the habitat, it is very much different; it is 
not the same place.
    Mr. Gilchrest. That phrase ``empty forest syndrome'' has a 
deep, hollow loneliness to it.
    Mr. Rapp. It does. It reminds me of ``Silent Spring.''
    Mr. Gilchrest. Right. Jim, can you give us some idea of 
what roles zoos play and might continue to play in the 
propagation of threatened or endangered species as far as that 
impact on releasing them to the wild and increasing species 
populations?
    Mr. Rapp. Absolutely. Our first goal truly is to prevent 
that. I think the zoos are a stronghold in the very end as a 
tool to preserve animal species from becoming extinct. Some of 
the species we have talked about today--Sumatran tigers, Javan 
rhinos--are in extreme decline. Less than a few hundred 
individuals remain in those populations. For good genetic 
viability, I think scientists would say that 2,000 to 3,000 are 
needed to really remain healthy. Of course, if you fragment 
populations, it gets even worse.
    Zoos fundamentally, I believe personally, are really 
education institutions first. I think our strongest asset lies 
in the 130 million visitors--American citizens, tourists, 
people from abroad--who come to see our collections. You 
multiply that by the zoos worldwide and it can become a pretty 
dramatic effect in bringing these concerns and problems to 
light.
    However, on the scientific side of the zoo community, there 
is a lot of work being done, all sorts of new technologies 
available--in vitro fertilization, the frozen zoos--again, 
last-ditch efforts that can be used to prevent animals from 
becoming extinct. But when you take an animal like that and try 
to release it back into the wild, it comes with costs. It is 
not easy just to take an animal from a zoo, a captive-born 
animal, and take it back to the wild. But in certain instances 
it becomes quite effective to at least boost genetic viability 
in wild populations.
    So it is a last-ditch effort we would rather see not 
happen, one reason why these funds are so important, but we are 
involved very much in creating the technology today that can 
help the wild and help field technicians in the work they are 
doing in the countries where these animals live.
    Mr. Gilchrest. Jim, in recent decades a number of 
conservationists and biologists have had fairly strong negative 
comments, and I think in the present-day situation-- at least 
in most instances in the United States, it is not true, but a 
number of conservationists have had very negative comments 
about zoos and the number of species that were--the manner in 
which those species were collected to bring to zoos and the 
number of species that were threatened or endangered at the 
time. And then because they were caught to bring to zoos, their 
populations further declined.
    Do you have any comment to those statements?
    Mr. Rapp. Certainly. I think decades ago, zoos were 
consumers of wildlife. ``Bring Them Back Alive'' Frank Buck and 
characters like that going overseas to bring animals to this 
country were the founding stock for a lot of animals in 
collections in zoos and aquariums today.
    At this point, I feel pretty safe to say that in this day 
and age, when animals are brought into captivity, it is only 
because the scientific community has suggested as a last-ditch 
effort to bring animals from the wild into captivity for 
captive breeding--California condors, black-footed ferrets, a 
lot of the programs managed by Fish and Wildlife. The zoos have 
had a tremendous impact in working with the technology in situ 
in the zoo collections, out of the field, of course, also 
educating the public.
    I think the role has changed quite a bit. I know at our 
collection at Salisbury, the only true wild animals we have in 
our collection are animals that are brought to us for injuries. 
We have bald eagles on exhibit. We have an orphaned river otter 
that helped make up our collection. But I know for the majority 
of zoos in this country, I think it is like 90 to 95 percent of 
animals in collections today have been captive-bred.
    Indeed, the technology for captive breeding is so far 
advanced these days there really isn't a need to go to the wild 
to supply zoos with animals. But, certainly, the history was 
that. That is how zoos got started. We are much more involved 
today than we were then.
    Mr. Gilchrest. Thank you. Sort of an assisted living 
facility for injured or aged animals.
    Mr. Rapp. Very well said.
    Mr. Gilchrest. That is good. I think we may have a second 
round because I have some other questions, but I will yield now 
to recognize Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I certainly want 
to thank our witnesses for their testimony. I do have a couple 
of questions.
    Mr. Jones, in your efforts on behalf of our Government, and 
I guess in your efforts in coordinating these three important 
programs with the host countries, other than just to say that 
we admire the beauty of these animals, can you share with the 
Subcommittee why they are so important to the ecology? Why do 
we have to look at protecting the elephants and the rhinos and 
the tigers? Tigers eat other animals. Can you tell us how they 
protect the biodiversity of the environment in which they live?
    Mr. Jones. Thank you, Mr. Faleomavaega. I would be pleased 
to do that, and I would like to build on the response Mr. Rapp 
just gave because if you think about that empty forest, or you 
could think of it in the same way, an empty marsh or an empty 
zone next to an island--if the coral reefs were gone or if the 
migratory birds didn't come back every fall, that would be an 
empty habitat. It is not the same thing.
    In the same way, the habitats we are talking about for 
these animals are all part of a web. If these, the major 
species, sometimes referred to as keystone species, are not 
present, everything else in that habitat suffers. Some species 
that depend on them may indeed disappear. Others may actually 
over-populate. If there are no tigers to keep deer numbers in 
check within the habitat, then the deer may overpopulate and 
eat the vegetation, and the result is then starvation and 
population collapse. Birds, monkeys, and other species may in 
turn suffer.
    Mr. Faleomavaega. What animals suffer if, let's say, the 
elephant becomes extinct?
    Mr. Jones. Elephants, for example, Mr. Faleomavaega, 
maintain water holes. Elephants can dig for water, and in a 
time of drought they will go to the dry riverbed. They dig, 
they get to the water, they drink themselves. They are 
prodigious drinkers of water, but they also make a place where 
other animals then can come.
    Mr. Faleomavaega. What about tigers?
    Mr. Jones. Tigers are part of a natural fabric. They 
certainly are predators. They even sometimes are predators on 
humans, but they also are critical to the functioning of that 
ecosystem.
    Mr. Faleomavaega. I have got a picture here, I think, on 
the Rhinoceros and Tiger Conservation Act, and you have got a 
poacher here taking care of these ungulates that are supposed 
to be one of the favorite species for tigers to eat. Shouldn't 
we also be concerned about conserving this ungulate that the 
tiger feeds on?
    Mr. Jones. Absolutely. Mr. Faleomavaega, if there is no 
prey species for tigers--if humans, for example, come in and 
poach all of the deer or pigs out of an area, then regardless 
of how good it may look to our eyes, to a tiger there is 
nothing to eat. Those are all issues that we, working with the 
partner organizations that are here today and with the range 
countries, are working on to make sure there is an ecological 
balance in these communities--that is, biological communities--
where these animals live.
    Mr. Faleomavaega. You suggested earlier that you have some 
suggestions on how we might better improve the reauthorization 
of these legislations. Can you share with us in substance if 
there are any critical areas that we really need to look at in 
terms of improving the provisions of these proposed bills?
    Mr. Jones. Yes, sir. One of the suggestions we have made is 
to pick up language which is in one, but not all of the bills--
it is called Project Sustainability, but there is a lot more to 
it than you might think just by seeing those words.
    What we want to do is to have the authority to fund 
projects which will be broadly sustainable. For example, 
training programs where many of the participants are people who 
are involved with rhinos or tigers or elephants, but maybe some 
of them aren't. Would we want to train the game guards from 
nine parks in a country which have elephants and say to the 
tenth park, you don't have any elephants, so your game guards 
can't come to the training? Tomorrow, the game guard who is at 
that park may well be reassigned to another one.
    Broad ecosystem projects which would result in benefits to 
the habitat that is essential for the survival of the elephant 
or the other species. These are the kinds of projects where we 
may have funded some of those already, but we have been kind of 
careful and we would like to have a more explicit congressional 
recognition.
    Mr. Faleomavaega. Now, in response to some of these 
countries that we are working in with these programs, do you 
sometimes get the idea that we are telling these countries what 
to do? How receptive have they been in our efforts in trying to 
work with them closely and making sure that we are not 
overbearing and saying we know better what should be done with 
these animals? Perhaps these animals live the way they do as 
best suited with the way those host countries provide for them. 
I don't know. Tell us which countries have been the most 
critical of these programs.
    Mr. Jones. Mr. Faleomavaega, I am not sure that I know of 
any country that has been critical of these programs. We have 
some countries that we don't work in right now, but they are 
mostly countries that are too dangerous for us and countries 
that the U.S. State Department has advised us not to go into.
    Mr. Faleomavaega. Like?
    Mr. Jones. Angola is a country that is still in civil war 
with mine fields and other dangers. We want to work there.
    But going to your main point, we have learned from our 
experience that it doesn't work to go into a country and try to 
tell them how their wildlife should be managed. That does not 
work. We work with partners to respond when they come to us. A 
partner may come to us and say, we are interested in a project 
in country ``x.'' Let's say it is Nepal. We are not going to go 
ahead and fund that project unless we know that the government 
of Nepal agrees that this is a good project that fits within 
their view of the cultural and biological priorities for their 
country. If Nepal says no, regardless of what we may think, 
that is not a viable project and we won't fund it. We will say 
instead to Nepal, well, what kind of projects might be a 
priority for you, and then work to structure a program that 
meets their needs.
    Mr. Faleomavaega. The other concern I may have also, Mr. 
Jones, is that a country may have a critical need, but we are 
putting the carrot out there, like if you don't conform to what 
we expect you to do, then we won't give you the funding. Do you 
find that perhaps this is something that we could also learn to 
adjust in terms of how we can best assist these countries?
    Mr. Jones. There is no doubt, Mr. Faleomavaega, that we can 
always learn to do things better, and we are always looking for 
ways that we can make sure that we are a good partner and not a 
dictator. So we would be pleased to talk to you further or to 
get any advice that you might have from your experience about 
how we can make sure that that doesn't happen.
    Mr. Faleomavaega. Well, there is an African proverb--I know 
my time is almost up--that I want to share with the Chairman 
that says that when two African elephants fight, the grass is 
trodden. But those of us from the islands say when two 
elephants make love, the grass is still trodden.
    [Laughter.]
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Gilchrest. I think the grass will grow back, Eni.
    We are joined by the gentleman from California, Mr. Pombo.
    Mr. Pombo. Thank you, Mr. Chairman. I think, to follow up 
on what Mr. Faleomavaega was talking about, unquestionably 
there are times when other countries feel like if they don't do 
it our way, they are in trouble. But I do think that, in the 
aggregate, these programs have been very worthwhile.
    Something Mr. Jones just said was that the purpose of this 
program is not to dictate to other countries how to manage 
their wildlife, but to assist them in managing their wildlife, 
which is very much, in my opinion, the basis for CITES, not to 
dictate to an individual country what they can and can't do, 
but to assist them in conserving their endangered species.
    I wanted to start with Ms. Hemley. Your organization or the 
organization that you represent has done some very good things 
to help with conservation, and I am familiar with some of the 
things that they have done in Africa. I was wondering if you 
could explain to the Subcommittee how some of these grants are 
used. Give me an example of a specific project, how the money 
was used, and what the result was of that particular project, 
just so that we understand exactly how this money is being 
used.
    Ms. Hemley. I would be happy to, Mr. Pombo. World Wildlife 
Fund is both a recipient organization for some grants and we 
also are a co-funder in many places in the world, which I think 
is an example of how well these programs work. They are helping 
us to get matching amounts of support.
    In parts of Asia, we have received funds, for example, in 
Vietnam to protect a very, very endangered population of Javan 
rhino. It is the vestigial population that was only recently 
rediscovered by Western scientists in the last 10 years. It is 
such a dire situation that there are needs across all fronts, 
helping to develop an education program for local people to 
appreciate this heritage they have left in this rhino that has 
only recently been rediscovered.
    We have been helping with training of wildlife managers 
around the area in Vietnam, and we have been helping with the 
government to get stronger legislation passed, as well, to 
ensure that this critical habitat is protected well into the 
future. So, that is one area where we have, I think, been able 
to cross various types of project activities.
    Mr. Pombo. One of the things in your testimony that you 
talked about was you used the phrase that the habitat is highly 
threatened. I know in every different habitat there are 
different threats to that habitat. Can you give the 
Subcommittee an idea of what some of those threats are in 
particular places?
    Ms. Hemley. Sure. I think perhaps one good example, because 
the situation is so critical, is in Southeast Asia, 
particularly in Sumatra, where in the last few years, according 
to World Bank satellite imagery data, the rate of forest 
conversion is probably twice as great as we thought it was 
three or four years ago today. I mean, it is changing so 
quickly, and the biggest force behind that change is conversion 
to develop oil palm plantations and paper pulp plantations.
    These are areas that are critical not for just one of these 
species under consideration, but for three--Asian elephants, 
the tiger, and the Sumatran rhino. A lot of the conversion is 
the result of increased trade and importation of these products 
to East Asia, China, Japan. But this, for us, is one of the 
most urgent situations in terms of critical habitats today. 
This is tropical lowland forest, of which there is very little 
remaining in Southeast Asia, and it happens to be areas where 
three of these very important species live. So, that is one 
good example.
    Similarly, in other parts of Asia--in India, where you have 
got now over 1 billion people, wildlife is left in a handful of 
parks. They have been established and in place for a good 
while, but these parks--there is very little buffer zone around 
most of these parks in India. Yet, they are perhaps the last 
hope for the Bengal tiger, for example.
    The encroachment from human populations for agriculture and 
development related to human survival is really the big threat 
to the habitats there. So it is essentially human population 
pressures, together with pressures resulting from exploitation 
for commercial purposes, are the two big threats to a lot of 
the habitats that these species live in.
    Mr. Pombo. The Committee had the opportunity, a number of 
us, to go to Africa and look at different management schemes 
for wildlife, and we looked at national parks and the 
management tools that they use at highly managed national 
parks. We looked at privately-run parks or game preserves and 
the ability that they had to maintain the wildlife in those 
areas. Then we looked at some of the broader areas, 
particularly in places like Zimbabwe where the people in those 
particular regions had the ability to manage the wildlife in 
their particular areas.
    In all three of the different management schemes that we 
looked at, they were able to preserve the wildlife in those 
particular areas, and in most instances had the ability to 
build on their numbers, in some cases to the point where they 
had more animals than the carrying capacity of the land.
    Do you look at all those different options for managing 
habitats as a way of returning some value to the people who 
live in those areas so that they don't have to go in and 
bulldoze thousands of acres to plant some kind of agriculture? 
Is that an option that you are looking at in terms of some of 
the work that your organization has done?
    Ms. Hemley. Absolutely, and I think there are two areas in 
the world that highlight that type of approach which 
essentially we would call community-based conservation 
involving the local communities that live around the protected 
areas where these animals live.
    In Zimbabwe, as you say, the national law allows limited 
hunting and the fees from hunting are returned to local 
communities in a managed way. That is one place where that kind 
of approach might work.
    Another country where community-based conservation has been 
very effective is Nepal, where ecotourism has been very much a 
revenue generator. One of the great values of the system in 
Nepal is that the national law allows for the recycling of 
tourist revenues back into local conservation, which is not 
usually the case. Usually, those monies go into the national 
treasury. But in Nepal they have got a model law that allows 
the funds to go back into the communities to develop 
agriculture that is consistent with conservation and different 
approaches for even limited harvesting of timber in these 
areas.
    So it is absolutely important, in our view, in virtually 
every place we work that you have got to involve local 
communities and find incentives for conservation, and those 
incentives can take a range or different forms.
    Mr. Pombo. Thank you very much.
    Mr. Gilchrest. Thank you, Mr. Pombo.
    Mr. Jones, having a long history of CITES, and certainly 
with this issue and the development of this issue, and having 
some idea, I guess, of the land area that is now set aside or 
proposed to be set aside for these various species that we are 
talking about this morning, do you have some idea--and this 
relates a little bit to Mr. Pombo's question about carrying 
capacity--do you have some idea of the maximum population that 
we can expect to sustain in the areas that you are now working 
with for the African elephant, the Asian elephant, the tiger, 
the rhino, and perhaps other species?
    I guess I ask the question, do you have some idea of an 
area that 100 elephants need or 1,000 elephants need, or the 
rhinos in Southeast Asia or in India or Africa? Has there been 
any type of study to understand carrying capacity for these 
animals, and if there has been, can that population that we 
have heard this morning is very fragmented, greatly diminished, 
sustain itself without the burdens of in-breeding?
    Mr. Jones. That is an excellent and a pretty complicated 
question, Mr. Chairman, since we are talking about a number of 
different species that occur in different areas.
    We have had the privilege of having Mr. Pombo with us the 
last two CITES Conferences of the Parties, in Zimbabwe and then 
in Kenya. Just between those two countries, there are some 
ecological differences, so that an area of the same size in the 
lower Zambezi Valley of Zimbabwe might support more elephants, 
for example, than an equal-sized area in a very dry part of 
Kenya way up near the northern border where you are almost into 
a desert.
    When you expand that to look at rhinos and other species, I 
am certainly not the one who is best qualified probably to 
comment on this. I am going to turn to Mr. Stansell in just a 
minute, but I would say that all of the organizations here have 
been involved in these kinds of studies--the World Wildlife 
Fund, the AZA, the Wildlife Conservation Society, and others--
scientific studies to look at that very question because it is 
also often a question of the human population in the area.
    Elephants, for example, are a species that is very 
dangerous. Tigers are also dangerous. But elephants overall are 
probably one of the most dangerous species on Earth, not just 
to human life but also to property, because elephants can 
destroy crops. And in an area where there is a high human 
population, the elephants, in fact, might do just fine. They 
will be very pleased to come in every night and eat the 
farmer's corn, but the farmer isn't going to survive.
    So we need to find the right balance and have areas where 
elephants can have the natural food they need, and then find 
innovative ways where elephants and people can coexist. Because 
of fragmented habitat, there are some areas where elephant 
populations just are not viable anymore, not because the 
elephants wouldn't live there but because the human presence is 
too great to be able to deal with them.
    But, Mr. Chairman, with your permission, let me ask Mr. 
Stansell to comment for a second about his experience. He has 
spent a lot of time in Africa himself and probably has some 
thoughts on this.
    Mr. Stansell. Thank you, Mr. Chairman. I think Marshall has 
covered the issue. Particularly under our various grant 
programs, I think it is very important to recognize that we 
really do look to the range countries and what their priorities 
for their resources are.
    There is a tremendous amount of information out there and 
we would be happy to provide that to the Subcommittee as far as 
varying estimates of population levels by species. There is a 
lot of information available on that and all of that 
information is taken into account as we are trying to identify 
projects to help support the conservation of those species.
    But as Marshall indicated, carrying capacity is one factor. 
You certainly want to be at a little bit below carrying 
capacity to make sure that you don't get into habitat damage. 
With a species as big as elephants, they modify the landscape, 
and so it is important that we understand those factors as we 
are trying to help through this grant program to provide that 
additional funding.
    Thank you.
    Mr. Gilchrest. Thank you.
    Ms. Hemley, do you care to comment on that question and 
then the concept of a conservation corridor? Is that suitable 
for these large species? Would it have any positive effect to 
link certain areas that are set aside?
    Ms. Hemley. To answer that question first, as I said in my 
comments, a number of conservation organizations are taking a 
new approach to conservation that involves looking at larger 
scales of areas spatially than ever before, for the reason that 
these large species--elephants, tigers, and rhinos are 
paramount among them--need these areas.
    When you have a species like the tiger which, depending on 
the density of the prey, may require several hundred square 
miles for its home range, it needs to be able to move between 
forest areas in order to hunt, to breed, reproduce, and then 
rebuild new populations.
    Mr. Gilchrest. So you are saying that a tiger might take 
advantage of a corridor?
    Ms. Hemley. A tiger is a good species; in fact, a species 
that we are using in some of our work in Asia to design and 
look at landscape needs for conservation. If you can address 
the needs for a tiger's survival, you are effectively 
conserving a broad landscape that then will, of course, benefit 
many other species.
    In Nepal, in one area, we are actually looking at a very 
large--what we are calling one grand wildlife corridor, what we 
call the Terai Arc, that aims to link 11 protected areas. It is 
a very big, ambitious project. It will involve a lot of 
forestry and reforesting these corridors and working with local 
people to make sure--
    Mr. Gilchrest. Does it involve purchasing land, then?
    Ms. Hemley. It will in some cases, but most of this land 
is, in fact, state land, and we are now working with the 
government to come up with agreements that work for the local 
people and will allow them to use the strips of land alongside 
these corridors to continue to harvest the forest products in 
these areas so that they can still benefit from it. We are 
right now undertaking analyses to identify the bottlenecks that 
need to be addressed first.
    Mr. Gilchrest. How wide would this corridor be, or how wide 
would you like to see it?
    Ms. Hemley. Well, it will vary in different places, but it 
could be as small as a couple of miles wide in one area and 
then larger in other areas. But it straddles the Nepal-India 
border and is something that is a high, high priority for us. 
We hope in the next couple of years to have more to report on 
how this big, ambitious effort is going.
    Mr. Gilchrest. Thank you. I guess we could continue this, 
but the hearing room is needed by another Subcommittee 
eventually.
    Mr. Faleomavaega, any follow-up questions?
    Mr. Faleomavaega. A real quick question, Mr. Chairman.
    Ms. Hemley, I was fascinated by your testimony in terms of 
looking at the big picture. As you may be aware, two-thirds of 
the world's population is in the Asia-Pacific region, and so 
the density of the population per whatever area and how you may 
want to measure--looking at the climate now even among the 
industrialized countries, the global economy and globalization 
of this and that, where are we going to find the forests to 
provide for the species of these animals, not just the tiger 
and the rhino and the elephant?
    You are saying something that is understandable, but when 
the human species comes to the forefront and says, look, I need 
that extra space to live--we have got 1.2 billion people living 
in China, over 1 billion in India. When you talk about reality, 
when the rubber meets the road, who should be preserved, the 
humans or the animals?
    Ms. Hemley. That is kind of the big question, isn't it? I 
appreciate that. I guess one response would be that I think the 
conservation community certainly recognizes that, and Asia is a 
huge challenge because of the human population growth there. 
That is why we are becoming more strategic than ever before in 
our efforts.
    I mentioned a report that the World Wildlife Fund and the 
Wildlife Conservation Society prepared, with support from the 
Save the Tiger Fund, a few years ago. It was the first ever 
analysis that really took a large mammal, in this case the 
tiger, and looked at all of its critical habitats. The tiger 
lives in 13 or 14 countries in Asia. We know we probably can't 
save the tiger everywhere. We have to be strategic, and what we 
have done is we have picked 25, 26 areas that we consider the 
highest priorities, but we are recommending that greatest 
attention be put on these areas across Asia.
    And perhaps we have to say that in some areas the tiger 
will not survive, but in these areas that we have identified we 
believe the tiger does have a good chance of long-term 
survival.
    Mr. Faleomavaega. Let me share with you a reality. I know 
my time is running, but Senator Inouye from Hawaii, I think, 
two years ago went to North Korea. Here is the capital of this 
country, in the millions. There were no birds; he could not see 
one bird flying, and then when he went out into the country, no 
trees. I mean, can you just imagine what that state of 
existence must be like?
    I know the island of Guam, Mr. Chairman, is having real 
problems with brown tree snakes. That whole ecosystem in terms 
of the birds there in Guam is almost gone because of this 
predator, the brown tree snake. Should we be concerned about 
conserving the brown tree snake, or should it be the birds?
    Ms. Hemley. In Guam?
    Mr. Faleomavaega. In Guam.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega.
    Mr. Pombo?
    Mr. Pombo. Thank you.
    Mr. Jones, although I think these programs have done some 
good and will continue to do some good, it seems apparent to me 
that no matter how much money we spend, we can't save these 
species, other than actions that are taken in the host 
countries of those particular species. That is really what is 
going to turn it around. We can be helpful, we can give them 
advice, we can help them to develop management programs. But 
unless they are willing to do that and have a real incentive to 
do that, we are not going to turn these species around.
    One of the things that struck me the most in Africa was 
that as you went from country to country, you saw a huge 
difference in the habitat just across a fence, across a border, 
and a lot of that was driven by not the particular management 
schemes that the countries employed, but the political 
stability of those particular areas.
    I know you have seen it because you have spent time over 
there as well, but I just think that as we move ahead with this 
legislation, I don't know how we do any more to bring political 
stability and a willingness on the part of some of our partners 
in this. But I think that is going to be the key to the 
survival of a number of these species.
    We saw the difference between Southern Africa and Kenya in 
the way that they managed their large-mammal populations, 
particularly elephants, and the difference in poaching and the 
difference in the carrying capacity that they had to deal with. 
I just think that we can do some good with this, but being able 
to, by ourselves, reach out to these countries is just not 
going to happen. I know that you know that and have been 
through this.
    But as we get into the future, Mr. Chairman, hopefully you 
will have the opportunity to see some of these areas because 
the political stability in an area and the incentives that we 
give or the countries give the local people that live there 
make a bigger difference than anything we can say or do here.
    I do have additional questions for Mr. Jones. I would like 
to submit those in writing. I know we have another panel, but 
thank you very much.
    Mr. Gilchrest. Well said, Mr. Pombo.
    Mr. Faleomavaega. Mr. Chairman, I also would like to submit 
additional questions for the members of the panel for follow-up 
for the record.
    Mr. Gilchrest. Without objection, both sets of questions 
will be submitted to the record and sent off to our witnesses.
    [The response to questions submitted for the record by Mr. 
Pombo follow:]

[GRAPHIC] [TIFF OMITTED] T1290.015

[GRAPHIC] [TIFF OMITTED] T1290.019

[GRAPHIC] [TIFF OMITTED] T1290.020

[GRAPHIC] [TIFF OMITTED] T1290.021

    [The response to questions submitted for the record by Mr. 
Faleomavaega follow:]

[GRAPHIC] [TIFF OMITTED] T1290.016

[GRAPHIC] [TIFF OMITTED] T1290.017

[GRAPHIC] [TIFF OMITTED] T1290.018

    Mr. Gilchrest. We will do all we can. I certainly would 
enjoy traveling to the areas that you think would be in most 
need of our attention. We will make every attempt to do that 
during this session of Congress.
    I want to thank all of you for your energy, your knowledge, 
your patience, your persistence, and your lifelong effort in 
this most worthy cause. Thank you all very much.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Rapp. Thank you, Mr. Chairman.
    Ms. Hemley. Thank you.
    Mr. Gilchrest. Our next panel will be Mr. John Berry, 
Executive Director, National Fish and Wildlife Foundation; Ms. 
Karen Steuer, Director of the Commercial Exploitation and Trade 
Program, International Fund for Animal Welfare; Dr. John 
Robinson, Senior Vice President, Wildlife Conservation Society; 
Mr. John Kirtland, Executive Vice President of Animal 
Stewardship, Ringling Brothers and Barnum and Bailey Circus; 
and Dr. Tom Foose, Program Director, International Rhino 
Foundation.
    I think we have a vote. I ask unanimous consent from the 
Members and the witnesses--don't object, I hope. We are going 
to take a 10-minute break. Relax, have a cup of coffee. I will 
be back in 10 minutes.
    [Recess.]
    Mr. Gilchrest. The hearing has already come to order. One 
of the former Merchant Marine and Fisheries staff members who, 
I guess, is still here was encouraging me to crank this up, so 
we will get them moving.
    Thank you for coming this morning, and we look forward to 
your testimony to add to the information and the knowledge that 
we have acquired this morning. Once again, in case I miss 
saying this at the end of the hearing, we appreciate all your 
efforts in this issue, and we will continue to be optimistic 
that we will be successful as humans to preserve some of the 
wildlife heritage that this planet has been so blessed with for 
so long a period of time.
    We will start with Mr. John Berry.

STATEMENT OF JOHN BERRY, EXECUTIVE DIRECTOR, NATIONAL FISH AND 
                      WILDLIFE FOUNDATION

    Mr. Berry. Thank you, Mr. Chairman, for the opportunity to 
appear before you today in support of H.R. 645, and I would 
especially like to thank you and the members of the Committee 
for the leadership and vision that you have brought to this 
important conservation issue, as well as the professionalism 
and dedication of your excellent staff. It has been a real 
pleasure working with them.
    My name is John Berry and I am the Executive Director of 
the National Fish and Wildlife Foundation, a nonprofit 
foundation created by the Congress to foster healthy 
populations of fish, wildlife, and plants for the next 
generation.
    One of our most important programs has been the Save the 
Tiger Fund, which was created in partnership with an 
outstanding corporate leader, ExxonMobil, whose generosity will 
have provided by the end of next year over $9 million to the 
Save the Tiger Fund, an investment that I believe is unrivaled 
in corporate conservation philanthropy.
    It took a great deal of courage for ExxonMobil to initiate 
this project in 1995, in the face of dire expert and widespread 
press predictions that the tiger would likely be extinct by the 
year 2000. Both the Federal funding provided by the Rhinoceros 
and Tiger Conservation Act to the U.S. Fish and Wildlife 
Service and the private dollars brought to bear by ExxonMobil, 
our Foundation, and other conservation organizations have 
seamlessly woven together to reverse those dire predictions and 
give renewed hope that the tiger can survive in the wild.
    The Save the Tiger Fund has proven the old model of keeping 
tigers and humans apart does not work. If we are to succeed, 
tigers must be seen as an integral part of a healthy landscape 
and important to human prosperity in Asia and Russia. Long-
term, sustainable habitat management also protects key 
watershed areas, helping not only tigers, but all who live and 
rely upon those waters downstream. Sustainable forestry 
practices save tigers and jobs, as does careful ecotourism.
    We are here today with good news, Mr. Chairman. Your 
investment and that of ExxonMobil have made a real difference. 
Tiger populations have stabilized in every area where funding 
has been intensely invested.
    In the Russian Far East, for example, poachers had nearly 
wiped out all remaining Siberian tigers, leaving only 
approximately 200 alive in the mid-1990's. After targeting more 
than $1.5 million of investments in this region, in a multi-
layered approach that included forming anti-poaching patrols 
with retired and unemployed Russian military personnel, 
educating schoolchildren and families in adjacent communities, 
acquiring and protecting key habitat parcels, and pursuing 
better science, today's population now stands at more than 400 
tigers, steady, and we hope, growing.
    In India and Nepal, community woodlots have been created to 
eliminate the need to take firewood from protected tiger 
habitat areas. In China and across Asia, working with 
practitioners of traditional medicine and with culturally-
sensitive advertising campaigns, we are beginning to reduce the 
demand for tiger parts, so that, as Jackie Chan says in one of 
the advertising campaigns "When the buying stops, the killing 
can, too."
    The fight is far from over. We know almost nothing of the 
South China tiger, and given the lack of conservation 
capability in China, the South China tiger may well already be 
lost. In Burma/ Myanmar, biologists found incredibly rich tiger 
habitat recently, but no tigers. You heard the previous panel 
discuss the empty forest syndrome. This is the ghostly result 
of continued black market poaching in those areas.
    Logging and growth pressures continue to press forward. But 
at the same time, good news has been found in Cambodia, for 
example, and great tiger partnerships are underway, forming 
along the very rich Terai Arc on the border between India and 
Nepal. I believe that success is within our grasp if we can 
stay the course. We must make tigers worth more alive than 
dead.
    We must build the support of people who live near tigers 
and of political and economic leaders in those nations. We need 
to continue to build and grow partnerships with local 
communities, and we will continue to need money. From the 
nickels raised by school kids in Arizona selling pickles to 
contribute their $135 to the Save the Tiger Fund, to the 
millions provided by ExxonMobil and this Congress, every penny 
is making a difference in creating a world where mystery, 
wildness, beauty, and tigers can continue to burn bright.
    Thank you, and I will be happy to answer any questions.
    [The prepared statement of Mr. Berry follows:]

STATEMENT OF JOHN BERRY, EXECUTIVE DIRECTOR, NATIONAL FISH AND WILDLIFE 
                               FOUNDATION

    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to testify today in strong support of H.R. 645, the 
Rhinoceros and Tiger Conservation Reauthorization Act. I am John Berry, 
Executive Director of the National Fish and Wildlife Foundation, which 
is a nonprofit foundation established by the 98th Congress. The 
Foundation was created to support a growth economy for conservation 
solutions by connecting the skills, resources and goals of private and 
public partners in innovative ways. Our program with ExxonMobil, the 
Save The Tiger Fund, is the perfect example of a successful public-
private partnership for conservation, and I am pleased to provide you 
testimony on behalf of both the Save The Tiger Fund and the National 
Fish and Wildlife Foundation. We have worked closely and cooperatively 
with the U.S. Fish and Wildlife Service over the past several years. 
Our direct experience in tiger conservation experience leads us to 
believe that the ongoing congressional appropriations for this Act are 
a sound investment. The following testimony, which is excerpted from a 
report recently prepared by the Foundation on behalf of the Save The 
Tiger Fund, provides a detailed overview of the status of wild tigers 
and the impact of such conservation efforts as those of the Rhinoceros 
and Tiger Conservation Act and the Save The Tiger Fund.
    Saving tigers is about people. Humans and tigers are neighbors and 
it is a relationship fraught with hazards for both sides. It is at once 
a simple truth--and a complicated notion--that saving Asia's remaining 
wild tigers requires engaging the millions of people who live near the 
tiger. The challenges facing the tiger are as diverse as the many 
languages of the people who live near it, but the reasons for saving 
the tiger are remarkably straightforward: to preserve this keystone 
predator is to conserve its habitat, which in turn benefits the 
cornucopia of other species that share the same home, including humans.
    Support for tiger conservation is dependent on people who coexist 
with tigers believing that this effort enhances the prospect for a more 
materially, emotionally and spiritually worthwhile life for themselves, 
their families and communities. For many people, tigers are the stuff 
of ancient myth and legend. They also are powerful predators who live 
on- land that provides some of the most fertile and abundant natural 
resources for humans and wildlife alike. Often referred to as an 
umbrella species, this large carnivore ranges over vast territory that 
typically supports a myriad of complex flora and fauna. Save the tiger 
and you save an entire ecosystem.

                           TIGERS ON THE EDGE

    In 1995, Asia's wild tigers were in alarming and widespread decline 
throughout their range. At the beginning of the 20th century, when 
William Blake immortalized the tiger in poetry and Rudyard Kipling 
introduced Shere Khan to the literary world, an estimated 100,000 
tigers roamed the Asian continent. But the ensuing decades treated the 
tiger no more kindly than so many other species of large predators. 
Human population growth and the resulting loss of habitat drove tigers 
from their former homes, while the over-harvest of prey species starved 
the cat and trophy hunting, followed by rampant poaching, took its 
toll.
    Initial conservation efforts centered on passing game laws and 
creating reserves, but problems for the tiger grew steadily. Three of 
the animal's eight subspecies were extinct by 1980. In the early 
1990's, crisis flared and the possibility of species extinction seemed 
more than prophecy. Many conservationists and biologists--working 
mostly in isolation from one another and focusing their energies 
narrowly on tiger biology and petty turf tussles--had become complacent 
and were caught off guard by the wave of poisoning, poaching and 
trafficking in wild tigers. Respected biologists glumly predicted 
extinction by the year 2000. A 1994 Time cover story shouted that the 
tiger was ``Doomed!'' An estimated 5,000-7,000 tigers remained in all 
of Asia--fewer tigers on an entire continent than there were humans in 
a few city blocks of New York City or Calcutta.
    Consider the ``official'' tiger population numbers in 1994-95 
(quoted in Tilson 1996):

       South China: 30 or fewer
       Amur: 150-200
       Sumatran: 500
       Indo-Chinese: 1,050-1,750
       Bengal: 3,250-4,700

    In 1995, the Save The Tiger Fund (STF) was created by the Exxon 
Corporation and the National Fish and Wildlife Foundation. The two 
organizations had first joined to support research on the Amur tiger in 
the Russian Far East in 1991. But the tiger crisis of the early 1990's 
made it clear that something more substantial was needed. Exxon agreed 
to commit a minimum of $5 million over five years and bring to bear its 
worldwide network of companies, shareholders, and customers to support 
tigers through the STF. Exxon's commitment marked one of the largest 
corporate financial commitments to saving a species ever made. In turn, 
the Foundation anted up its conservation credibility and grantsmanship 
competence. Recognizing the need for direct tiger expertise, the 
Foundation formed the Save The Tiger Fund Council, a panel of volunteer 
experts, to assist the Foundation in guiding the overall direction of 
the STF and its project investments.
    Proclaiming an intent to ``save'' the tiger was a bold and far-
reaching goal amidst the tiger crisis of the mid 1990's. Until the STF 
began increasing investments in basic monitoring and research, no one 
could make more than an educated guess as to how many tigers might 
remain in corners of Asia. Until the STF used its influence to 
encourage cooperation among tiger biologists, there was little 
collaborative work underway and no overall assessment of tiger 
conservation priorities existed. The Save The Tiger Fund's six-year 
history has marked its growth from a bold concept to a cornerstone of 
tiger conservation initiatives. Calling the Save The Tiger Fund 
``catalytic'' in the conservation world, Kathryn Fuller, President of 
World Wildlife Fund (WWF) and STF partner observed:
    ``The Fund has encouraged non-governmental organizations to 
cooperate, pool resources, and share the limelight: tiger experts are 
now talking to one another and joining forces more often, giving rise 
to larger landscape-level programs that are increasing the tiger's 
chance for long-term survival in the wild.''
    Against the odds and all predictions, wild tigers survive today. 
They still prowl the western Terai of India and Nepal, the mangrove 
swamps of Bangladesh, the untamed borderlands of Vietnam, Laos and 
Cambodia and the vast boreal forests of the Russian Far East. It is 
neither bold nor boastful to say that the STF has played a pivotal role 
in helping to secure this stability.
    Despite these gains, optimism must be tempered with vigilance for 
the tiger's status remains tenuous and fragile. It is both an urgent 
and hopeful forecast to predict that the continued investment and 
stability of the Save The Tiger Fund and other similar efforts will be 
critical to ensuring a future for the tiger and its many human 
neighbors. It is a measure of the STF's success that the present has 
been secured for this majestic species. And it is the Foundation's 
belief that this unique partnership provides a genuine opportunity to 
create a sustainable future for wild tigers and their landscapes.

                           A MODEL OF SUCCESS

    In six years, the Save The Tiger Fund has invested more than $8.3 
million in 142 projects throughout 12 of the 14 tiger range states. The 
STF has taken a multi-layered approach to tiger conservation, providing 
flexible grants to tackle the diverse problems of multiple cultures and 
regions throughout the tiger's range. These grants have ranged from 
health clinics in rural Indian villages and educational programs for 
schoolchildren in China, to anti-poaching teams in Thailand and habitat 
acquisitions in Russia.
    The largest amount of STF funding--more than $3.3 million--has gone 
to field study and management projects. The Save The Tiger Fund has 
directed $1.3 million to 31 projects supporting anti-poaching, conflict 
resolution and tiger trade reduction. More than $2.1 million has gone 
to conservation education and $773,000 has been earmarked for habitat 
restoration and protection to date. By region, STF funding has been 
split nearly evenly between the Indian subcontinent, at $1.85 million, 
and the Russian Far East, at $1.71 million. STF projects in Southeast 
Asia have topped $1.3 million; in Sumatra, nearly $870,000.
    But conservation success does not merely reside in tabulations of 
numbers and project listings. Rather it lies in the thoughtful and 
cooperative efforts behind them. The Save The Tiger Fund's investments, 
along with the vision and commitment behind them, reinvigorated the 
tiger conservation community at a time of great crisis, when some were 
tempted to give up. It also helped to vitalize tiger conservation by 
focusing on the human side of the equation. For 25 years, 
conservationists tried to save tigers by keeping people and tigers 
apart. Thoughtful, diversified investments by the STF have assisted 
conservationists as they devise ways to keep people and tigers 
together, so both prosper in the future Asian landscape. The STF has 
drawn upon its Council members, ExxonMobil, and numerous conservation 
organizations and individuals to develop a program that:
    1. Increases the impact and availability of funding for priority 
tiger projects.
    2. Invests in a diversified and sustained conservation portfolio.
    3. Forges partnerships to create new breadth and depth in tiger 
conservation.
    4. Addresses the root of tiger conservation problems.
    5. Tolerates risk and remains flexible to accommodate new 
opportunities.
    6. Invests in conservation leadership throughout tiger range.
    7. Lays the groundwork for future tiger conservation.
    This report examines each of these attributes to appraise the 
activities of the Save The Tiger Fund, ascertain the conservation 
impact of its actions, and glean the lessons learned for future 
activities.
    1. Increase Funding Impact and Availability.
    ``We believe that [partnerships] provide opportunities for creative 
solutions to a wide range of conservation and environmental challenges. 
Exxon is committed to tiger conservation--helping to save a legendary 
beast.'' Lee Raymond, Chairman, ExxonMobil Corporation
    Today, according to a study by the Zoological Society of London 
(Christie 2000,) the STF provided more than 28 percent of all tiger 
conservation funding worldwide in the past two years. ExxonMobil's 
initial $5 million pledge in 1995 has grown to a $9 million pledge 
through 2002. To date, ExxonMobil has contributed more than $8.2 
million to the Save The Tiger Fund. This commitment permeates the 
corporation's worldwide operations, from corporate headquarters to 
Asian subsidiaries to local service stations, to employee volunteers.
    Through collaborative efforts between the Foundation and 
ExxonMobil, the STF has offered an unprecedented opportunity for public 
and private sectors to participate directly in a global effort to save 
wild tigers, raising snore than $1.4 million to date. Special marketing 
promotions and targeted international contributions from ExxonMobil 
marketing efforts and international Esso operations have attracted more 
than $600,000. ExxonMobil employees have volunteered their time and 
energy for STF events and activities. Walt Disney, the Discovery 
Channel, and other private corporations, foundations and organizations 
have donated more than $200,000. Some 15,000 individual donations have 
been made to the STF, totaling more than $580,000. These gifts have 
ranged from a $68,000 anonymous donation from Switzerland, to $400 
raised by an elementary school bake sale in New Jersey, to a $20 check 
sent by an elderly woman from Wisconsin, who accompanied her 
contribution with a hand-written elegy to the tiger. Boyfriends have 
honored their sweethearts with contributions, office colleagues have 
donated in the name of a hard-to-buy-for boss, and children have sent 
poems and crayon drawings with their dollars.
    Twice yearly ExxonMobil distributes 150,000 copies of its Tiger 
Watch newsletter to teachers, students, shareholders and other tiger 
fans throughout the world. The response can be poignant and heartening. 
Nine-year-old Nicole Gaither of Southlake, Texas just completed her 
third annual book sale. Using her own tiger-striped flier to urge 
residents to donate books, Nicole has raised more than $1,800 so far 
for tigers. Sixth-grade students in Gulf Stream, Florida, raised $102 
for the STF with a raffle and meatball sale. In Phoenix, Arizona, 
elementary school students sold pickles for 50 cents each, raising 
another $153 for the Save The Tiger Fund.
    The Save The Tiger Fund has become a catalyst for tiger fund-
raising both directly and indirectly. Donations to the Russian Far East 
increased as a result of publicity arising from the 1998 Year of the 
Tiger Conference, sponsored by the STF and ExxonMobil (Christie 2000.) 
Internationally renowned entertainers, Siegfried & Roy, have joined the 
STF in promoting tiger conservation. And tiger mascots are helping real 
tigers through the alumni and students of the University of Missouri. 
Finally, the Foundation's historical involvement in leveraging legal 
settlement funds for conservation has resulted in the payment of 
restitution funds from a Federal investigation into tiger trafficking 
to the STF to enable and promote high priority tiger conservation.
    In addition to raising funds and grant making, the Save The Tiger 
Fund is committed to accountability. Conscious of a longstanding 
criticism that large sums of money are raised on the back of the tiger 
without ever making it to the ground for tangible conservation efforts, 
the National Fish and Wildlife Foundation takes a 10-percent management 
fee while investing all remaining contributed funds and accrued 
interest straight into projects. STF accounts are audited as part of 
the Foundation's annual audit.
    2. Diverse and Sustained Conservation Investments.
    The Russian Far East provides an excellent example of the Save The 
Tiger Fund's return on investment and its lasting conservation impact. 
It is a case study of the diverse and effective conservation efforts 
the STF is facilitating throughout tiger range. First, a few statistics 
to set the tiger conservation stage:
        1. In the period 1990-1993, it is estimated that poachers 
        killed one-third of Russia's remaining tigers. Just 200 to 250 
        tigers existed in 1994. Poachers were killing tigers at a rate 
        of 50 to 75 a year. Simple math added up to tiger extinction by 
        the year 2000.
        2. Although Russian biologists were sounding the alarm, 
        conservation groups were finding it nearly impossible to gain 
        traction on the ground and maneuver through the political 
        thicket of the turf wars raging among politicians and 
        conservationists alike.
    In 1991, the Foundation and Exxon began supporting Amur tiger 
studies conducted by Hornocker Wildlife Institute (now part of the 
Wildlife Conservation Society) in the Russian Far East. But as tiger 
poaching escalated, scientists working in Russia confronted the horror 
of seeing their study tigers killed almost in front of their eyes. If 
they were ever to learn about tiger ecology, they would have to address 
the complicated issue of demand for tiger parts. With the creation of 
the Save The Tiger Fund, the investments in the Amur region increased 
and gained greater focus.
    The STF continued its support of the Hornocker Institute, believing 
they had the strongest connections with Russian scientists and the most 
experience tracking and monitoring tigers. In addition, the Save The 
Tiger Fund branched out, awarding a grant to a relatively obscure 
operative in the conservation community, Steve Galster, of Global 
Survival Network (now Wi1dAid) who had managed to gain local buy-in for 
aggressive anti-poaching teams. The STF also invested dollars for land 
acquisition, expanding the boundaries of Sikhote-Alin Reserve, at the 
core of prime tiger habitat in the region. The STF further supported 
Russian-based community outreach programs and publications such as Zov 
Taigi, which targeted educational programs to school children and 
forest communities most affected by tigers. The STF underwrote its 
grantees to reach out and cultivate local leadership and build local 
capacity as an integral part of project design. Finally, the STF worked 
to encourage partnerships between all of these groups and the people 
and governments they worked with.
    In all, the Save The Tiger Fund has targeted more than $1.71 
million in six years to the Russian Far East, making STF the region's 
second largest investor in tiger conservation (second only to WWF/GEF.) 
Central to this support was the conscious effort to diversify grant 
commitments, attempting to pinpoint what Council Chairman John 
Seidensticker labels as the ``Four C's``--carnivores, connections, core 
habitats, and community support. Absent diligent and adaptive attention 
to each of these critical components, conservation efforts in the 
Russian Far East and elsewhere are ultimately doomed to failure.
    As a result of these ongoing investments, STF's Russian Far East 
portfolio in 2001 includes:
        1. Support for the Hornocker Wildlife Institute/WCS for 
        undertaking solid, biology-based conservation projects. The 
        work has broadened to include an intimate working relationship 
        with the dozen preeminent Russian biologists in the region. 
        Collectively, these scientists have one of the most 
        comprehensive understandings of tiger behavior in all of the 
        tiger range.
        2. Operation Amba--the Russian anti-poaching teams--succeeded 
        beyond anyone's expectations, convincing former poachers to 
        cross the line to work for the good guys, protecting tigers 
        from the guns, snares and poisons of other poachers. Tiger 
        poaching plummeted by 60 percent, and many credit Operation 
        Amba with saving the Amur tiger from extinction. Understanding 
        the price for complacency, Operation Amba and it partners 
        recently stepped up patrols and arrested an aggressive poaching 
        ring in an undercover sting operation. WildAid is working to 
        expand the Operation Amba model to create new anti-poaching 
        projects in Cambodia and Thailand with the Save The Tiger 
        Fund's support.
        3. Carrying the investment formula to its logical conclusion, 
        Dale Miquelle of Hornocker/WCS worked with Steve Galster of 
        WildAid to help the anti-poaching teams set up their own local 
        organization, the Phoenix Fund, and transfer the anti-poaching 
        project into the hands of Russians. The Save The Tiger Fund 
        continues to support the Phoenix Fund and is working to help 
        them expand their own fund-raising capabilities as they move 
        toward becoming a self-sustaining, locally driven program that 
        won't go away when the foreigners do. In the years since the 
        launch of the STF, the dollar investment in Russian tiger 
        conservation has grown steadily. More importantly, the growth 
        in investments in Russian agencies and local leadership has 
        accelerated as well.
        4. Zov Taigi is now considered the authoritative source of 
        environmental news for the Russian Far East. They have 
        sponsored photo and art contests, produced public service 
        announcements, and generated a twice-monthly, 20-minute TV 
        series that reaches 50,000 viewers. The group has translated 
        some 100 tiger articles into Russian and English, making them 
        available in government archives as well as on their 
        sophisticated web site. The local efforts of this group to 
        educate Russian forest communities and reduce human/tiger 
        conflicts have touched thousands of rural schoolchildren in 
        tiger range villages. Entire communities draw together each 
        year to celebrate the tiger in events such as a Tiger Day 
        parade in Vladivostok.
    Today the wild tiger population of the Russian Far East holds 
steady at 400-plus animals. Official Russian Federation customs data 
show that the volume of illegal contraband produced for the Chinese 
market (tiger skins, bones and derivatives) has decreased dramatically. 
The Russian Federation special forces anti-poaching team claims that 
tiger poaching has been reduced by more than 60 percent. And regional 
law enforcement data reveals that the number of people killed in direct 
confrontation with tigers has dropped significantly. Presently, the 
tiger population in the Russian Far East is considered the most stable 
in the world.
    ``Much of our work would simply not be possible without the support 
of Save The Tiger Fund,'' says Dale Miquelle, a Russia-based biologist 
with WCS. ``The Fund has been a guiding force in tiger conservation at 
a critical juncture in the worldwide conservation movement. In 
providing support for tiger conservation, the Fund has become a key 
player in the overall conservation of Asia's biodiversity.''
    3. Forging partnerships to create breadth and depth.
    Partnerships are a central tenet of the Foundation and the Save The 
Tiger Fund. The Foundation has more than 12 years of solid, 
quantifiable experience working with more than 1,200 local, state, and 
Federal organizations and agencies on the national and international 
level. The Foundation has involved universities, industry, 
philanthropies and individuals in conservation partnerships. This 
cooperative approach to conservation is a central feature of the STF. 
The Save The Tiger Fund is committed to bringing conservation interests 
to the table to collaborate and create an unprecedented impetus for 
tiger conservation.
    With a $5 million commitment from Exxon in 1995, the Foundation and 
the Council surveyed the tiger problem and were astonished to find that 
no assessment of tiger populations and habitats existed under a single 
cover. Assuming sound tiger conservation must be based on good 
information, how could the STF hope to fund priority tiger conservation 
if no analysis of needs existed? At the request of the Save The Tiger 
Fund, WWF and WCS agreed to jointly produce the first-ever, range-wide 
assessment that mapped habitat, tiger occupancy, spatial relationships, 
and threats. Published in 1997, A Framework for Identifying High 
Priority Areas and Actions for Conservation of Tigers in the Wild was 
grounded in two strengths: good science and collaboration.
    ``It was a religious experience, seeing those maps for the first 
time,'' recalls Council Chairman John Seidensticker, ``here was the big 
picture, spread out before us, leading us into the future.'' For the 
first time, tiger researchers around the world had a reference, a 
catechism, on which to analyze the opportunities and barriers for the 
future of wild tigers.
    The STF has played a central role in fostering the sharing of 
information--beginning with a 1997 Zoological Society of London tiger 
conference and continuing with the Year of the Tiger Conference held in 
1998. Following on the heels of the London gathering, John 
Seidensticker, Peter Jackson and Sarah Christie worked for a full year 
to synthesize the proceedings into a coherent vision that translated 
the many different languages used in tiger conservation into one--the 
language of conservation biology. Riding the Tiger, published in 1999, 
has become the central primer for tiger conservation. Taking advantage 
of the momentum from 1997 and the timing of the Chinese calendar, the 
Year of the Tiger Conference in 1998 marked the largest meeting of 
tiger conservationists ever assembled. Representatives from 13 of the 
14 tiger range countries participated, along with their colleagues from 
the United States, Canada and Europe. For the first time, conservation 
groups with an interest in saving tigers came to a consensus on a 
vision for a realistic future for wild tigers. Securing a Future for 
the World's Wild Tigers was published in 2000 as a summary of the Year 
of the Tiger Conference's findings.
    Conservation planning did not end with the hosting of two major 
meetings but has returned home to tiger range. Countries previously 
wrought with political, economic, and social strife have begun to 
realize the significance of the tiger and its role in biologically 
diverse ecosystems. Many of the developing nations in tiger range are 
eager to get involved with this prized natural resource and have 
solicited guidance and support from experienced organizations in this 
field. The STF has consistently supported tiger action planning from 
the national level in countries such as Myanmar and Burma to more 
regionally specific plans for areas such as national parks.
    The partnerships of the Save The Tiger Fund have expanded well 
beyond the scientific community. A partnership with the Minnesota Zoo 
offers one-stop tiger information geared to young and old alike through 
the worldwide web. The 5Tigers.org web site attracted more than 4 
million ``hits'' per month by the end of the year 2000, or an average 
of 20,000 page views per day. Among other accolades, the web site was 
named a five-star site by the Electric Schoolhouse Digital Library; and 
the Education Index, a guide to the best educational Internet sites, 
named it ``an outstanding educational resource.''
    In 1996, National Geographic World magazine joined ExxonMobil and 
the STF to sponsor a Save The Tiger poster contest that drew an 
impressive 3,100 entries. ``Kids love cats,'' said World magazine's 
Eleanor Shanahan. ``And they love to help endangered species.'' Another 
joint project with National Geographic produced Habitats: Realm of the 
Tiger, a comprehensive teaching kit for middle school teachers that has 
reached at least 6,500 classrooms in the United States and the 
thousands of students in them.
    The Save The Tiger Fund has touched untold other tiger lovers 
through the Smithsonian National Zoo ``Great Cats!'' exhibit, a 
traveling American Zoo and Aquarium Association exhibit, exhibits at 
Disney's Epcot Center and the Smithsonian's Museum of Natural History, 
and in special Zoo Day events in such cities as Houston, Baton Rouge, 
Philadelphia, New York, Memphis, Philadelphia and Las Vegas.
    The educational outreach and innovative partnerships also touch the 
upper rungs of academia. In February 2001, the University of Missouri 
joined the Save The Tiger Fund to create a model tiger-mascot program 
aimed at reaching the 68 U.S. colleges and universities that carry the 
tiger banner over their athletic programs. This is the first-ever 
sustained effort by an university to put money and educational efforts 
from a tiger-mascot program directly into on-the-ground tiger 
conservation. ``We want there to be wild tigers as long as there are 
Mizzou Tigers,'' says Chancellor Richard Wallace of the University of 
Missouri. He adds that the STF ``brings great credibility to the table, 
years of commitment and expertise, established and respected 
relationships in tiger-range countries, the potential for greater 
leverage of our own resources, and a passion for conservation that we 
want to pass on to our students.''
    In 1998, the famed illusionists, Siegfried & Roy joined the STF in 
its conservation mission. Siegfried & Roy are using their signature 
white tigers and popular Las Vegas act to serve as Ambassadors for 
their wild relatives in Asia. Siegfried & Roy worked with ExxonMobil to 
produce a commercial for the Save The Tiger Fund, which ExxonMobil 
placed in strategic markets as part of its national advertising budget. 
``We strongly believe that we must do everything we can to help save 
tigers in the wild,'' said Roy. ``As powerful as tigers are, they need 
our help. It would be a tragedy if this magnificent creature were to 
vanish from the earth.''
    The outreach of such high profile partnerships has been 
significant. Following the announcement of the Save The Tiger Fund 
partnership with Siegfried & Roy in May, 1999, the ensuing media 
campaign reached an international audience of well over 70 million. 
Over the past six years, reports on the work of the STF have been 
featured by Parade Magazine, Life Magazine, the New York Times, the 
Baltimore Sun, the Kansas City Star, CNN, the Today Show, Discovery 
Channel, network radio and television, as well as a special PBS 
production of ``The Visionaries.'' Overall, extensive national and 
international media coverage of the Save The Tiger Fund has reached 
populations throughout the U.S., Russia, Western Europe, Asia, 
Australia and China.
    In the business community, the Save The Tiger Fund has become 
emblematic of corporate environmental stewardship, leadership and 
responsibility. In a recent article on corporate philanthropic giving, 
Worth magazine held up the Save The Tiger Fund as a notable example of 
ExxonMobil's charitable efforts. The results-driven and accountable 
work of the STF has built a solid reservoir of good will and created 
the capacity to expand this public/private partnership to higher levels 
of international visibility. Observes Ed Ahnert, President of 
ExxonMobil Foundation: ``The Foundation provides a forum where 
business, government and non-profit organizations can work together 
harmoniously on conservation projects. By acknowledging that human 
activity and preservation of the environment have to co-exist, it 
operates in an area of shared values and on strong middle ground.''

    4. Addressing the roots of tiger conservation problems.
    An abiding belief in a tiger's power to protect and cure is as 
ancient as Asia itself. Often revered as gods, tigers occupy a central 
place in the myth and medicine of traditional Asian culture. Images of 
tigers guard homes and temples from evil while tiger parts, when eaten, 
applied, or worn, are believed to treat ailments, confer courage, and 
even immunize against snakebite and bullets. But wild tigers and 
stockpiles of tiger bones have been largely depleted in the past two 
decades. If the demand continues, so will the tiger poaching. To reach 
the goal of making live tigers worth more than the sum of their parts, 
the Save The Tiger Fund has supported efforts to reduce demand for 
tiger parts and to curtail trafficking.
    Responding to this critical issue, the Save The Tiger Fund 
supported groundbreaking work by WWF and TRAFFIC resulting in the 
report, Far From a Cure: The Tiger Trade Revisited (Nowell 2000,) which 
completed an earlier look at this black market by Council Member Peter 
Jackson and WWF's Judy Mills. Their analysis is the backbone of ongoing 
tiger trafficking work aimed at arresting the growth of tiger bone 
consumers from Shanghai to New York and San Francisco to Toronto. ``The 
Fund had the foresight to fund these efforts well before they were 
embraced by the conservation community as a whole, and significant 
progress continues as a result,'' says Ginette Hemley, vice president 
for species conservation at WWF.
    The following are examples of ongoing projects supported by the STF 
directed at trade:
        1. Support for WWF's and TRAFFIC's work with the Traditional 
        Chinese Medicine community to educate practitioners and endorse 
        medical substitutes for tiger derivatives. The approach--
        concern tempered with respect for traditional Asian cultural 
        practices--has made the first serious inroads to staunching the 
        medicinal demand for tiger parts.
        2. In China and other southeast Asian markets, Wi1dAid is using 
        support from the STF to target the region's general population 
        through popular media. They have enlisted the backing of such 
        Asian luminaries as Jackie Chan to produce commercials and 
        public service announcements that reach millions through 
        programming on the Discovery Channel and popular Asian 
        television networks.
        3. In the United States, recent investigations have uncovered a 
        sizable market for tiger pelts and other parts fueled by a 
        variety of market forces including unscrupulous trophy hunters 
        and the ongoing demand for traditional Asian medicine with 
        tiger derivatives. (FWS, personal communication.) Court-ordered 
        restitution funds will be directed by the STF Council in 
        support of trade-related projects.
    Another issue at the root of tiger conservation is the simple need 
to build recognition of tiger conservation issues in politically 
sensitive regions. Conservationists face stiff challenges when working 
with countries whose past and present political instability deeply 
cloud the ability to focus on tiger conservation. Be it Russia, 
Myannmar or Indonesia, the STF targets grants to support a wide range 
of tiger research and conservation efforts in these countries, focusing 
on building stability and capacity from within.
    In Sumatra, for example, a tiger team fielded by Flora and Fauna 
International is working day-to-day in a land riddled with the dangers 
of disease, isolation, poachers and the difficulties of mediating the 
often-deadly results of conflicts between villagers and neighboring 
tigers. Even so, conservationists are hopeful about the tiger's future. 
In the words of Margaret Kinnaird and Tim O'Brien, WCS biologists who 
are working with STF support in Sumatra; ``without grants from the Save 
The Tiger Fund, we would have been unable to accomplish our research on 
Sumatran tigers in the Bukit Barisan Selatan National Park. Before we 
started our work, the government did not believe the park was an 
important conservation area for tigers and other wildlife. Now we 
believe it may harbor some of the largest remaining populations of 
tigers, rhino and elephant in Sumatra. STF provides significant and 
very flexible grants that allow us to put young Indonesians into the 
field, provide on-the-job training and in doing so, boost capacity and 
build professionalism.''
    The Save The Tiger Fund continues to expand into new territory, 
making its first grant in Vietnam in 2000. The Bach Ma National Park 
will monitor tiger and prey density and movement within the Park and 
its buffer areas to get a better reading of species decline. Political 
strife and unchecked poaching in Vietnam has made it difficult for many 
conservation groups to work in the tiger's habitat. Until 2000, the 
capacity and infrastructure to manage such a project just was not 
there. A similar situation persists in Bangladesh, where tigers are 
being lost to poaching at alarming rates and human-tiger conflicts are 
quite frequent. The Sunderbans, which straddles the border between 
India and Bangladesh, represents the last remaining mangrove forest 
ecosystem in all of tiger range. This area is of international 
importance for tiger conservation and the STF awarded its first grant 
to a collaborative Sunderbans tiger conservation project in 2001.
    5. Flexibility to accommodate risk and innovation.
    The Save The Tiger Fund Council has made it clear that the STF 
needs to include grants to the unknown and the untested in its 
portfolio. Like the Foundation's Board of Directors, the Council has 
stressed a willingness to consider small and non-traditional grants 
because a project's conservation value is unrelated to its price, and 
the line between innovation and speculation is often indiscernible at 
first glance.
    For example, in 1998, the STF took a chance on a young Indian 
graduate student who wanted to work in a largely unstudied tiger 
reserve in central India. Harsha Reddy took the first photographs of 
wild tigers in the area and undertook the challenging, and often 
frustrating, task of working with local villagers who lost livestock to 
tiger kills. Today, Reddy is a graduate student at Harvard Medical 
School who hopes to go back to India as a doctor and continue the fight 
to save wild tigers. ``Please know how much the STF has affected me. 
Those two years in India were the most rich experiences of my life,'' 
writes Reddy. ``The contribution I could make at the time was sincere 
but small. However, the motivation to continue the good work is still 
very much alive within me. I strive to repay the trust the Save The 
Tiger Fund put in me by staying active in the tiger cause.''
    Asia holds a number of areas that appear to be suitable habitat for 
tigers but the requisite research has not been conducted. A look at the 
WWF/WCS Assessment map suggests that the northern tier of Myanmar 
should be a key area for tigers. With the Save The Tiger Fund's 
support, WCS was able to successfully make inroads into the political 
quagmire of Myanmar in order to conduct a serious appraisal of the 
status of tigers. Sadly the survey results suggest that there are few 
or no tigers left in these rich habitats of former Burma. The 
knowledge, however disappointing, is vital and similar scientific 
assessments of the baseline biological data are invaluable to 
conservationists as they set priorities for future conservation 
investments.
    Camera trapping techniques have greatly enhanced census work in 
India and Southeast Asia. But this technique is not as useful in the 
Russian Far East where the tiger's territory is too vast to be covered 
by camera traps. The potential of training dogs to find scats and 
identify individual tiger scents as a method for tiger census has been 
proposed for STF funding. It is an unproven technique for tigers, but 
the Foundation has previous experience with similar methods used 
successfully for large carnivores in the U.S. Rather than turn down the 
proposal, the STF is working with the Russian scent-dog researchers to 
more fully develop the technique and have it peer-reviewed.
    6. Building local leadership and capacity.
    Tiger Wallahs is a term of respect for the tiger men who have 
devoted their lives over the past century to the struggle to save the 
tiger from extinction. ``They all share certain qualities--courage, 
independence and territoriality among them -and all of them are as 
remarkable in their way as the magnificent animals for whose survival 
they have risked, and sometimes lost, everything,'' says noted author 
Geoffrey Ward (Ward 1993.) The Save The Tiger Fund is fortunate to have 
benefited from the advice and counsel of several Tiger Wallahs who sit 
on its Council and serve as its advisors. From the start they have 
emphasized the need to build local capacity and train the next 
generation of young men and women to carry on the future of tiger 
conservation.
    Along the Terai Arc, a fragmented strip of forest and tall 
grasslands strung between the base of the Himalayas and the densely 
populated Ganges Plain, the King Mahendra Trust for Nature Conservation 
in Nepal has successfully engaged local communities in conservation and 
environmental stewardship. Council member Hemanta Mishra was the 
visionary who saw that without the support of local people all would be 
lost. He was founding secretary of the Mahendra Trust, which focuses on 
making conservation a way to improve human life in the Chitwan Valley 
and throughout Nepal.
    In Cambodia, where years of border wars have created a hostile, 
nearly impenetrable terrain, researchers have made their way into its 
trans-boundary forests and found evidence of a robust tiger population 
as well as a rich diversity of other flora and fauna. A small grant 
from the STF allowed Cambodian university students like Sun Hean to get 
involved in the early exploration, leading to their current roles as 
conservation leaders who are making a difference for tigers in what is 
fast becoming a key conservation area known for its unique 
biodiversity. STF support in Cambodian conservation projects also has 
fostered collaborative partnerships between researchers, 
conservationists, local citizen and Cambodian officials in an area that 
continues to suffer from a lack of political and social support for 
conservation.
    In Malaysia, the STF is actively working to increase the capacity 
of the wildlife department and improve the agency's ability to plan and 
implement tiger conservation activities. STF Council member Mohammed 
Khan has long been a recognized leader of Malaysian conservation. He 
has helped the Save The Tiger Fund to understand the importance of 
supporting leaders and building capacity in Malaysia. Similar 
leadership is found in neighboring Indonesia where STF supports three 
different groups on the ground. As one of Indonesia's foremost 
conservation leaders, Council member Effendy Sumardja understands 
first-hand the crucial importance of building capacity and investing in 
people.
    For several years now, the Save The Tiger Fund has supported a 
small, community-based project outside the famed Ranthambhore National 
Park in India. Some 200,000 people live in the 74 villages that lie 
within a three-mile radius of the park. The ``buffer zone'' that once 
separated park and people is mostly gone. The Prakratik Society is 
engaging local villagers in tiger conservation through a health clinic, 
reforestation projects and other community outreach. Dr. Goverdhan 
Singh Rathore, an earnest young Indian who leads the Prakratik Society, 
has this to say of their work: ``We're like missionaries. We cure 
people and convert them.''
    Rathore's religion is tigers, trees, and the Park. He exhorts his 
grateful patients to report tiger poachers, to plant trees, and to 
practice family planning to ease population growth around the park. Dr. 
Rathore is an evangelist for tree plantations and there is at least one 
plantation in each of the 40 villages he works in. But it's been an 
uphill battle over more than six years to achieve this. It's difficult 
to persuade people to plant trees that take several years to yield fuel 
or fodder when both are available today in the park. ``You have to 
change a mind set,'' he says with more than a hint that he's prepared 
to do just that.
    These and other Tiger Wallahs are at the very root of the STF's 
efforts; their selfless and voluntary contributions are at the heart of 
the Save The Tiger Fund's success to date. The Foundation also 
recognizes all its Council members for their invaluable contributions 
to the shaping and operation of the STF.
    7. Laying groundwork for future conservation.
    The Save The Tiger Fund has identified geographic areas with the 
potential to serve as prototypes for community-based conservation 
programs with direct benefits for tiger conservation. ``The bottom line 
is not about saving the world, but about how we can fit into this world 
more fully with our fellow species intact,'' explains Council Chairman 
John Seidensticker. ``The Save The Tiger Fund is committed to making 
tigers star in efforts to implement actions that enable people to live 
in balance with natural resources.''
    One such model project is Nepal's Royal Chitwan National Park, 
which anchors the western end of a 1,000-mile-long green ribbon of 
forest and tall grassland stretched along the base of the outer ranges 
of the Himalayas. The Terai is not only excellent tiger habitat, but is 
also home to leopards, sloth bears, Asian elephants, greater one-horned 
rhinoceros and sambar, to name a few. But in the last half-century, 
people have cut through the ribbon and frayed the Terai's edges to meet 
needs for land, food, fuel, and fodder. Fortunately, the damage is not 
complete or irrevocable--the beads remain and can be polished. 
Investing in the Terai and tiger conservation is one of STF's highest 
priorities.
    Once a royal hunting reserve, Chitwan was established as a national 
park in 1973 to protect the tigers, rhinos, and other species that were 
rapidly declining as people in search of new land replaced and degraded 
the habitat. The study and monitoring of tigers and other species began 
immediately, with the Nepal-Smithsonian Tiger Ecology Project and has 
continued without interruption to this day. The park is renowned as a 
tourist destination, attracting more visitors than any other park in 
Asia. Early on, park leaders also recognized the importance of local 
support and permitted villagers to collect thatch grass, essential for 
roofing their homes, in the park. This helped to reduce resentment at 
the loss of access to other natural resources.
    Still, problems remained. As the local population grew, the 
protected area became the only source of firewood for many local 
people, and the temptation to graze cattle there was great. The 
poaching crisis affected Chitwan, peaking in 1992, with poachers taking 
both tigers and rhinos in large numbers. Except for thatch grass, 
villagers were receiving little benefit from the park; for instance, 
only a small fraction of the income from tourism found its way to the 
local populace. And, like parks throughout Asia, Chitwan is too small. 
If tigers were to survive in Nepal, people would have to make room for 
them outside of protected areas.
    Today, Chitwan National Park is emerging as a positive feature in 
the local landscape, tiger and rhino numbers are increasing, and new 
forest habitat is being added at the edge of the park. Local people are 
becoming guardians of wildlife and wildlife habitat. For the first 
time, economic incentives have given villagers a direct stake in the 
park. New legislation dictates that a third to a half of all revenues 
earned from park entrance fees be returned to villages in the 
surrounding buffer zone to use for community development, such as 
building schools and clinics. Equally important are events in the 
buffer zone itself, where nearly 300,000 poor people live in 36 
villages still largely dependent on forest for firewood and fodder. 
After years of destroying the tiger's habitat, people are now creating 
and managing it. A large, hand-painted sign set in the middle of a 
newly planted community forest area called Chitrasen credits the 
organizations involved in this ground-breaking habitat restoration 
effort, widely considered the most successful community conservation 
program in Asia. Prominent among these names is the Save The Tiger 
Fund.
    As the community forestry project expands to additional parts of 
the buffer zone, another challenge is to create habitat links between 
the restored forest plots and other forest blocks in the buffer zone so 
tigers can move through the larger landscape. The STF is also 
supporting surveys in other parts of Nepal to find additional places 
where tiger habitat can be restored with local participation. Finally, 
conservationists from other parts of the tiger's range are viewing the 
Chitwan experience firsthand to see how they can apply this model to 
their own particular circumstances.
    A second model conservation example lies amidst the moist tropical 
forest of southwest India. The Western Ghats forest complex rivals 
Chitwan for the title of world's best tiger habitat and is home to a 
similar richness of wildlife. Covering more than 9,000 square miles 
(24,000 square kilometers,) the conservation landscape includes several 
protected areas, including Nagarahole National Park and Bhadra Wildlife 
Sanctuary. Led by Dr. Ullas Karnath of the Wildlife Conservation 
Society, the Karnataka Tiger Conservation Project works in these areas 
in another Indian subcontinent initiative supported in part by the Save 
The Tiger Fund for the past three years. The Karnataka Tiger 
Conservation Project promotes community interest in tiger conservation 
through education programs for local students, teachers, and interested 
adults. It further focuses on anti-poaching efforts, including 
training, providing park protection staff with jeeps for patrolling, 
and provisioning front-line forest guards with insurance and new 
uniforms. These sorts of benefits, which Americans and Europeans take 
for granted, help to improve morale of men whose jobs are dangerous and 
often lonely.
    As is the case almost everywhere in Asia, people ring these 
protected areas, and many people actually live within them. About 7,500 
landless people live inside the boundaries of the 644 square kilometer 
Nagarahole National Park, for instance, where they lack schools, health 
care, and other basics. To meet the needs of these people for a better 
life, the Karnataka Tiger Conservation Project is assisting in the 
voluntary resettlement of 51 families to land outside of the park. If 
this resettlement goes as expected, many more families will join the 
exodus from Nagarahole setting an example for others on the benefits of 
thoughtful resettlement.
    Dr. Karanth also leads efforts to rigorously monitor the numbers of 
tigers and prey species in his study sites so progress can be measured. 
Karanth believes that ``without applying good science it is impossible 
to evaluate whether the efforts to reverse the tiger's decline are 
succeeding or failing.'' A unique feature of the Karnataka project is 
that it is staffed almost entirely by volunteers. ``What it takes is a 
number of committed people. And that can't be bought with money,'' says 
Kararnth. ``Tigers aren't going to be saved if local people aren't 
involved.''

                          BUILDING ON SUCCESS

    ``Daring ideas are like chessmen moved forward; they may be beaten, 
but they may start a winning game.'' Johann Wolfgang von Goethe
    The Save The Tiger Fund is making a critical difference in the 
plight of the endangered wild tiger. Seven years ago, the headline was 
``Doomed.'' Last year, the New York Times' headline read ``The Tiger. 
Improbably, It Survives.'' Where the Save The Tiger Fund has invested 
intensely, the tiger's population is considered stable today. As the 
STF evolves and grows, .it is positioned to move conservation forward; 
to secure a long-lasting future for tigers. This prophecy will require 
an increased commitment to habitat restoration linked with community 
involvement on landscape levels; sustained anti-poaching efforts; and 
sustained underwriting of capacity building and public education. With 
ExxonMobil's continued leadership, the STF will focus increasingly on 
human infrastructure; entrepreneurial enterprises in tiger ranges; 
leadership, education and training. The future calls for investments in 
people and projects that link tiger conservation to the uplifting of 
rural communities in terms of economy, health and education. The 
results will be well worth the effort. For example, it is optimistic, 
but certainly plausible, to set a goal of a doubled tiger population in 
the Russian Far East and in Nepal over the next 10 years.
    Once predicted as the date of reckoning for the wild tiger, the 
year 2000 has come and gone and the tiger remains. So. too, do the 
forest guards and biologists and communities who are working together 
to make the wild tiger worth more alive than dead; and, equally 
important, working together to make the lives of villagers from India 
to Malaysia to Sumatra to the Russian Far East richer and fuller for 
the presence of tigers. In the words of STF Council member Hemanta 
Mishra: ``We must invest in conservation solutions that bring smiles 
and laughter, not frowns and tears.'' Our efforts to secure the tiger's 
future must be as adaptable as the animal itself. It is tempting to say 
that the battle to save tigers must be fought on many fronts. But 
likening tiger conservation to a battle is to suggest that we can press 
for a victory and send the troops home. Securing a future for wild 
tigers, however, requires pressing to win the short-term skirmishes 
while committing to constant care and vigilance for the long term. If 
tigers survive, it will be because the troops--the people who live with 
tigers and care enough to save them--are at home.

                               REFERENCES

    Christie, S. 2000. The ZSL/WWF Global Tiger Projects Data base- and 
interim report to the WWF Global Tiger Conservation Strategy meeting in 
Anyer, West Java, September 2000. London: Zoological Society of London. 
9 pp.
    Dinerstein, E. et al. 1997. A Framework for Identifying High 
Priority Areas and Actions for the Conservation of Tigers in the Wild. 
Washington, DC, World Wildlife Fund-US with the Wildlife Conservation 
Society. 72 pp +.
    Nowell, K. 2000. Far from a Cure: the Tiger Trade Revisited. 
Cambridge, UK: Traffic International. 100 pp.
    Seidensticker, J, S. Christie, and P. Jackson, eds. 1999. Riding 
the Tiger, tiger conservation in human-dominated landscapes. London: 
Cambridge University Press. 383 pp.
    Tilson, R. 1996. A Tiger White Paper: 1995. Report prepared for 
Save The Tiger Fund, Washington, DC: Save The Tiger Fund, National Fish 
and Wildlife Foundation. 15 pp.
    Tilson, R. P. Nyhus, P. Jackson, H. Quigley, M. Hornocker, J. 
Ginsberg, D. Phemister, N. Sherman, and J. Seidensticker, eds. 2000. 
Securing a Future for the World's Wild Tigers, Executive Summary Year 
of the Tiger Conference. Washington, DC: Save The Tiger Fund, National 
Fish and Wildlife Foundation. 24 pp.
    Ward, Geoffrey C. with Diane Raines Ward. 1993. Tiger-Wallahs: 
encounters with the men who tried to save the greatest of the great 
cats. Harper Collins Publishers, Inc., New York. p. x.
[GRAPHIC] [TIFF OMITTED] T1290.001

[GRAPHIC] [TIFF OMITTED] T1290.002

[GRAPHIC] [TIFF OMITTED] T1290.003

    Mr. Gilchrest. Thank you, Mr. Berry.
    Ms. Steuer?

 STATEMENT OF KAREN STEUER, DIRECTOR, COMMERCIAL EXPLOITATION 
    AND TRADE PROGRAM, INTERNATIONAL FUND FOR ANIMAL WELFARE

    Ms. Steuer. Thank you, Congressman. I am pleased to be here 
with the Committee again, but I have to tell you sitting on 
this side of the dais takes a little bit of getting used to.
    Mr. Gilchrest. Is it more interesting on that side of the 
dais?
    [Laughter.]
    Ms. Steuer. I am pleased to be here today and to offer 
testimony on the reauthorization of these statutes which IFAW 
believes have contributed significantly to the conservation of 
all the species involved.
    But at the risk of being a wet blanket, in answer to the 
Subcommittee's specific question about the future viability of 
these species, we are of the view that all of our efforts, 
including the excellent work being done through the 
international species conservation funds, may not be enough to 
save some elephant populations from crossing over the brink 
into extinction if we can't find better, more effective and 
cooperative ways of supporting the basic communications and 
infrastructure needs of nations whose elephant populations are 
continuing to fall victim to poaching, habitat destruction, and 
conflicts with humans.
    We think that if the Acts could be improved in any way, in 
our view it would be to set top funding priorities for these 
most basic of needs, particularly in Western and Central Africa 
and Southeast Asia.
    Next year, the 152 member nations of the Convention on 
International Trade in Endangered Species are going to meet at 
the 12th Conference of the Parties in Santiago, Chile. Among 
the items on the agenda--and there will be hundreds of items on 
the agenda--will be whether to allow further international 
trade in elephant ivory. Those supporting more trade will focus 
on how many elephants there are in South Africa, Namibia, and 
Botswana, where elephants live primarily or in some of those 
countries entirely on protected and fenced-in lands, and 
admittedly where populations are doing well, as Congressman 
Pombo alluded to earlier, where the populations are healthy and 
growing.
    But this debate and this issue also needs to address the 
desperate need for additional anti-poaching and enforcement 
support in Central and Western Africa, where illusive forest 
elephants living largely outside of protected areas in some of 
Africa's poorest nations may be the most threatened victims of 
illegal ivory trade.
    In countries like the Ivory Coast, Cameroon and Chad where 
IFAW has support projects, funds for wildlife conservation and 
enforcement are so limited that governments are only guessing 
at the number of elephants within their borders, let alone how 
many might fall victim to the illegal ivory trade every year.
    Assisting these countries to communicate and cooperate on 
conservation efforts, we believe, is critical to ensuring the 
future of elephants in Africa. And we believe that the most 
important take-home message of today's hearing should be that 
many of these countries don't have even the most basic computer 
equipment and radio transmitters for their field offices. Yet, 
we are expecting them to report poaching incidents to the CITES 
secretariat on a daily or timely basis.
    They don't have functional four-wheel-drive vehicles most 
of the time, but we are expecting them to find the carcasses of 
illegally killed elephants on a timely basis. They don't have 
sophisticated   x-ray equipment in their airports and we are 
expecting them to find illegal ivory as it leaves the country.
    Now, add to these conditions the sheer volume of wildlife 
trade in a world where 350 million wild plants and animals are 
traded every year, in a market worth $20 billion, 25 percent of 
which is illegal trade. It is the second largest illegal trade 
market in the world, second only to the illegal drug trade in 
terms of value. And without a doubt, it is continuing to have a 
devastating impact on the species we are discussing today.
    For these reasons, we fully support your efforts to ensure 
that each one of these programs receives at least $1 million in 
appropriated funds in the coming fiscal year, and we would 
suggest that when considering top priorities for funding 
support, the Fish and Wildlife Service should consider more 
projects that provide park rangers, CITES authorities, and 
customs officials with basic support. In that regard, we would 
fully support the concept of the language that the Fish and 
Wildlife Service has put forward today.
    Regarding the Rhino-Tiger Act, we would strongly urge that 
more funding be provided for desperately needed law enforcement 
regarding traditional medicine products. In our view, the 
steadily increasing demand for TM products containing powdered 
rhino horn and tiger bone represents the current largest threat 
to these particular species, and it has disastrous results for 
more than 80 species in the world that are currently involved 
in the use of TM.
    According to the World Health Organization, more than 80 
percent of the world's population currently relies on some form 
of traditional medicine for its health care. Yet, there is no 
regulatory mechanism that requires TM products in international 
trade to be labeled according to species.
    In the case of tigers, products may come into this country 
labeled ``Felis'' without identifying whether that means tiger 
bone, leopard bone, or the bones of a house cat. Conversely, 
products labeled ``tiger bone'' may contain no cat products at 
all.
    We would strongly urge the Fish and Wildlife Service to use 
some of the funds in the conservation fund to support our 
efforts to have the CITES parties require all traditional 
medicine in international trade to be labeled with contents by 
species. Not only would this benefit rhinos and tigers, but 
dozens of other species as well, and we think it would be the 
first major step forward in controlling and enforcing the 
mostly illegal use of CITES-listed species in traditional 
medicine.
    I want to thank you for all your efforts on behalf of all 
these funds, and I look forward to working further with you and 
to answering any questions you may have.
    [The prepared statement of Ms. Steuer follows:]

STATEMENT OF KAREN STEUER, DIRECTOR, COMMERCIAL EXPLOITATION AND TRADE 
PROGRAM, INTERNATIONAL FUND FOR ANIMAL WELFARE, ON H.R. 643, H.R. 645, 
                              AND H.R. 700

    My name is Karen Steuer and I am the Director of the Commercial 
Exploitation and Trade Program for the International Fund for Animal 
Welfare (IFAW). IFAW is a non-profit organization with over two million 
supporters around the world. Our global headquarters is in 
Massachusetts, and we have offices in Australia, China, Japan, Russia, 
Germany, France, The Netherlands, the United Kingdom, Canada, Belgium, 
Kenya, South Africa, Mexico, and in Washington.
    IFAW's mission is to work to improve the welfare of wild and 
domestic animals throughout the world by reducing commercial 
exploitation of animals, protecting wildlife habitats, and assisting 
animals in distress. IFAW seeks to motivate the public to prevent 
cruelty to animals and to promote animal welfare and conservation 
policies that advance the well being of both animals and people.
    I am pleased to be here today and to offer testimony on the 
reauthorization of the Asian Elephant Conservation Act; the African 
Elephant Conservation Act; and the Rhinoceros and Tiger Conservation 
Act. The Subcommittee's letter specifically requested our views on the 
impact of the conservation funds; the future viability of the species 
involved; whether the law has encouraged additional international 
conservation efforts; and whether the laws should be amended. Those are 
fair questions, without easy answers.
    IFAW is a strong supporter of both the African and Asian Elephant 
Conservation Acts. I believe we are in a fair position to evaluate 
their effectiveness in that, rather than receive government funding for 
our own elephant conservation programs, we have traditionally assisted 
governments in their conservation needs. None of our funding has come 
from government sources. In addition, we have offices or partner 
organizations in the regions most affected by these statutes, all of 
which are staffed entirely by nationals of the region, including former 
park rangers and law enforcement specialists Do we believe these two 
statutes contribute significantly to elephant conservation and 
encourage additional conservation efforts? Absolutely. IFAW has jointly 
funded several of the projects that were also assisted by the funds 
established under these laws. For example, the African Elephant 
Conservation Fund and IFAW are the two top sources of funding for the 
Cornell University Bioacoustics Research Program of acoustic monitoring 
of forest elephants in the Central African Republic.
    In addition, we have supported or conducted programs that further 
the work or intent of these statutes. While the African Elephant 
Conservation Fund has supported post-war rehabilitation of the 
infrastructure of the Reserve de Faune d'Okapi in the Democratic 
Republic of the Congo, IFAW has supported ranger relief efforts for the 
war-torn Kahuzi-Biega Park, a World Heritage Site in the Congo which 
contains forest elephants, lowland gorillas, and one of the few 
remaining populations of bonobos on the planet.
    In answer to the Subcommittee's question about the future viability 
of these species, IFAW is of the view that all of our efforts, 
including the excellent work done through the international species 
conservation funds, may not be enough to save many wild elephant 
populations from crossing over the brink into extinction if we cannot 
find more effective ways of supporting the basic communications and 
infrastructure needs of nations whose elephant populations continue to 
fall victim to poaching, habitat destruction, and conflicts with 
humans. If the acts could be improved in any way, in our view it would 
be to set top funding priorities for these most basic of needs, 
particularly in Western and Central Africa and Southeast Asia Next 
year, in November of 2002, the 152 member nations of the Convention on 
International Trade in Endangered Species (CITES) will meet at the 12th 
Conference of the Parties in Santiago, Chile. Among the hundreds of 
items on the agenda will be a decision on whether to allow further 
opening of the international trade in elephant ivory. Those supporting 
more trade will focus the debate on how many elephants there are in 
South Africa, Botswana, and Namibia, where elephants live primarily on 
protected fenced lands, and populations appear to be healthy and 
growing.
    But the debate should also focus on how many elephants have managed 
to survive the ravages of civil war in the Democratic Republic of the 
Congo, where both rebel forces and government troops kill them for 
their meat and ivory. It should focus on the rangers throughout Africa 
and Asia who gave their lives in the ivory wars of the 1980's and the 
rangers who continue to lose their lives in gun battles with poachers 
today.
    The debate should address the desperate need for additional 
research, anti-poaching and enforcement support in Central and Western 
Africa, where elusive forest elephants, living largely outside of 
protected areas in some of Africa's poorest nations, may be the most 
threatened victims of the illegal ivory trade. In countries like the 
Ivory Coast, Cameroon, and Chad, funds for wildlife conservation and 
enforcement are so limited that governments are unable to do more than 
guess at the number of elephants that live within their borders, let 
alone be able to accurately estimate how many of those animals may fall 
victim to illegal ivory trade each year.
    Assisting these countries to communicate and to cooperate on 
conservation efforts is critical to ensuring the future of elephants in 
Africa. Through the Game Rangers Association of Africa, IFAW recently 
sponsored 34 delegates from 17 African nations to attend the 
International Ranger Federation Third World Congress held in South 
Africa. One of the most positive outcomes of the conference was an 
agreement among African rangers, the Game Rangers Association, and the 
International Ranger Federation to establish local ranger associations. 
IFAW will be assisting those associations in purchasing computers so 
they can communicate with each other and with the outside world.
    Mr. Chairman, we believe the important take-home message should be 
that many of these countries do not have even the most basic computer 
equipment and radio transmitters for their field offices and ranger 
stations, yet we expect them to report poaching incidents to the CITES 
Secretariat on a timely basis. They do not have functional four-wheel 
drive vehicles much of the time, yet we expect them to find the 
carcasses of illegally killed elephants. They do not have sophisticated 
X-ray equipment in their airports, but we expect them to find ivory 
leaving the country illegally. These are the conditions under which 
these countries must operate.
    Now add to these conditions the sheer volume of wildlife trade in a 
world where 350 million wild animals and plants are bought and sold 
each year. That represents a market worth more than $20 billion. It has 
been estimated that approximately 25 percent of this trade is illegal: 
a black market second only to the illegal drug trade in terms of dollar 
value. Without a doubt, this trade continues to have a devastating 
impact on the species we are discussing today.
    For these reasons, IFAW urges the Members of the Resources 
Committee to work with the Appropriations Committee to ensure that each 
of these programs receives $1 million in appropriated funds in the 
coming fiscal year. And I would suggest that when considering projects 
for funding support, the Fish and Wildlife Service should give top 
priority not to proposals that promote sustainable use, as the Act 
currently states, but to proposals that provide the greatest amount of 
immediate aid to those countries whose elephants are the most 
threatened, and to consider more projects that provide park rangers, 
CITES authorities, and customs officials with support. In the end, the 
survival of many elephant populations in Asia and Africa may depend 
entirely on successful law enforcement.
    In that regard, IFAW would like to continue to work with the Fish 
and Wildlife Service to support worthy projects which the African and 
Asian Elephant Funds are unable to support; to partner with the Service 
to provide the additional funding or logistical support necessary to 
get projects off the ground; and to work with the Fish and Wildlife 
Service, the CITES Secretariat, and other governments to support law 
enforcement, ranger training, and customs training programs. We would 
also urge more support from the Asian Elephant Conservation Fund for 
programs in China, where IFAW is working with the Beijing Normal 
University and local communities surrounding the Cai Yang He Nature 
Reserve to resolve conflicts between human populations and the last 
remaining 200 wild elephants in China.
    Regarding the Rhinoceros and Tiger Conservation Act, we would 
strongly urge that funding be provided not only for onsite conservation 
programs, but for desperately needed law enforcement and consumer 
education efforts regarding traditional medicine products. In our view, 
the steadily increasing demand for traditional medicines (TM) 
containing powdered rhino horn and tiger bone represents the No. 1 
threat to the survival of these species. In addition, the shortage of 
tiger bone for TM has led to a growing demand for powdered bone from 
other wild cats, representing a new threat to other endangered species 
such as the leopard.
    According to the World Health Organization, more than 80 percent of 
the world's population relies on some form of traditional medicine for 
their primary method of health care. This steadily growing global 
market is largely unregulated and unmonitored, with sometimes 
disastrous results for the more than 80 species worldwide that are 
currently used in TM. Some conservationists are now calling traditional 
medicine a leading cause of endangerment, affecting species ranging 
from snakes and tortoises to deer, as well as tigers and rhinos.
    There is currently no regulatory mechanism that requires TM 
products in international trade to be labeled according to species. In 
the case of tigers, products may be labeled as containing Felis without 
identifying whether that means tiger bone, leopard bone, or the bones 
of a common domestic cat. Conversely, products may be labeled as Tiger 
bone and contain no cat products whatsoever.
    This is an issue of concern not only for rhinos and tigers but for 
many other species as well. For example, dried processed TM products 
may be labeled as containing musk without having to identify whether 
the musk is the natural product of the musk deer, or synthetic. Musk 
deer are currently listed on either Appendix I of CITES, which does not 
permit international trade, or on Appendix II, which allows limited 
trade. In recent years, the US and other nations have attempted to 
transfer those musk deer populations currently on Appendix II to 
Appendix I due to growing concerns about the impact of the musk trade 
on deer populations in Russia, Mongolia, and China. To date, those 
efforts have failed in part because we simply cannot account for the 
balance of natural versus synthetic musk in global trade. Accurate 
labeling would help us to achieve that.
    While the 1998 revisions to the Rhino and Tiger Conservation Act 
addressed the problem of enforcement related to products labeled as 
tiger bone, regardless of their actual contents, it did not address the 
problem of products labeled in a more general manner, or not labeled 
with species identification in any way. At the most recent Conference 
of the CITES Parties in Nairobi last April, a document was presented by 
the CITES Secretariat expressing ongoing concerns, which IFAW shares, 
regarding the impact of TM on CITES-listed species. We would therefore 
strongly urge the Fish and Wildlife Service to support our efforts to 
have the CITES Parties require all traditional medicines in 
international trade to be labeled with contents by species, using 
standard scientific names. Not only would this benefit rhinos and 
tigers, but dozens of other species. We believe it would be the first 
major step forward in controlling and enforcing the use of CITES-listed 
species in traditional medicine.
    To further these efforts, IFAW's China office is working with TM 
practitioners in China to find alternatives to the use of threatened 
wildlife species, and our U.K. office recently partnered with the 
British government to support a similar project in the U.K., where TM 
use has increased by 70 percent over the last five years. In the United 
States, TM use has grown by 280 percent in the past decade, making the 
U.S. the second largest user of traditional medicine products in the 
world. Here we have been working with TM suppliers in California to 
create vendor associations or use existing associations that would 
establish certification standards for their products. Those standards 
would include voluntarily submitting their products to the California 
Department of Health, working cooperatively with the inter-agency 
Herbal Task Force, to ensure their products contain no protected 
wildlife species.
    As you know, the Rhino and Tiger Conservation Act contains a 
requirement that efforts be made to educate the public regarding 
alternatives for traditional medicine products. IFAW is currently in 
discussions with the Fish and Wildlife Service to jointly produce an 
educational point-of-sale brochure for consumers discouraging the use 
of wildlife products in traditional medicine. IFAW supports these 
efforts by the Fish and Wildlife Service to work in cooperation with 
the TM communities, and would encourage the continuation of this 
outreach program.
    I wish I could report optimistically on the future viability of 
rhino and tiger populations around the world. But poaching and illegal 
trade continue to take a huge toll on these species. All five species 
of rhinos are listed on Appendix I of CITES, and the International 
Union for the Conservation of Nature lists four of the five as 
critically endangered. The black rhino (Diceros bicornis), estimated to 
number 14,785 animals in 1980, is now down to about 2,800 animals in 
widely scattered populations. The southern white rhino (Ceratotherium 
simum) currently numbers over 8,000, following strong conservation 
efforts by South Africa. The great Indian rhino (Rhinoceros unicornis) 
is holding at 2,000 animals. The two southeast Asian species are in far 
worse shape, with the Sumatran rhino (Dicerorhinus sumatrensis) 
estimated at only 270 animals in 1995, and the Javan rhino (Rhinoceros 
sondaicus) now extinct in most of its former range, and estimated at 75 
animals in 1995. We expect the Javan rhino to become extinct in the 
wild by the time my 7-year-old daughter is old enough to spell 
rhinoceros.
    All five remaining subspecies of tigers are also listed on CITES 
Appendix I. I want to emphasize the word remaining, since three 
subspecies the Caspian tiger, the Javan tiger, and the Bali tiger have 
gone extinct in the last 60 years, and the South China tiger now 
numbers fewer than two dozen animals and is likely to become extinct 
within the next few years. The world's approximately 5,000 remaining 
tigers are subject to poaching and illegal trade throughout their range 
every day.
    As with the two elephant funds, we would like to see increases in 
support for basic infrastructure and law enforcement needs. Russian 
customs officials and park rangers have told us that the broad, largely 
unpatrolled expanse of the border between China and Russia has resulted 
in an ongoing illegal trade of Siberian tiger pelts and bone from 
Russia's Far East into China. We believe that Russia's CITES officials 
and park rangers are certainly willing to conduct better law 
enforcement operations along this border, but lack the necessary 
financial support, basic equipment, or even species identification 
manuals. Much of the support reaching those border guards is currently 
coming from non-governmental organizations, including IFAW. Assistance 
from the Fish and Wildlife Service, either through the Rhino and Tiger 
Conservation Fund, or through other training programs, would be 
extremely helpful in curbing this smuggling.
    In closing, I would like to thank those members of the Committee, 
particularly Chairman Gilchrest and Congressman Saxton, who have been 
so supportive of these statutes over the decade since the African 
Elephant Conservation Fund was first enacted. Your dedication to these 
species and to the many others protected under the U.S. Endangered 
Species Act and its international programs has been a critical factor 
in providing assistance to important conservation efforts around the 
world. I would be happy to answer any questions you or the other 
Committee members may have.
                                 ______
                                 
    [Ms. Steuer's responses to written questions submitted for 
the record follow:]

[GRAPHIC] [TIFF OMITTED] T1290.011

[GRAPHIC] [TIFF OMITTED] T1290.012

[GRAPHIC] [TIFF OMITTED] T1290.013

[GRAPHIC] [TIFF OMITTED] T1290.014

    Mr. Gilchrest. Thank you, Ms. Steuer.
    Dr. Robinson?

STATEMENT OF JOHN ROBINSON, SENIOR VICE PRESIDENT AND DIRECTOR, 
   INTERNATIONAL CONSERVATION, WILDLIFE CONSERVATION SOCIETY

    Dr. Robinson. Thank you, Chairman Gilchrest and members of 
the Subcommittee, for the opportunity to comment on the 
reauthorization of these Acts.
    I am John Robinson, Senior Vice President and Director of 
International Conservation for the Wildlife Conservation 
Society, which was founded in 1895 as the New York Zoological 
Society. WCS conserves wildlife and wild lands throughout the 
world, as well as managing animal collections at the Bronx Zoo 
and other living institutions in the New York area. Given a 
long history of field conservation, with nearly 300 field 
projects in 50 countries throughout the Americas, Asia, and 
Africa, we have a keen interest in all three pieces of 
legislation.
    WCS would like to thank the Subcommittee, Chairman 
Gilchrest and Congressman Saxton, for recognizing the need and 
urgency to provide additional support for wildlife protection 
in lands beyond our borders. Animals like rhinos, elephants and 
tigers are culturally important to us Americans and to people 
around the world, and their conservation is a global priority.
    Unfortunately, there is a need for active conservation of 
these species. All five species of rhino are under siege, with 
estimated populations of 100 for the Javan rhino and somewhere 
around 10,000 for the white rhino, but even there with no 
guarantee of continued survival.
    With the African elephant, the concern is not about 
numbers, but for the potential for decline. The dramatic 
decline in numbers in the 1970's and 1980's was halted by 
vigorous conservation action, including the ivory trade ban, 
but recent increases in hunting for ivory and bush meat 
threaten the stability of these populations.
    With the Asian elephant, the situation is even more severe, 
with less than 50,000 wild Asian elephants remaining, fully 
half of which occur in India. In Vietnam, China, and much of 
Laos and Cambodia, populations have declined to the point of 
near extinction.
    Tiger numbers are at perilously low levels, with a global 
population certainly less than 10,000. India remains a 
stronghold for tigers, and strong U.S. Government support in 
the past has been critical in shoring up those populations. 
Tigers have vanished from most of Indochina and are critically 
threatened throughout Southeast Asia.
    This summary is not to say that these species are 
inevitably declining toward extinction. White and Indian rhino 
are recovering. Many populations of tiger, elephants and 
rhinoceros have stabilized. In the Russian Far East, with 
consistent U.S. Government support, tiger populations have 
stabilized at something under 100 individuals, and there are 
indications of further recovery. These changes have been 
brought about through conservation action, and programs 
supported by the Acts under discussion have been critical.
    The existing grant programs for tigers, rhinos and 
elephants have been enormously successful. Because these 
programs are non-bureaucratically and efficiently run through 
the U.S. Fish and Wildlife Service and provide timely, direct 
financial support and leverage to high-priority field efforts, 
we therefore encourage the use of similar operational 
mechanisms for the administration of future appropriations, 
though I would note parenthetically that the existing caps on 
administration are probably too low.
    The impacts of these programs on the conservation of these 
species has been real and significant, especially in the light 
of catastrophic civil war and social unrest that many of the 
range states have had to grapple with over the last 10 years.
    The leadership provided by the U.S. Government has 
stimulated action from the international community to conserve 
these species. For instance, the initiative to monitor the 
illegal killing of elephants initially supported by the United 
States has now received significant support from the European 
Union. National governments of the range states of these 
species are increasingly investing their own scarce resources 
in conservation efforts, although I would underline the 
comments of my colleague to the right.
    The support provided by the U.S. Government has underscored 
the importance of these endeavors, and allowed conservation 
organizations like WCS to secure additional private and 
philanthropic support for the conservation of these species.
    The Wildlife Conservation Society is strongly supportive of 
conservation strategies that focus on individual species, and 
this Subcommittee has heard previous testimony from the Society 
at hearings last year on the Keystone Species Conservation Act 
and the Great Ape Conservation Act. We know that species-based 
approaches are appropriate on scientific grounds, rational and 
administrative grounds, and effective on the ground. The public 
can relate to charismatic species more easily than they can to 
the conservation of biological communities and ecosystems.
    We would recommend the Subcommittee to move swiftly on 
these bills. We strongly recommend the reauthorization of these 
three Acts. Funding these bills has been a sound investment of 
tax dollars. We, together with a number of other conservation 
NGO's, strongly recommend increasing funding of these bills. 
Annual appropriations of at least $1.5 million for each bill in 
Fiscal Year 2002 must surely be considered a minimum. We 
strongly recommend that these funds remain flexible in the 
range of conservation activities for which they can be used.
    The very survival of species like rhinos, elephants and 
tigers rests in the hands of our generation. Given the enormity 
of this responsibility and the urgency of the need for 
increased conservation, we therefore urge the Subcommittee and 
the Congress as a whole to act quickly and positively on the 
reauthorization of these Acts.
    I thank you again for the opportunity to comment and I 
would be happy to answer any questions.
    [The prepared statement of Dr. Robinson follows:]

STATEMENT OF DR. JOHN G. ROBINSON, SENIOR VICE PRESIDENT AND DIRECTOR, 
INTERNATIONAL CONSERVATION, WILDLIFE CONSERVATION SOCIETY, ON H.R. 643, 
                         H.R. 645, AND H.R. 700

    Mr. Chairman, Members of the Subcommittee: Thank you very much for 
the opportunity to comment on the African Elephant Conservation 
Reauthorization Act, the Rhinoceros and Tiger Conservation 
Reauthorization Act, and the Asian Elephant Conservation Act . I am 
here today to represent the views of the Wildlife Conservation Society, 
founded in 1895 as the New York Zoological Society, a 105-year old US-
based membership organization. The Wildlife Conservation Society 
conserves wildlife and wild lands throughout the world, as well as 
managing animal collections at the Bronx Zoo and other living 
institutions in the New York area. Given a long history of field 
conservation and the largest professional field staff of any 
international conservation organization--with nearly 300 field projects 
throughout the Americas, Asia, and Africa we have a keen interest in 
all three pieces of legislation.
    The Wildlife Conservation Society would like to thank the 
Subcommittee, Chairman Gilchrest and Congressman Saxton for recognizing 
the need and urgency, expressed in all three bills, to provide 
additional support for wildlife protection in lands beyond our own 
borders. These bills reflect the importance that American citizens 
place on conserving the wild, wonderful, inspiring creatures of this 
earth. Animals like rhinoceros, elephants, and tigers are culturally 
important to us Americans and to people around the world, and their 
conservation is a global responsibility. Their loss would be a 
diminution of our biological richness, our natural heritage, and our 
own spirits.
    Unfortunately, there is a need for active conservation of 
rhinoceros, elephants and tigers. All five species of rhinoceros are 
under siege. The Javan and Sumatran species of rhino are critically 
endangered and their numbers continue to dwindle, a situation not 
helped by the political instability in Southeast Asia. In Africa, 
numbers of the formerly numerous black rhino have declined from perhaps 
65,000 in 1970 to about 2,500 today, and the species has been 
extirpated over large areas of Africa. This decline continues: We have 
recently learned that the famous and well-known population of black 
rhinos in the Ngorongoro Crater of Tanzania is now almost gone. The 
news is better for the white rhino and the Indian rhino, whose numbers 
have increased substantially during this century, but even for these 
species the total world populations are only in the low thousands, and 
their continued survival is not guaranteed.
    Population numbers of elephants are much greater. Here the concern 
is with the decline in numbers. For the African elephant, the dramatic 
decline in numbers from about 1.2 million to 600,000 in the 1980's was 
halted by vigorous conservation action, including the ivory trade ban. 
Numbers over the last few decades have been more stable, but recently 
an increase in hunting for ivory trade and for bushmeat is affecting 
populations in many parts of Africa. For the Asian elephant the 
situation is far more severe. There are less than 50,000 wild Asian 
elephants remaining, fully half of which are found in India. In 
Vietnam, China, and much of Laos and Cambodia, populations have 
declined to the point of near extinction. In Southeast Asia, habitat 
loss and hunting continue to threaten fragmented populations.
    Tiger numbers are at perilously low levels, with a global 
population certainly less than 10,000. India remains a stronghold for 
tigers, and strong U.S. Government support in the past has been 
critical in shoring up populations. Future support should not be linked 
to geopolitical issues if at all possible. Tigers have vanished from 
most of Indochina and are critically threatened in Southeast Asia. The 
situation however is not universally bleak. In the Russian Far East, 
with consistent U.S. Government support, tiger populations have 
stabilized at something under 500 individuals, and there are 
indications of further recovery. A recent workshop, sponsored by the 
U.S. Fish and Wildlife Service, brought together government officials 
from both China and Russia in an effort to expand cross boundary 
protected areas and address poaching threats.
    Nevertheless, despite the threats to these species, conservation 
action is changing, and can change the situation. We congratulate you 
on bringing these bills up for reauthorization. As you have clearly 
recognized, the existing grant programs for tigers, rhinoceroses, and 
Asian and African elephants have been enormously successful. Because 
these programs are non-bureaucratically and efficiently run through the 
U.S. Fish & Wildlife Service, and provide timely direct financial 
support and leverage to high priority field efforts, we therefore 
encourage the use of similar operational mechanisms for administration 
of future appropriations.
    The impacts on these programs and the conservation of these species 
has been real and significant. The accomplishments are all the more 
impressive when one considers that many of the range states have had to 
grapple with catastrophic civil war and social unrest during the last 
10 years. The Wildlife Conservation Society is proud to have been a 
partner in many of the projects supported through these programs.
    The leadership provided by the U.S. Government has stimulated 
actions from the international community to conserve these species. For 
instance, the initiative to monitor the illegal killing of elephants, 
initially supported by the United States, has now received significant 
support from the European Union. National governments of the range 
states of these species are increasingly investing their own scarce 
resources in conservation efforts. And the support provided by the U.S. 
Government has underscored the importance of these endeavors, and 
allowed organizations like the Wildlife Conservation Society to secure 
additional private and philanthropic support for the conservation of 
rhinoceros, elephants and tigers.
    The Wildlife Conservation Society is strongly supportive of 
conservation strategies that focus on individual species, and this 
subcommittee has heard previous testimony from Richard Lattis and Dr. 
Amy Vedder at hearings last year on the Keystone Species Conservation 
Act and the Great Ape Conservation Act. We recognize that the 
conservation of individual species is a concern that the public can 
relate to more easily than they can to the conservation of biological 
communities or ecosystems. And we also know that species-based 
approaches are appropriate on scientific grounds, rational on 
administrative grounds, and effective on the ground.
    The Wildlife Conservation Society, for instance, focuses 
considerable conservation effort on a set of species known as Landscape 
Species . These are species, like rhinoceros, elephant and tiger, that 
use large, ecologically diverse areas and often have significant 
impacts on the structure and function of natural ecosystems. Their 
requirements in space and time make landscape species particularly 
susceptible to human alteration and use of their habitats, and these 
species are among the most rapidly vanishing elements of biodiversity 
worldwide. Yet a conservation strategy that focuses on the conservation 
of this set of species is responsible, efficient, and cost-effective.
    <bullet> LConservation of landscape species, because of their large 
area requirements, secure the conservation needs of many other species, 
species assemblages, and larger-scale ecological processes;
    <bullet> LThe use of a small set of selected species to achieve a 
broader set of conservation goals is highly efficient;
    <bullet> LThe important functional role of landscape species 
provides a way to link species to landscapes and vice versa in 
functional ways;
    <bullet> LLandscape species provide a cost-effective way to achieve 
a significant set of conservation goals in the face of the challenge of 
addressing multiply threatened species and communities, and the 
difficulty in adequately understanding highly complex ecosystems and 
landscapes in a timely fashion.
    We would therefore urge the Subcommittee to move swiftly on these 
bills:
    We strongly recommend that reauthorization of the African Elephant 
Conservation Reauthorization Act, the Rhinoceros and Tiger Conservation 
Act, and the Asian Elephant Conservation Act. Funding these bills has 
been a sound investment of tax dollars.
    We, together with a number of other conservation NGO's, strongly 
recommend increased funding of these bills. Annual appropriations of at 
least $1.5 million for each in Fiscal Year 2002 must surely be 
considered a minimum.
    We strongly recommend that these funds remain flexible in the range 
of conservation activities for which they can be used, including but 
not limited to, research, monitoring, planning, training, conservation 
education and on-the-ground implementation.
    The very survival of species like rhinoceros, elephant and tiger 
rests in the hands of our generation. How much poorer would our world 
be without these animals, and what accountability will we be held to by 
our children, and by our children's children if they were to vanish? 
Given the enormity of this responsibility, and the urgency of the need 
for increased conservation, we therefore urge the Subcommittee and the 
Congress as a whole to act quickly and positively on the 
reauthorization of these acts.
    I thank you again for the opportunity to comment and to work with 
you on these bills. I would be happy to answer any questions.
                                 ______
                                 
    [Mr. Robinson's responses to written questions submitted 
for the record follow:]

 RESPONSES FROM DR. JOHN ROBINSON, SENIOR VICE PRESIDENT AND DIRECTOR, 
  INTERNATIONAL CONSERVATION OF THE WILDLIFE CONSERVATION SOCIETY, TO 
      ADDITIONAL QUESTIONS FROM MR. FALEOMAVAEGA, MARCH 29, 2001.

    Question 1: Would you please explain how this concept is 
distinguished from other management schemes based upon geographic 
units, such as by watersheds or by drainage basins?
    The landscape species approach uses the biology of certain species, 
landscape species, to map the area over which populations must be 
managed. Just as watersheds may be the most relevant units for 
management of pollution or water development, wildlife conservation 
requires ecologically relevant units in which to manage populations. 
This is necessary because wildlife do not recognize political 
boundaries and often move between watersheds, land parcels, or other 
units. Their conservation requires management across these boundaries. 
This is particularly true for landscape species, which range widely and 
use a variety of habitat types. By characterizing their movements and 
identifying the requirements of healthy populations, we identify the 
resources, and thus the area, to be managed for their effective 
conservation. Not surprisingly, the boundaries and management units 
identified by this process often differ from those prescribed by other 
management schemes focusing on jurisdictional boundaries, land use 
units, drainages or watersheds.
    Question 2: How does the conservation of landscape species enable 
or promote the conservation of biodiversity more broadly?
    Abundant field data demonstrate that wide-ranging species are more 
likely to be extirpated from protected areas (national parks, reserves, 
wildlife sanctuaries, etc.). Meeting the spatial requirements of wide-
ranging species provides sufficient space for other, less widely 
ranging species, a process known as an umbrella function. The landscape 
species approach takes this strategy one step further. Most notably, 
landscape species require large areas and a diversity of habitat types. 
This means that conservation planning must incorporate multiple habitat 
types, and that these must be effectively connected. Therefore, 
conserving landscape species provides an even wider umbrella. This will 
not only lead to lasting protection for other species; it will ensure 
that the ecological processes maintaining healthy ecosystems are 
allowed continue.
    Question 3: Under a landscape species scenario, what is the 
involvement with indigenous human populations? Does the implementation 
of such a scenario impose greater operations and administrative burdens 
on range states?
    The landscape species approach provides a framework for integrating 
human use and wildlife conservation. By clearly identifying and mapping 
the requirements of landscape species, the approach provides 
unambiguous criteria for recognizing conflicts as well as conservation-
compatible activities. This helps land managers to focus conservation 
action on key conflicts, rather than categorically opposing all human 
activities. Consequently, indigenous populations are able to continue 
sustainable use of wild areas. Our expectation is that this more 
focused approach will actually reduce the management burden on range 
states and minimize conflicts with indigenous people.
    Question 4: Some critics allege that landscape species conservation 
only diverts more and more funding to charismatic megafauna, and only 
serves to siphon scarce conservation dollars away from other deserving 
wildlife, especially non-game threatened and endangered species. Is 
this a fare criticism or do conservation efforts for these landscape 
species benefit the ecosystem at large?
    Landscape species are not simply charismatic megafauna. They are 
selected based on ecological criteria specifically designed to maximize 
the umbrella function mentioned above (question 2). This is an 
effective strategy for biodiversity conservation as it conserves 
healthy populations and functioning ecosystems.
    In some cases large charismatic species may be selected as 
landscape species, but in many cases they are not. In the sites where 
this approach has been developed, landscape species range from a 20 
gram hummingbird to forest elephants. In fact, most are non-game 
species and many are threatened or endangered. Because the approach is 
focused on key threats, it allocates conservation resources more 
efficiently than crisis-driven conservation strategies. Ultimately, 
this will free-up scarce conservation resources for other sites or 
ecosystems.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Robinson.
    Mr. Kirtland, welcome.

   STATEMENT OF JOHN KIRTLAND, EXECUTIVE DIRECTOR FOR ANIMAL 
 STEWARDSHIP, FELD ENTERTAINMENT, INC., AND FOUNDER, RINGLING 
           BROTHERS CENTER FOR ELEPHANT CONSERVATION

    Mr. Kirtland. Thank you. Mr. Chairman and members of the 
Subcommittee, I appreciate the opportunity to speak to you 
today in support of H.R. 700, the Asian Elephant Conservation 
Act.
    My name is John Kirtland and I am the Executive Director of 
Animal Stewardship for Feld Entertainment, Incorporated, which 
is the producer of Ringling Brothers and Barnum and Bailey, and 
the founder of Ringling Brothers' Center for Elephant 
Conservation, both of which I will collectively refer to as 
Ringling Brothers.
    Ringling Brothers strongly endorses H.R. 700. The need for 
and value of such a program cannot be denied. Even though the 
Asian Elephant Conservation Act is still relatively new and to 
date has received only modest funding, the contribution it has 
made and will continue to make toward the long-term survival of 
the Asian elephant is invaluable.
    Ringling Brothers veterinarians, trainers and other 
specialists are among the leading experts in animal care and 
behavior, and nowhere is this more true that in the case of 
elephants. Consequently, Ringling Brothers has a long-
established commitment to the conservation of the Asian 
elephant and other endangered species.
    In 1995, Ringling Brothers established the Center for 
Elephant Conservation, known as the CEC, to help assure the 
present and future well-being of the Asian elephant species. 
The CEC provides a safe and healthy environment in which 
elephants feel secure and comfortable enough to breed. In its 
five-year existence, there have been 10 births at the facility, 
and we are currently expecting the birth of a new calf any day. 
Additionally, there are four more confirmed pregnancies. 
Ringling Brothers' elephants constitute the largest and most 
diverse Asian elephant gene pool outside of Southeast Asia.
    The CEC is also actively engaged in an elephant exchange 
program with several zoos throughout the country. This will 
enable us to strengthen and diversify not only the CEC's gene 
pool, but also that of the United States as a whole. Moreover, 
every successful breeding brings us a little closer to being 
able to improve the propagation of captive elephants and of 
wild populations in their range states. With its unparalleled 
database, the CEC has become a global focal point for the 
worldwide study of Asian elephant behavior and reproduction, 
and the site for some of the most important research done on 
Asian elephants.
    Ringling Brothers has also helped to finance the Mahout 
Training School in Lampang, Thailand. This school is a 
residential program that trains Asian elephant handlers in 
humane and skilled treatment and care, and also rehabilitates 
elephants that have become dangerous and uncontrollable as the 
result of mistreatment and abuse. The school's comprehensive 
approach, encompassing training of both humans and elephants, 
has led to significant improvements to the well-being and 
continued survival of domestic Asian elephants.
    It is no secret that Asian elephants inhabit some of the 
most densely populated regions of the world, meaning that 
elephants and people are in direct competition for the same 
resources. The AECA emphasizes remedies that address human/
elephant conflict resolution, and assists initiatives in Asian 
elephant range states by providing financial resources for 
these programs that directly or indirectly promote the 
conservation of Asian elephants and their habitats.
    Working with relatively modest funds, the Asian Elephant 
Conservation Fund has been able to contribute to an impressive 
number of research and conservation projects. Grants under the 
Fund often focus on projects that directly support and promote 
wild elephant management practices. Funding is also available 
for research and other projects that address the use of 
domesticated elephants, as such use relates to the conservation 
of Asian elephants in the wild.
    Many of these projects also involve funding from local and 
international non-government agencies such as the International 
Elephant Foundation. This private foundation is a collaborative 
effort of Ringling Brothers, the Fort Worth, Columbus and 
Indianapolis Zoos, and other groups to support and operate in 
situ elephant conservation and protection projects. It is also 
involved in and supports propagation and other programs 
involving domestic elephant populations around the world.
    There is, of course, much more that can and should be done. 
Full funding of the amount authorized for the Fund would 
significantly enhance the beneficial impacts of the AECA. 
Changes in the implementation of CITES to facilitate 
international breeding programs would be of immeasurable value, 
and the range states still need to do more themselves to 
protect the elephants and their habitats.
    Nonetheless, the AECA has made a valuable contribution 
toward the preservation of this species and should be 
continued. The need for the AECA remain unchanged from when it 
was established just a few years ago. The threats to Asian 
elephants and their habitat, both direct and indirect, remains 
perilous. The Asian Elephant Conservation Fund continues to be 
a necessary and vital tool for ensuring the survival of this 
magnificent animal.
    Ringling Brothers, along with the other groups here today, 
remain as committed as ever to doing what we can to help, but 
this is an international problem and the small amount from 
private sources cannot satisfactorily address the overwhelming 
and urgent need. The Asian Elephant Conservation Act provides 
the additional assistance that those of us working to protect 
the Asian elephant desperately need to ensure its survival.
    Thank you, and I would be happy to answer any questions.
    [The prepared statement of Mr. Kirtland follows:]

STATEMENT OF JOHN KIRTLAND, EXECUTIVE DIRECTOR FOR ANIMAL STEWARDSHIP, 
 FELD ENTERTAINMENT, INC., RINGLING BROS. AND BARNUM & BAILEY AND THE 
FOUNDER OF RINGLING BROS. CENTER FOR ELEPHANT CONSERVATION, ON H.R. 700

    Mr. Chairman and Members of the Subcommittee, my name is John 
Kirtland. I am the Executive Director for Animal Stewardship for Feld 
Entertainment, Inc., which is the producer of Ringling Bros. and Barnum 
& Bailey and the founder of the Ringling Bros. Center for Elephant 
Conservation, both of which I will collectively refer to as Ringling 
Bros. I am testifying in support of H.R. 700, the Asian Elephant 
Conservation Reauthorization Act.
    Ringling Bros. strongly endorses H.R. 700. The Asian Elephant 
Conservation Fund has only recently begun to have a tangible presence. 
Yet the need for and value of such a program can't be denied. Even 
though it is still relatively new and to date it has received only 
modest funding, the contribution it has made and will continue to make 
toward the long-term survival of this species is invaluable.
Introduction
    Ringling Bros. embodies 131 years of experience working with Asian 
elephants and other exotic animals. Our veterinarians, trainers and 
other specialists are among the leading experts in animal care and 
behavior and nowhere is this more true than in the case of elephants. 
These magnificent animals are today and have always been an integral 
part of the circus experience. Not only have they entertained 
generations of families, but their presence in the live performances 
has done so much to teach us all about elephants, their place in the 
natural world and the need to ensure their survival. As a result, 
Ringling Bros. has a long-established commitment to the conservation of 
the Asian elephant and other endangered species.
    In the mid-1990's this commitment saw its two most significant 
events, the establishment of the Ringling Bros. Center for Elephant 
Conservation and the passage of the Asian Elephant Conservation Act. I 
am proud to say Ringling Bros. was among the earliest and leading 
proponents of this legislation, along with several of the other groups 
testifying here today. Thanks to our collective work and the tireless 
efforts of a number of Members of Congress, including several from this 
very Subcommittee, the AECA was enacted and a mechanism was put in 
place to address the desperate needs of this species.
Ringling Bros. Center for Elephant Conservation (CEC)
    While Ringling Bros. and Barnum & Bailey is known worldwide as a 
leading live entertainment entity, the December 1995 opening of its 
Center for Elephant Conservation, known as the CEC , grew out of one of 
its more serious missions: to assure the present and future well-being 
of the Asian elephant species.
    The CEC is located in Polk County Florida and is the most 
comprehensive facility of its kind. It incorporates experience and 
expertise gained from 131 years of traveling and working closely with 
Asian elephants and other exotic animals on tour. Ringling Bros. 
personnel know how to interact with the animals and how to keep them 
healthy, comfortable and well nourished. This unique experience and 
understanding was used in determining facility features ranging from 
the size and configuration of paddock areas and buildings to the design 
of innovative gate systems, drinking troughs, shading areas and other 
amenities.
    Ringling Bros . century of hands-on experience caring for Asian 
elephants has provided valuable insights in many areas of elephant 
husbandry, such as diet, waste removal, grooming and transportation of 
the animals. A familiarity with and respect for the lifestyle of 
breeding elephants was a determining factor in the selection of the 
secluded Florida site, as well as the CEC's selective visitation 
policy.
    The CEC provides a safe, healthy environment in which the elephants 
feel secure and comfortable enough to breed. The births of Romeo and 
Juliette in 1992 and 1993 marked the first successful Asian elephant 
conceptions and births in the Ringling Bros. breeding program, and they 
were only the beginning. We have celebrated two more births, bringing 
the total since the CEC's opening to 10. Currently we are expecting the 
birth of a new calf any day and have four more confirmed pregnancies. 
As a result, the herd at the CEC, together with the approximately 40 
elephants currently traveling with the two touring units of The 
Greatest Show on Earth , constitute the largest Asian elephant gene 
pool outside of Southeast Asia.
    The CEC is also actively engaged in a breeding loan/exchange 
program with several zoos around the country. This will enable us to 
strengthen and diversify not only the CEC's gene pool, but also that of 
the United States as whole. Moreover, every successful breeding brings 
us a little closer to being able to improve the propagation of captive 
elephants and wild populations of elephants in their range states.
    In order to ensure the greatest benefit to the species, Ringling 
Bros. is firmly committed to ensuring that the knowledge and experience 
gained at the CEC is shared with interested veterinarians, scientists 
and scholars from around the world. With its unparalleled data base, 
the CEC has become a global focal point for the worldwide study of 
Asian elephant behavior and reproduction and the site for some of the 
most important research done on Asian elephants. Exhibit A to my 
testimony consists of a synopsis of the various research projects that 
are underway at the CEC. The knowledge and understanding gained from 
these and the other work of the CEC will go a long way in advancing 
this multi-nation conservation effort.
    Ringling Bros. has also helped to finance the Mahout Training 
School in Lampang, Thailand. The Mahout Training School trains mahouts, 
Asian elephant handlers, in humane and skilled elephant treatment and 
care. The school is a residential program that teaches the humane 
Northern Thai techniques for riding, controlling and caring for 
elephants. Since its establishment, the school has successfully trained 
mahouts from numerous regions of the world, including Thailand, 
Malaysia, Sumatra, Indonesia, Africa and the West. The school also 
rehabilitates elephants that have become dangerous and uncontrollable 
as a result of mistreatment and abuse. Through the use of consistent 
and humane treatment at the school, the elephants become safe and 
employable, thereby increasing their chances of survival. The school's 
comprehensive approach encompassing training of both the mahouts and 
the elephants has led to significant improvements to the well-being and 
continued survival of captive Asian elephants.
Asian Elephant Conservation Fund
    As this Subcommittee is no doubt aware, the Asian elephant has been 
and is increasingly in grave danger of extinction. In 1997, the 
surviving populations in the wild were found in south and southeast 
Asia and numbered between 35,000 and 45,000. In addition, there are 
approximately 16,000 domesticated elephants. The Asian elephant is 
currently listed as Endangered under the United States Endangered 
Species Act, the IUCN Red List of Mammals and on Appendix I of the 
Convention on International Trade in Endangered Species of Wild Fauna 
and Flora, known as CITES. The Asian Elephant Conservation Act, known 
as AECA, was passed by Congress in 1997. The AECA reflects what is now 
a universally accepted concept: that, in order to preserve this or any 
endangered species, the effort must focus on the area's of the world 
that provide the species natural habitat.
    Asian elephants inhabit some of the most densely populated areas of 
the world. The ever-increasing pressures created by the exponential 
growth of human populations on natural habitats in the form of 
encroachment by human populations and forest clearance for large-scale 
agricultural crops has resulted in a dramatic loss of forest cover. 
This, in turn, has meant that elephants and people are in direct 
competition for the same resources everywhere.
    The AECA emphasizes remedies that address human/elephant conflict 
resolution and assists initiatives in Asian elephant range states by 
providing financial resources for those programs that directly or 
indirectly promote the conservation of Asian elephants and their 
habitats. Working with relatively modest funds, a little over $1 
million to date, the Asian Elephant Conservation Fund has been able to 
contribute to an impressive number of research and conservation 
projects. Grants under the fund often focus on projects that directly 
support and promote wild elephant management practices. Such projects 
include: (a) monitoring population trends of known populations; (b) 
assessing movement and ranging patterns of known populations; (c) 
developing management plans for managed elephant ranges; (d) 
resettlement of elephants; (e) anti-poaching assistance; and, (h) range 
state community outreach and education. Funding is also available for 
research and other projects that address use of domesticated elephants 
as such use relates to the conservation of Asian elephants in the wild.
    Many of these projects also involve funding from local and 
international non-government entities like World Wildlife Fund and 
Wildlife Preservation Trust International. Another such entity is the 
International Elephant Foundation (IEF). This private foundation is a 
collaborative effort of Ringling Bros., the Fort Worth, Columbus and 
Indianapolis Zoos and other groups to support and operate in situ 
elephant (African and Asia) conservation and protection projects. It 
also is involved in and supports propagation and other programs 
involving captive elephant populations around the world. The IEF has 
already received an AECA grant for a project for the Support for the 
Improved Health and Health Care management of Captive Elephant 
Populations of Sumatran Asian Elephants.
    There is, of course, much more that can and should be done. Full 
funding of the amount authorized for the fund, as well as the other 
species conservation funds, would significantly enhance the beneficial 
impacts of the AECA. However, there are also problems that go beyond 
the reach of the AECA. Changes in the implementation of CITES to 
facilitate international breeding programs could be of immeasurable 
value. And the range states still need to do more themselves to protect 
the elephants and their habitats. Nonetheless, the AECA has made a 
valuable contribution toward the preservation of this species and 
should be continued.
Conclusion
    The need for the AECA remains unchanged from when it was 
established just a few years ago. The threats to Asian elephants and 
their habitat, both direct and indirect, remain perilous. The Asian 
Elephant Conservation Fund and the other components of the 
Multinational Species Conservation Fund continue to be necessary and 
vital tools for ensuring the survival of the targeted species around 
the world. Ringling Bros., along with the other groups here today, 
remain as committed as ever to doing what we can to help, but this is 
an international problem and the small amount from private sources 
cannot address the overwhelming and urgent need. The Asian Elephant 
Conservation Act provides the additional assistance those of us working 
to save the Asian elephant need to ensure its survival.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Kirtland.
    Dr. Foose?

 STATEMENT OF THOMAS J. FOOSE, PROGRAM DIRECTOR, INTERNATIONAL 
                        RHINO FOUNDATION

    Mr. Foose. Thank you, Mr. Chairman. The rhino organizations 
that I represent, which includes the International Rhino 
Foundation and the Asian and African Rhino Specialist Groups of 
IUCN, greatly appreciate the opportunity to testify before this 
Subcommittee on rhino conservation in general, and specifically 
in support of H.R. 645 to reauthorize the Rhino and Tiger 
Conservation Act. These organizations also support strongly 
H.R. 643 and H.R. 700 because rhinos often live in the same 
places as elephants and tigers, and indeed all three of these 
Acts and Funds have been very beneficial to rhino conservation.
    The Rhinoceros and Tiger Conservation Act was passed in a 
time of great crisis for these rhino species. This crisis 
continues, but has been ameliorated because of the crucial and 
catalytic support from the Rhino and Tiger Conservation Fund. 
The efforts of Congress to provide funds for conservation of 
rhinos, as well as tigers and elephants, is most commendable, 
much appreciated, and has indeed been very effective.
    The continuing crisis for rhinos is most cogently and 
poignantly conveyed by the current estimates of numbers of the 
5 species and 11 subspecies of rhino. There are about 16,000 of 
rhinos, of the 5 species and 11 subspecies, in the wild, but 
over two-thirds of those are of just one subspecies, the 
Southern White Rhino. The other subspecies of White Rhino, the 
Northern White Rhino, is down to about 30 individuals.
    The numbers of the other four species--the Black, Indian, 
Sumatran and Javan--combined are fewer than 6,000. Indeed, 
there are fewer Sumatran and Javan rhino combined than there 
are Members of the House of Representatives. In fact, their 
numbers would probably constitute little more than a 
comfortable majority for either party in the House.
    Mr. Abercrombie. We will take it.
    [Laughter.]
    Mr. Foose. The status and prospects of most of the rhino 
species and subspecies is better than when the Rhino and Tiger 
Conservation Act was last reauthorized, and far better than 
when the Act was originally passed. This is due in no small 
part to the substantial and crucial support that has been 
received from the Rhino and Tiger Conservation Fund.
    I will just mention some of the notable improvements. The 
populations of black rhino in Africa have not only stabilized, 
but they have recovered from a low point of 2,300 in the mid-
1990's to 2,700 today. There has been continued increase of the 
Southern White Rhino, as well as the Indian Rhino populations. 
There has been the establishment, again with significant 
support from the Rhino and Tiger Conservation Fund, of anti-
poaching teams, known as rhino protection units, for Sumatran 
and Javan rhino in Southeast Asia.
    However, there remain critical and precarious areas and 
trends for rhino conservation, and I have discussed a number of 
those in my written testimony. The bottom line is that there 
should be no relaxation of, or complacency about, rhino 
conservation efforts. The next 5 to 7 years are going to be 
critical in terms of whether rhino species and subspecies 
survive.
    The United States has provided unique and unprecedented 
leadership in the global efforts to save the rhino species. 
Other speakers have mentioned how significant the amounts of 
money have been, but more is needed. Basically, over the next 5 
to 7 years, there is a need for at least $5 million in external 
support for rhino range states in Asia, and an equal amount in 
Africa. Therefore, the organizations I represent would 
encourage an increase in appropriations for the Rhino and Tiger 
Conservation Fund to at least $1 million in Fiscal Year 2002, 
and perhaps $1.5 million in subsequent years.
    Just to provide a little perspective, if the $750,000 that 
was appropriated in Fiscal Year 2001 is equally divided among 
tigers, Asian rhinos and African rhinos, that would mean that 
Asian rhinos would get $250,000. The anti-poaching teams that I 
mentioned require about $20,000 each per year for support. 
There are currently about 40 of them operating in Southeast 
Asia for Sumatran and Javan rhinos. So the amount of money that 
Asian rhinos might currently receive under the levels of 
appropriation would only support four of those, and there is 
need for at least 80 of those anti-poaching teams.
    In summary, rhinos are still in crisis, but stabilization 
and some recovery of numbers have commenced. The support from 
the Rhino and Tiger Conservation Fund has been a critical and 
catalytic factor in this improvement. There is need for the 
support from the Rhino and Tiger Conservation Fund to continue 
and, if possible, to increase.
    Therefore, the organizations I represent are encouraging 
Congress to reauthorize the Rhino and Tiger Conservation Act, 
to work with other Members of Congress to increase the amount 
of appropriations to at least $1 million for Fiscal Year 2002, 
and perhaps an eventual goal of $1.5 million, and to 
reauthorize the African and Asian Elephant Conservation Acts.
    If I might just have one final comment, I would like to 
observe that another reason that support from the United States 
for rhino conservation in Africa and Asia is both appropriate 
and ironic considers the history of the rhino family. The 
United States was long ago a center of rhino distribution on 
this planet. Rhinos were the most common large mammal in North 
America from about 40 to about 5 million years ago, long before 
the bison or the nutria arrived.
    Native American rhinos disappeared because of ecological 
reasons now well-known. However, through the Rhino and Tiger 
Conservation Fund, as well as the efforts of AZA and its 
Species Survival Programs for rhinos and the IRF, the United 
States has the opportunity to help save the surviving species 
of this venerable, and once American, family of mammals from 
extinction.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Foose follows:]

 STATEMENT OF THOMAS J. FOOSE, PH.D., PROGRAM DIRECTOR, INTERNATIONAL 
                            RHINO FOUNDATION

    I am Dr. Thomas J. Foose. I am the Program Director of the 
International Rhino Foundation (IRF), which is a non-governmental 
organization (NGO) exclusively concerned with rhino conservation 
worldwide, both in situ and ex situ, and especially with linking the 
two approaches. The IRF is directly contributing $700,000/year and is 
coordinating or administering another $300,000/year for a total of 
$1,000,000 per year on rhino conservation projects. I also serve as the 
Program Officer for the Asian Rhino Specialist Group (AsRSG) of the 
Species Survival Commission (SSC) of IUCN - The World Conservation 
Union, and as a member of their African Rhino Specialist Group (AfRSG). 
Finally, I am Secretary of the Rhinoceros Taxon Advisory Group (Rhino 
TAG) and am the North American Rhinoceros Studbook Keeper for the 
American Zoo and Aquarium Association (AZA). Today, I am representing 
the IRF, both Rhino Specialist Groups, and the Rhino TAG.
    The organizations I represent greatly appreciate the opportunity to 
testify before this Subcommittee on rhino conservation in general and 
specifically in support of HR 645 to re-authorize the Rhinoceros and 
Tiger Conservation Act of 1994. These organizations also support HR 643 
& HR 700 to reauthorize the African Elephant and Asian Elephant 
Conservation Acts. My comments will refer mostly to rhinos and hence 
apply mostly to HR 645. However, rhinos, elephants, and tigers 
frequently occupy the same areas and habitats. All three of these 
multinational species conservation funds have assisted rhino 
conservation, directly or indirectly.
    The Rhinoceros and Tiger Conservation Act of 1994 was passed in a 
time of great crisis for these species. This crisis continues. The Act 
was also passed at a time of particular budgetary stringency for the 
U.S. Congress. The current proposal for reauthorization is also 
occurring at a time when federal government budgets are under great 
scrutiny and strictures because of other major priorities. The efforts 
of many members of Congress to provide funds for conservation of 
rhinos, tigers, and elephants in a time of budgetary austerity is most 
commendable, much appreciated, and very effective.
    The continuing crisis for rhinos is most cogently and poignantly 
conveyed by the current estimates of numbers for the 5 species and 11 
subspecies of rhinoceros: (Tables 1-2, Figures 1-5): (1) About 16,000 
rhinos of 5 species and 11 subspecies survive in the wild. (2) However, 
two-thirds (10,400) of these rhinos are of one subspecies, the Southern 
White Rhino. The other subspecies of White Rhino, the Northern White 
Rhino, is estimated at 30 individuals. (3) The numbers of the other 
four species (Black, Indian, Sumatran, and Javan) combined are fewer 
than 6,000. (4) The numbers of the 3 Asian species of rhino combined 
(2,700+) are about equal to the rarer of the 2 African species, i.e. 
the black rhino. (5) There are fewer Sumatran and Javan Rhino combined 
than there are members of the U.S. House of Representatives.For 
perspective, it should be observed that conservation biologists believe 
that a population of at least 2,000-3,000, and preferably 5,000 or 
more, of each distinct kind (i.e., subspecies or geographical variety) 
of rhino is necessary for long-term viability. Most of the species and 
all but two of the subspecies of rhino are far below this viability 
level.
    Rhinos are capable of recovery if provided with a reasonable 
opportunity. It should be noted that the two kinds of rhino which have 
prospered the most in recent years, the southern white and the Indian, 
were almost lost around the start of the 20th Century through over-
exploitation. Stringent protection in South Africa, India, and Nepal 
recovered these species in each case from about 20-40 individuals.
    The status and prospects for most of the rhino species and 
subspecies are better than when the Rhinoceros and Tiger Conservation 
Act was last reauthorized in 1998 and far better than when the Act was 
originally passed in 1994.
    Among the notable improvements are:
    <bullet> LThe stabilization and recovery of the Black Rhino as a 
species from a low point of 2,300 in the early 1993 to well over 2,700 
today, an increase of at least 20%, but still far from the 60,000+ that 
existed in 1970.
    <bullet> LContinuation of the vigorous growth of the Southern White 
Rhino population to over 10,000. Most of them are in a single country, 
the Republic of South Africa. This country has performed magnificently 
in recovering the Southern White Rhino from near extinction around 1900 
to its prosperity today. However, there are always risks possible when 
an endangered species is located in a single political unit.
    <bullet> LContinued increase in the populations of Indian rhino in 
India and Nepal, despite substantial poaching pressure and extreme 
budgetary limitations in these countries.
    <bullet> LThe establishment of a system of effective anti-poaching 
teams known as rhino protection units (RPUs) in South East Asia which 
seems to be ameliorating the poaching problem for Sumatran Rhino in 
Indonesia and Malaysia and for Javan Rhino in Indonesia and Vietnam.
    The Rhino & Tiger Conservation Act has contributed substantially 
and crucially to these improvements.
    However, there remain critical and precarious areas and trends for 
rhino conservation:
    <bullet> LThe Northern White Rhino is literally on the brink of 
extinction with only 30 surviving in the eastern Democratic Republic of 
Congo, which has been a war zone since 1997.
    <bullet> LThe Northwestern Black Rhino, which survives only in 
Cameroon, is almost extinct.
    <bullet> LNumbers of Sumatran and Javan Rhino remain precariously 
low and at best are only now stabilizing, with potential recovery still 
in the future.
    <bullet> LPressures on the Indian Rhino remain high and seem to be 
intensifying again, e.g. in Nepal.
    <bullet> LMoreover, virtually all of the rhino range states in both 
Africa and Asia are confronting enormous problems in terms of human 
needs and many of these nations are or soon will be in economic, 
political, social difficulty and even turmoil.
    <bullet> LIndeed, it should be noted how linked rhino conservation 
has become with global political and economic events, e.g.
      * LThe northern white rhino in the DRC with the civil and 
regional wars and strife in this region.
      * LThe Sumatran and Javan rhino with the economic and political 
crises in S.E. Asia.
    The bottom line is that there should be no relaxation of or 
complacency about rhino conservation efforts. The next 5-7 years are 
going to be critical in terms of whether the rhino species and 
subspecies survive.
    Rhinos are part of the planet's heritage of biodiversity. Hence, 
rhino conservation should be a global endeavor. Moreover, the close 
linkage of rhino conservation with geopolitical events reinforces the 
justification for global efforts to help these species.
    The United States has provided unique and unprecedented leadership 
in such global efforts. Since 1994, the approximately $3 Million 
provided by the Rhinoceros and Tiger Conservation Fund (RTCF) has been 
catalytic and crucial to many rhino conservation programs. These RTCF 
funds have also been direct leverage for over $4 Million in matching 
and in-kind support from other sources and have been an indirect 
stimulus for probably another $4-5 Million.
    Moreover, in addition to the benefit of the funds, the RTCF has 
served an extremely significant function to help better coordinate and 
improve the quality and rigor of many rhino conservation programs. In 
this regard, the organizations I represent commend the USFWS for the 
manner in which it has administered the RTCF.
    It should also be noted that the private sector in partnership with 
range state governments has played and will continue to play a vital 
role in rhino conservation in both Africa and Asia, e.g.- The private 
sanctuaries in Asia and the conservancies and ranches in southern 
Africa.- The involvement of NGOs and private partners in S.E. Asia to 
support rhino conservation and develop its financial sustainability.
    The USFWS through the RTCF has become an important partner to both 
range state governments, NGOs, and private parties in these endeavors.
    The Rhino Specialist Groups (AsRSG and AfRSG), IRF, WWF and other 
NGO partners have assisted rhinoceros range states to formulate 
continental and national action plans, to prioritize specific programs 
and projects, and to calculate the costs of rhino conservation and 
particularly the needs of range states for external support. Details 
are available in the Action Plans developed by the AsRSG and AfRSG.
    Basically, over the next 5-7 years, there is need for at least:
    <bullet> L$5 million/year in external support per year for rhino 
range states in Asia
    <bullet> L$5 million/year in external support per year for rhino 
range states in Africa.
    The private sector can provide some of these funds but it is vital 
that the U.S. Government and the RTCF also continue to contribute, and 
if possible at an increased level.
    Therefore, the organizations I represent would encourage an 
increase in appropriations for the RTCF to at least $1 million in 
Fiscal 2002 and perhaps $1,500,000 in subsequent years. This amount 
would complement and stimulate continued matching funds from other NGOs 
and private partners to achieve the levels of external funding the 
range states need. Although the Rhinoceros and Tiger Conservation Act 
has been authorized for up to $10 million/year, the largest 
appropriation from Congress has been $750,000 in Fiscal 2001. There are 
indications that the request in the Fiscal 2002 Budget submitted by the 
President may revert to Fiscal 2000 levels, i.e. $700,000. While this 
level of funds is vital and most appreciated, it increasingly is 
insufficient to satisfy the need, particularly as range state budgets 
for rhino conservation decline because of other, more human-oriented 
problems. For perspective, just consider that RTCF funds must assist 5 
species and 11 subspecies of rhino as well as at least 5 subspecies of 
tiger. If the funds are distributed equally among regions and species, 
then one-third, i.e., about $250,000 would be available for Asian 
rhinos, $250,000 for African rhinos, and $250,000 for tigers. In Asia, 
such a distribution could provide only about $80,000 for each of the 
three species of rhino. For comparison, the cost of 1 anti-poaching 
team for Sumatran rhino is about $17-20,000/year. So $80,000 might 
support 3 or 4 RPUs. There are currently 40 RPUs operating for Sumatran 
rhino and there is need for twice that many. Similar cost/need analyses 
could be provided for the other 2 Asian and the 2 African species with 
their numerous subspecies.
    Of course, all appeals to the Federal Government for funding are 
considered important and immediate by their advocates. However, some 
needs are intrinsically more immediate than others. The simple fact is 
that substantial support for rhinos and tigers is needed now. If 
adequate funds cannot be provided, the need will disappear because the 
rhinos and tigers will have vanished.
    In summary,
    <bullet> LRhinos are still in crisis but stabilization and some 
recovery of numbers have commenced.
    <bullet> LSupport from the RTCF has been a critical and catalytic 
factor in this improvement.
    <bullet> LThere is need for support from the RTCF to continue and 
if possible to increase over the next 5-7 years.
    <bullet> LTherefore, the IRF, the IUCN/SSC Asian and African Rhino 
Specialist Groups, and the AZA Rhino Advisory Group encourage Congress 
to:
    <bullet> LReauthorize the Rhino and Tiger Act through the Year 2007 
as proposed in HR 645.
    <bullet> LIncrease the amount of the appropriations to at least $1 
Million for Fiscal 2002, toward a goal of $1,500,000/fiscal year in the 
near future.
    <bullet> LReauthorize the African and Asian Elephant Conservation 
Acts, which provide substantial support for rhinos as well as the 
species for which they are designated.
    As final comment, may I observe another reason that support from 
the United States for rhino conservation in Asia and Africa is both 
appropriate and ironic considering the history of the rhino family. The 
United States was long ago the center of rhino distribution on this 
planet. Rhinos were the most common large mammal in North America from 
about 40 until about 5 million years ago, long before the bison 
arrived. Native American rhinos disappeared because of ecological 
reasons not well known. However, through the RTCF, as well as the 
efforts of IRF and the AZA and its Species Survival Programs for rhino, 
the United States has the opportunity to help save the surviving 
species of this venerable and once American family of mammals from 
extinction.
    Thank you Mr. Chairman and Members of the Subcommittee.

    [GRAPHIC] [TIFF OMITTED] T1290.004
    
    [GRAPHIC] [TIFF OMITTED] T1290.005
    
    [GRAPHIC] [TIFF OMITTED] T1290.006
    
    [GRAPHIC] [TIFF OMITTED] T1290.007
    
    [GRAPHIC] [TIFF OMITTED] T1290.008
    
    [GRAPHIC] [TIFF OMITTED] T1290.009
    
    [GRAPHIC] [TIFF OMITTED] T1290.010
    
    Mr. Gilchrest. Thank you, Dr. Foose. I am not sure what 
Farley Mowatt would think of the plan for the nutria over the 
next couple of years.
    I guess I would like to start with Mr. Berry. First of all, 
each of you had extraordinary testimony, from the wildly 
optimistic to the despair of pessimism. We will take your 
message to our colleagues, the appropriators, and will work 
very hard to increase as dramatically as we can this funding.
    One of the potential targets for dollars is an unnecessary 
core project which might be about $100 million that we could 
bring into this program, if we could just convince the energy 
and water appropriators that this particular core project is 
unnecessary. So maybe Neil and I will go after one. We will get 
our Subcommittee to target that.
    Mr. Berry, you mentioned a poem by William Blake about 
tigers. Do you have that with you?
    Mr. Berry. I can get that for you for the record, Mr. 
Chairman.
    Mr. Gilchrest. Now, that is not the--
    Mr. Berry. ``Tiger, tiger, burning bright'' that we all 
remember from school and childhood. I will be sure we get that 
in to you today.
    Mr. Gilchrest. You could e-mail that to the Subcommittee 
and our respective offices, I guess.
    Is that William Blake?
    Mr. Berry. Yes, sir.
    Mr. Gilchrest. William Blake?
    Mr. Berry. William Blake.
    Mr. Gilchrest. You mentioned the problems in China, but the 
successes in Cambodia. Could you give us some idea about the 
differences in the local people, the political climate, the 
government, the university people you may have talked to? Why 
are you being successful in Cambodia and not in China?
    Mr. Berry. I should say we have just begun work and found 
signs of hope in Cambodia, Mr. Chairman. Recent surveys through 
some of the projects that we have been able to fund in some of 
the mountain regions of Cambodia found numbers of tigers in 
populations that we estimate between 500 and 700 in that 
region, and very good habitat, good prey base, a good habitat 
situation.
    I don't think that those numbers are the result of any 
project specifically that has been underway as a result of the 
efforts of the past 5 to 10 years. I think it is more a result 
of the past history of Cambodia and the fact that they don't 
have the human population pressures in those regions that we 
found. The poaching situation obviously has not impacted on 
that region as significantly as it has, for example, in Burma, 
where similar studies, like we said, found no tigers in those 
areas.
    I think some of the most optimistic work that is being 
done--and you hear the World Wildlife Fund talk about it--is 
this concept of corridor and linkage that is underway. And a 
critical area that we are working in partnership with WWF and 
the Fish and Wildlife Service is the Terai Arc, which is a very 
huge region on the border of Nepal and India. It is wonderful 
habitat of both forest, tall grass, low mountains. It is the 
foothills of the Himalayas.
    We have a number of protected reserve areas in existence 
already. For example, it is anchored in the southeast by the 
Chitwan Reserve, and there are a number of others. Working with 
the King Mahendra Trust and the Nepal and the Indian 
governments, we are developing that concept of corridor 
protection with those local communities between the reserve 
areas to provide much broader habitat potential for the future. 
That is an area rich in tigers that really has great hope for 
the future.
    I think our most productive work to date I would put in 
India, Nepal, Indonesia, and the Russian Far East. I think with 
the results that we got from some of the initial science in 
Cambodia, we are going to try to continue to do work with 
WildAid and others there because I think obviously that 
population--if we can protect that and continue the growth rate 
there, it might spell hope for the future in reintroducing the 
tiger to Burma.
    Mr. Gilchrest. It is amazing they survived the Khmer Rouge 
in the 1970's. When I was in Vietnam in the 1960's, on the 
Cambodian border, a fairly remote region, it wouldn't be 
uncommon for us at night to hear tigers. It fascinated us and 
gave us a cold chill at the same time.
    Are there any tigers left, then, in any area of Vietnam, if 
they are in Cambodia?
    Mr. Berry. I am not aware. Tracy Walmer is our chief staff 
on the Save the Tiger Fund and our in-house expert on this, and 
we can provide you some more information.
    Mr. Gilchrest. I know you are doing it with India and 
Nepal. With the tigers in Cambodia, is there any effort for a 
regional approach to connect what you are doing in Cambodia 
with possibly Vietnam and then maybe Laos and China?
    Mr. Berry. I think there is no question there is hope for 
that in the future. China may already be too far gone to 
recover.
    Mr. Gilchrest. But if China is too far gone to recover, is 
there any area in China, if you can push a regional approach, 
that would be suitable habitat?
    Mr. Berry. There is no question the habitat potential is 
there in certain places in eastern China. But I think you heard 
from World Wildlife, because resources are limited, we really 
need to focus the resources on those areas where we can have 
the highest probability of success.
    Mr. Gilchrest. I see. Is it worth, let's say, the 
government discussion, a group of government officials from our 
country and university people discussing this issue with the 
Chinese and their university people?
    Mr. Berry. Absolutely, and a lot of those discussions, for 
example, are underway now with, for example, on tiger parts and 
traditional medicine with the College of Traditional Medicine 
in China. We are trying to approach those discussions. That is 
going to be critical.
    I think our most productive success we can have in China, 
though, is dealing with that issue and the issue of demand on 
the trade because that spells the future on the whole issue of 
poaching and the black market. So our campaign there is more 
focused in that regard than it is on reintroduction programs in 
that effort, because again trying to preserve them where those 
wild populations are sustainable now is really the primary 
focus of the funds.
    Mr. Gilchrest. I have some more questions, but I am going 
to yield now to Mr. Abercrombie.
    Mr. Abercrombie. Just a couple, Mr. Chairman.
    Mr. Berry, it is nice to see you and I am pleased that you 
are in this position. I am sure you are going to do a terrific 
job. With the Chinese question, did I understand you correctly 
that because of the interest in China in the commercial 
products associated with tigers that that might be the angle to 
approach this, that they will rapidly not have anything? They 
can fake it, of course, and I don't doubt that there will be 
plenty of that, but that would probably get around even in 
China in fairly rapid fashion.
    Am I correct, then, that you are saying that the angle to 
come in at this is that they need to be working with us and 
other organizations in order to have a supply of tigers at all? 
And if that is the case, would they be talking about tigers in 
the wild or talking about tigers effectively being domesticated 
for harvesting?
    Mr. Berry. We are trying to encourage, working with 
practitioners of alternative approaches, to accomplish the same 
effective means without using tiger parts at all. The 
sustainable harvesting approach--there is clearly nothing to 
produce that in China now, and so what it is doing is fueling 
black market poaching in tigers in all of the other places in 
the world that are under pressure.
    Mr. Abercrombie. For import?
    Mr. Berry. Right, and so the efforts now that we are 
undertaking in China are a two-prong approach. One is working 
with the traditional practitioners, and the other is 
undertaking culturally-sensitive advertising campaigns to 
convince populations that their use of these products is having 
the impact of forcing these species into extinction.
    Mr. Abercrombie. Excuse me, Mr. Berry, because my time is 
short. The only problem with that is if I understand the way it 
is operating in China, that will be used by the merchants to 
say you better buy it now and get it quick because it is going 
away and we are going to charge you more. And they could care 
less whether every tiger in the world is decimated; they will 
keep on going, and after that they will lie.
    We don't need to pursue it further, but, Mr. Chairman, I 
think possibly in relation to contacting the Chinese or making 
some efforts, I think the only way we can make this work, 
including having survival in the wild, which I hope could 
possibly have some ecotourism implications or something--I 
don't know--phototourism or something, if the Chinese would 
ever allow it; that is so far down the line as to probably be 
almost abstract.
    But it probably has to be in the line of, look, you are 
going to run out of this stuff and you are going to have 
everything else killed in short order anyway, so why don't we 
work toward the idea of domestication--and I don't mean that in 
any pejorative sense at all--maybe reserves or preserves or 
something of that nature, if only with the idea of some kind of 
harvesting, if you get enough to be able to do that.
    I hope that doesn't offend anybody. I am trying to think 
how to save--it does offend you?
    Ms. Steuer. May I?
    Mr. Abercrombie. Certainly.
    Ms. Steuer. ``Offense'' is probably the wrong word, but I 
think I just take a different angle on it. IFAW has a very 
active office in China, in Beijing, where we work very closely 
with the Chinese government on the traditional medicine issue, 
in particular, not only as it relates to tigers, but as it 
relates to other Appendix I CITES-listed species like bears.
    What we have found to be the really successful approach in 
this regard is that if you get to the practitioners and 
convince them that--and we have done so in the case of bears 
and are working on it in the case of tigers--that their 
approach--
    Mr. Abercrombie. Run that last sentence by me again. I am 
sorry.
    Ms. Steuer. That is all right. If you work with the Chinese 
medicine practitioners, not just in China but elsewhere in 
Asian communities around the world, as we are doing in the 
United Kingdom and in the United States, which is now the 
second largest consumer of traditional medicine products in the 
world and where the demand has grown 280 percent in the last 
decade for traditional medicines, which are uncontrolled for 
the large part--
    Mr. Abercrombie. I understand.
    Ms. Steuer. If you can get to the practitioners, what we 
have found in China, particularly in relation to bears, is that 
they can be convinced, and in the case of bear gall bladder 
products have been convinced to an increasing degree, that 
there are alternatives which work just as well for them and 
which don't, for lack of a better term, embarrass them into 
being the source of an endangerment, and in the case of the 
tiger for a species that has been an emblem for their nation 
and part of their nation's heritage for hundreds and hundreds 
of years. So we do think that the alternatives approach can 
work, but it takes time, and I think the turnaround is 
occurring in China and elsewhere.
    Mr. Abercrombie. Well, obviously, at this hearing we won't 
be able to pursue that in the length and depth that it 
requires, but perhaps on the funding side, Mr. Chairman, that 
is something that we need to look at and then need to figure 
out what to do.
    You understand my motivation? I am trying to figure out how 
to make it work. Can you indulge me a moment more, Mr. 
Chairman?
    Mr. Gilchrest. Yes.
    Mr. Abercrombie. I want to make a transition, then, to Mr. 
Kirtland and I want to commend Feld for the work that it is 
doing in this regard.
    Mr. Kirtland. Thank you.
    Mr. Abercrombie. It would not have ordinarily been thought 
of that Ringling Brothers could be a catalyst in this, and I 
think that that is one of the things that helps me think about, 
okay, how can we make this work, how can we induce others for 
their reasons.
    I will tell you why. In politics, I have discovered the 
only way you get votes is to get people to vote with you for 
their reasons. Very seldom do people vote with you for your 
reasons. If they do, that is wonderful.
    Mr. Gilchrest. That is how I got elected.
    [Laughter.]
    Mr. Abercrombie. So what I was looking for especially in 
this context is what can we do to make a presentation that 
doesn't look like we are imposing something on them because it 
suits us, as opposed to working with them on something that 
they consider to be in their interests and that we are being 
supportive of them in that regard--and that includes not only 
other cultures, but I mean the private interests and non-profit 
interests in our own Nation and in the Western world--and to 
make it be something more than just recompense for the fact 
that Western society entered into all of these nations, after 
all, and set loose the forces of modernity which are now 
running rampant over traditional cultures without necessarily 
the sufficient time and capacity to make the transition to 
preserve those areas both physically and psychologically that 
helped to sustain the previous culture.
    With that in mind, with the Center for Elephant 
Conservation, are you doing breeding with zoos in the United 
States and around the world with the Ringling Brothers 
elephants?
    Mr. Kirtland. We would certainly like to. We have entered 
into a number of projects with other zoos. In fact, we have had 
very preliminary discussions with the Honolulu Zoo, in your own 
home State, about sending an elephant to Honolulu when they 
have the--
    Mr. Abercrombie. When we do the reauthorization and we go 
to the appropriators, is there any contemplation that perhaps 
we could put money up to work with you and similar private and 
public organizations to do cross-breeding in a serious way 
around the world?
    I don't want to see non-profit organizations or even 
foundations set up from a profit-making organization like 
Ringling Brothers to have to sustain all of the expenses of 
sending animals to be able to do cross-breeding, because you 
want to get the genetic pool as broad as possible, right?
    Mr. Kirtland. Absolutely.
    Mr. Abercrombie. And to move an animal is a traumatic 
experience for that animal, so it has to be done in a very 
sensitive way, and probably expensive as a result, right?
    Mr. Kirtland. It is expensive. It is not necessarily 
traumatic. Our elephants move all over the country on a 
virtually daily basis.
    Mr. Abercrombie. Well, the elephants in South Asia, I 
notice, are willing to put up with human beings. That is 
remarkable on their part.
    Mr. Kirtland. But it is expensive, as you said, and it is 
time-consuming. We do need to look at easier ways to be able to 
move animals across national and international borders in terms 
of captive propagation because in many cases the captive 
propagation is going to be the only thing that is going to 
ensure the survival of some of these species.
    Mr. Abercrombie. But the Center is willing to utilize the 
existing elephant population in the Feld organization for this 
purpose, is that right?
    Mr. Kirtland. Absolutely. We have animals there that are 
dedicated to breeding, and we will continue to do that.
    Mr. Abercrombie. It is kind of an interesting phrase. You 
are dedicated to breeding. Yes, I imagine they are.
    [Laughter.]
    Mr. Abercrombie. Only in my imagination, though.
    Do you have volunteers? Is that what you are saying?
    Mr. Kirtland. We are working with other zoos and we would 
continue to work, and we would certainly look for other 
opportunities to broaden the relationships we have with other 
public display entities throughout North America and the world.
    Mr. Abercrombie. Mr. Chairman, one of the things I would 
like to suggest is perhaps in the funding side of it we look to 
that angle because I don't think we can necessarily expect the 
non-profit and/or foundation area supported by profit-making 
entities to necessarily be able to swing all of the expenses. 
That might be part and parcel of some of the leveraging money 
that we take.
    The last question I have is--and anybody can answer this--
am I correct that, like, say with the rhinos--Dr. Foose, when I 
had the opportunity to travel with Mr. Pombo on the CITES 
oversight and the Campfire program and we saw the rhino 
preservation and breeding activities that are taking place in 
southern Africa, it was very impressive. But the amount of 
money that you are talking about is so modest. I take it what 
you are saying is that that little bit of money leverages other 
dollars. Is that correct?
    Mr. Foose. Very much so, yes.
    Mr. Abercrombie. So if we could increase even to some 
modest degree the base funding there, would that have the 
effect of being able to leverage additional dollars, do you 
think?
    Mr. Foose. Without doubt, without doubt, it would.
    If I might just comment on the discussion that you were 
previously conducting, the funds that are available for rhino 
and tiger and elephant are so limited and the highest priority, 
as some of the other witnesses have commented, is really to 
prevent the poaching that is occurring in the wild. And I don't 
pretend to know if something like this would be possible, but 
maybe to achieve what you were proposing in terms of trying to 
provide support to assist captive propagation, which we believe 
is also a very integral component of diversified strategies for 
conservation of all of these species, maybe there could be tax 
breaks for companies like Fed Ex, which has moved rhinos and 
elephants in the past.
    Mr. Abercrombie. Well, Fed Ex got a huge thing with moving 
the pandas, tremendous publicity.
    Mr. Berry. They have got a lot of publicity, but perhaps as 
this would become more routine and more frequent, if there 
could be some provisions that would--
    Mr. Abercrombie. Well, we are giving tax breaks to 
everybody else just for showing up and breathing, so I don't 
see why we couldn't do it when you are actually accomplishing 
something worthwhile.
    Mr. Gilchrest. We will add that to the text when it gets to 
the House Floor.
    Mr. Abercrombie. That is a good point, but the Chairman has 
overindulged me for the moment and I am very appreciative of 
that. I just want to say how much I appreciate all of that.
    I hope you are all supportive of the Campfire system. I was 
very, very impressed by that, and they have got terrible 
trouble now there from the politics in the area and I hope that 
this may be one way for the average person over there, as well 
as the animals we are seeking to work with and help survive, to 
survive all the rest of it.
    Thank you very much, Mr. Chairman.
    Mr. Gilchrest. Well, thank you, Mr. Abercrombie. It would 
be helpful and conducive, I guess, if we could recess to a 
large, open space, have lunch together and continue this 
conversation for the rest of the afternoon, but I have other 
commitments that are crying out for attention, as well as many 
of the rest of you. But I appreciate those questions and we 
will have further discussion on that, and some of those 
specific recommendations certainly will be put into the pieces 
of legislation that pass through here that would be appropriate 
to make all of this happen.
    Mr. Abercrombie. Just before we conclude, could we ask if 
there are some suggestions on--
    Mr. Gilchrest. I have just got a couple of more questions.
    Mr. Abercrombie. I beg your pardon. I thought you were 
concluding.
    Mr. Gilchrest. I am just going to sort of move through 
these expeditiously.
    Ms. Steuer, can you comment on the recent African ivory 
sales that, on the one hand, seem to provide funds for that 
government to continue to help in the conservation efforts, 
versus the potential incentive for more poaching?
    Ms. Steuer. A loaded question. The relatively small amount 
of funding that came out of the most recent set of ivory sales, 
which is the 1997 sale for Botswana, Namibia and Zimbabwe, did, 
from all the follow-up investigation, appear to go back into 
conservation programs in Botswana, Namibia and Zimbabwe. As 
Congressman Abercrombie just referred to the problem in 
Zimbabwe, I am not sure what we are going to be seeing from 
them in terms of conservation in the near future of their 
elephants.
    We do expect additional requests for ivory sales to come at 
the next CITES Conference of the Parties from Zimbabwe, 
Botswana, Namibia, and we expect South Africa, potentially 
Tanzania as well. The issue all along, as you alluded to in 
your question, Mr. Gilchrest, is that whenever you fuel a 
demand, or for lack of a better term put a stamp of approval on 
a demand, it becomes extremely difficult to tell anybody living 
in western or central Africa or anywhere in Asia that while 
demand for ivory related to elephants living in Botswana, 
Namibia, Zimbabwe and South Africa is fine, demand for ivory 
from elephants in Cameroon, Chad, Ivory Coast, India, China--
pick one--is not good.
    Our information and the history is that the minute poachers 
and ivory traders believe that legal sales will begin again, 
they stock up. So all along our issue has not been technically 
what is going on in the countries that want to sell their 
ivory. It has been the impact of that on the rest of Africa and 
Africa's elephants, and the rangers are giving their lives 
everyday because of it.
    Mr. Gilchrest. Dr. Robinson, at the beginning of Ms. 
Steuer's testimony she sort of brought us back to reality with 
the potential for real extinction of these species over the 
next few years. The way the program is presently structured and 
funded, which is pretty minimal, I guess, if nothing changes, 
do you see some of these species becoming extinct even with the 
program that we now have?
    Dr. Robinson. Thank you, Mr. Chairman. I think what we are 
grappling with at the present time is minimal funding which is 
supporting on-the-ground conservation efforts in a number of 
locations. With our present level of funding, we will tend to 
slowly lose populations. They are going to slowly wink out 
across the population.
    However, if we can take the available funding and really 
leverage it in a much more effective way, I am fairly 
optimistic that we are going to be able to hold on to all of 
these species. It is a statement of faith that I don't think we 
have to lose any of these species. We have been subject to 
years of gloom and doom about these species, and yet we have 
been able to hold on to them.
    Species like the Javan rhino are really at the edge. If 
there is a species which is vulnerable, it is that kind of 
species. But even for that species, with effective 
conservation, I think we can actually hold on. So the situation 
is not optimistic. We are slowly losing a lot of fights across 
the landscape, but I don't think that is cause for loss of 
hope.
    Mr. Gilchrest. Mr. Kirtland, are there any artificial 
insemination activities with any of these animals?
    Mr. Kirtland. Yes, there is, and it is starting to show 
some success. But artificial insemination should not be really 
looked at as the answer to replace natural breeding, but there 
has been some success. The Indianapolis Zoo, for instance, has 
just had a couple of elephants born through artificial 
insemination; I think the Pittsburgh Zoo, as well. But it is 
limited and it is far more difficult in reality than letting 
the male and the female get together and do what they need to 
do.
    Mr. Gilchrest. Is there ever any difficulty moving animals 
from one country to another?
    Mr. Kirtland. Yes, there is, and that is one of the issues 
that we addressed earlier. We would like to see more 
cooperation between governments. In fact, Ringling Brothers 
tried to import an animal from Canada several years ago. The 
permit languished for almost 18 months. It was never formally 
denied, and the end result was the animal ended up in Europe, 
where he promptly impregnated several females over there.
    Mr. Gilchrest. What was the reason for the delay in this 
country?
    Mr. Kirtland. I think the problem is in CITES, which 
unfortunately does not make a distinction between wild 
populations and domestic population. The Asian elephants in 
North America are domestic elephants; they are not wild 
elephants. And by prohibiting their propagation, it does 
absolutely nothing to ensure the survival of the wild 
populations. But because CITES prohibits breeding for 
commercial purposes, it interferes and impedes the propagation 
of the domestic population.
    Mr. Gilchrest. How was the animal able to be transferred to 
Germany and impregnate females there but not impregnate females 
here?
    Mr. Kirtland. The Canadian government authorized the export 
from Canada to the United States immediately, but our permit 
request sort of died in the Fish and Wildlife Service.
    Mr. Gilchrest. So that is an area that needs some attention 
from us?
    Mr. Kirtland. Absolutely.
    Mr. Gilchrest. Dr. Foose, you said the next 5 to 7 years 
are critical with Asian rhinos. What will happen in the next 5 
to 7 years? Does the program that we now have need to increase 
the funding? Are there political obstacles, monetary obstacles, 
habitat problems? If we get past the next 5 to 7 years, does it 
look bright?
    Mr. Foose. It doesn't look bright, but there certainly is 
some basis for optimism. As Dr. Robinson commented, there 
really is no reason to lose these species, and the history of 
rhinos actually does provide some encouragement.
    I alluded briefly to the fact that the most abundant kind 
of rhino on the planet today, the Southern White Rhino, which 
now is over 10,000 individuals, was down to fewer than 40 in 
1900. And through very, very strict protection, they have been 
able to recover to the number that exists today. The same is 
true of the Indian Rhino. The Indian Rhino was probably down, 
certainly in India, to fewer than 40 individuals, maybe as few 
as 20, and a similar situation in Nepal, and they have been 
able to recover to a couple of thousand individuals.
    Mr. Gilchrest. When you get to that few animals, you have 
such a small gene pool there that that seemingly doesn't have 
an effect on the species?
    Mr. Foose. It can, but it is more important how long the 
population remains small rather than how small it gets. If a 
population becomes very small but is permitted to recover very 
rapidly, all of the evidence, both theoretical and 
experimental, indicates that you do maintain a viable gene 
pool.
    We still have the potential of conserving viable 
populations of all of the taxa of rhinos, but it is going to 
require even greater commitment than has occurred in the past, 
and a very important contribution to that would be increased 
appropriations for the Rhino and Tiger Conservation Fund.
    Mr. Gilchrest. Well, Neil and I will look for that core 
project.
    I wish we had more time.
    Mr. Berry?
    Mr. Berry. Mr. Chairman, I think it would be a disservice 
to this Committee--and I have not heard it raised today and 
Karen and I were discussing this. All of these issues are 
interconnected, but there is one issue in Africa, the issue of 
AIDS in Sub-Saharan Africa, that is also inextricably linked, I 
believe, with the conservation of these species.
    Mr. Gilchrest. The issue of what?
    Mr. Berry. Of AIDS in the human population. Its impact in 
Sub-Saharan Africa and the economic impact, the pressures it 
places for increased demand on black markets, on poaching, down 
to the ability to maintain anti-poaching staff and personnel, 
is one that we are finding, and I know many conservation 
organizations are finding increasingly hard. So I think as the 
Congress deals with these issues, we would be remiss not to 
raise also--
    Mr. Gilchrest. We will take a close look at that.
    Thank you all very much. Again, I wish we had a lot more 
time to deal with this, but we will make an effort to stay in 
touch with all of you and pursue these efforts very strongly 
and, with some of your recommendations, travel to distant and 
beautiful parts of the globe and take a look at it.
    Thank you all very much.
    I have got a couple of housekeeping chores here. The record 
will remain open for 10 business days for anybody to include 
anything into the record.
    I would also like to say that Macy Bell and Kevin Frank did 
a great job, a great job.
    The hearing is adjourned.
    [Whereupon, at 12:46 p.m., the Subcommittee was adjourned.]


</pre></body></html>
